<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010 
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                DAVID E. PRICE, North Carolina, Chairman
 JOSE E. SERRANO, New York                  HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas                      JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland     JOHN ABNEY CULBERSON, Texas
 ALAN B. MOLLOHAN, West Virginia            MARK STEVEN KIRK, Illinois
 NITA M. LOWEY, New York                    KEN CALVERT, California
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

             Stephanie Gupta, Jeff Ashford, Shalanda Young,
                Jim Holm, Will Painter, and Adam Wilson,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Securing the Nation's Rail and Transit Systems (Part 1)..........    1
 Securing the Nation's Rail and Transit Systems (Part 2)..........   95
 Improving the Efficiency of the Aviation Security System.........  281
 Biometric Identification.........................................  356
 Developing and Transitioning Homeland Security Research Products 
Into Use..........................................................  436
 Member Requests..................................................  568
 Outside Witness Testimony........................................  598

                                   S
                                ________

         Printed for the use of the Committee on Appropriations


























                                Transit
                                Av.Sec.
                                  Bio.
                                  S&T
                                Mem.Req.
                                Out.Wit.




















    PART 2--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010













        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                DAVID E. PRICE, North Carolina, Chairman

 JOSE E. SERRANO, New York                  HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas                      JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland     JOHN ABNEY CULBERSON, Texas
 ALAN B. MOLLOHAN, West Virginia            MARK STEVEN KIRK, Illinois                                     
 NITA M. LOWEY, New York                    KEN CALVERT, California
 LUCILLE ROYBAL-ALLARD, California
 SAM FARR, California
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

             Stephanie Gupta, Jeff Ashford, Shalanda Young,
                Jim Holm, Will Painter, and Adam Wilson,
                            Staff Assistants
                                ________

                                 PART 2

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Securing the Nation's Rail and Transit Systems (Part 1)..........    1
 Securing the Nation's Rail and Transit Systems (Part 2)..........   95
 Improving the Efficiency of the Aviation Security System.........  281
 Biometric Identification.........................................  356
 Developing and Transitioning Homeland Security Research Products 
Into Use..........................................................  436
 Member Requests..................................................  568
 Outside Witness Testimony........................................  598

                                   S
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 50-121                     WASHINGTON : 2009











                     COMMITTEE ON APPROPRIATIONS

                      DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania              JERRY LEWIS, California
 NORMAN D. DICKS, Washington               C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia           HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                        FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana               JACK KINGSTON, Georgia
 NITA M. LOWEY, New York                   RODNEY P. FRELINGHUYSEN, New
 JOSE E. SERRANO, New York                  Jersey
 ROSA L. DeLAURO, Connecticut              TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia                  ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts              TOM LATHAM, Iowa
 ED PASTOR, Arizona                        ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina            JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                       KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island          MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York              JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California         MARK STEVEN KIRK, Illinois
 SAM FARR, California                      ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois           DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan           JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                       RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania                KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey             JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia           STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas                    TOM COLE, Oklahoma
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)







        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010 

                                          Thursday, March 12, 2009.

         SECURING THE NATION'S RAIL AND TRANSIT SYSTEMS, PART 1

                               WITNESSES

JOHN SAMMON, ASSISTANT ADMINISTRATOR FOR TRANSPORTATION SECTOR NETWORK 
    MANAGEMENT, TRANSPORTATION SECURITY ADMINISTRATION
W. ROSS ASHLEY, ASSISTANT ADMINISTRATOR OF GRANT PROGRAMS, FEDERAL 
    EMERGENCY MANAGEMENT AGENCY
BILL MORANGE, DEPUTY EXECUTIVE DIRECTOR AND DIRECTOR OF SECURITY, NEW 
    YORK METROPOLITAN TRANSPORTATION AUTHORITY
JACK ECKLES, DEPUTY EXECUTIVE OFFICER FOR SYSTEM SAFETY AND SECURITY, 
    LOS ANGELES COUNTY METROPOLITAN TRANSPORTATION AUTHORITY

                  Opening Statement of Chairman Price

    Mr. Price. Good morning. The subcommittee will come to 
order. Today's hearing will focus on how well security programs 
have been operating in the rail and transit arena and how 
effectively Federal dollars have been spent to protect the 
users of these systems from any incidents. These efforts are 
jointly run by the Transportation Security Administration, 
which is in charge of surface transportation security efforts, 
and the Federal Emergency Management Agency, FEMA, which is 
responsible for distributing grants annually to rail and 
transit systems to strengthen the security efforts.
    I am including funds here contained in the recently enacted 
economic recovery package. To date rail and transit entities 
have received a total of $1.67 billion in grants for security 
enhancements, including infrastructure protection, deterrence, 
facility hardening, and employee training.
    Worldwide the most common transportation terrorist targets 
have been rail and transit systems. We have been lucky in the 
United States, but others have not been so fortunate. The 
attacks in Madrid, London, Mumbai all come to mind when we 
discuss rail and transit security.
    More recently, on January 24th, the Indian Army recovered 
two powerful bombs near a railway station in the state of 
Assam. The bombs were discovered just 2 days before India's 
Republic Day celebration. As a result the Assam government 
suspended night train operations until after the holiday out of 
concern for possible sabotage attempts.
    In addition, in Pakistan on February 7th bus drivers began 
receiving letters from the Taliban threatening attacks by 
suicide bombers if Western devices such as audio and video 
equipment were not removed.
    Finally, on February 18th, in our own country, in my own 
State of North Carolina, we had a bomb scare on Amtrak, 
February 18th. After dogs inspected the train for about 4 
hours, the train was cleared to move ahead.
    While we have thus far been spared the type of violent 
attacks that occurred elsewhere, we must be ever vigilant in 
our efforts to prevent incidents from occurring in this 
country.
    Based on the Homeland Security Department's first Federal 
valuation of mass transit security, however, transit and rail 
security efforts are not as vigorous as they should be. The 
report showed that 77 percent of the Nation's largest rail and 
bus systems are not meeting Homeland Security guidelines. By 
contrast, 96 percent of the airlines are complying with 
security requirement. This isn't surprising given that when the 
Transportation Security Administration was created in 2001 it 
was tasked first of all with federalizing aviation security. 
Since that time aviation security has received the 
preponderance of Federal funding and attention. In comparison, 
other modes of transportation security such as rail and transit 
have remained under the purview of local communities in the 
private sector, receiving yearly grant funds to address their 
highest security risks.
    During Secretary Napolitano's confirmation hearing, she 
announced that she would focus on surface transportation 
security because, as she said, we have done an awful lot in the 
aviation world. Secretary Napolitano followed this up with the 
secretarial directive asking TSA to review the current 
strategies, plans and programs for security of the air, surface 
and maritime transportation sectors, to include a side-by-side 
comparison of the threat environment resources and personnel 
devoted to each transportation sector.
    The budget blueprint we received just 2 weeks ago places a 
renewed emphasis on transportation systems. It is my hope that 
today we can discuss how TSA and FEMA through its grants plan 
to focus on rail and transit security, including what efforts 
the Department and the largest rail and transit entities are 
undertaking to improve the poor assessments that they have 
received.
    We have a distinguished panel before us to discuss the 
security threats, vulnerabilities, and needs of our Nation's 
rail and transit systems. The panel consists of Mr. John 
Sammon, TSA's Assistant Administrator of Transportation Sector 
Network Management; Mr. Ross Ashley, the Assistant 
Administrator for Grants of the Federal Emergency Management 
Agency; Mr. William Morange, Deputy Executive Director and 
Director of Security, New York Metropolitan Transportation 
Authority; and Mr. Jack Eckles, the Deputy Executive Officer, 
System Safety, Security and Law Enforcement, Los Angeles County 
Metropolitan Transportation Authority. We welcome all of you 
and look forward to your participation here today.
    I will ask Mr. Sammon to begin, followed by Mr. Ashley, Mr. 
Morange, and finally Mr. Eckles. If each of you could summarize 
your statement in 5 minutes, your full written statement will 
be entered into the record and after all of you have concluded 
we will proceed with questions. Let me turn now to our 
distinguished ranking member, Harold Rogers, for his opening 
comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome to our 
guests today.
    Recent well-coordinated attacks on rail and mass transit 
systems are a sobering reminder that our homeland security 
priorities are vast and continually changing. The terrorist 
strikes on the Madrid system in 2004, London in 2005, and the 
recent events in Mumbai all raise the question of whether we 
are effectively addressing vulnerabilities within our own rail 
and transit systems here at home, particularly at a time when 
public transportation ridership has risen to its highest level 
in 52 years.
    DHS has initiated a number of programs over the last 6 
years to strengthen security measures within the various 
surface transportation modes. Given the complexity of ownership 
and variety of systems and authorities involved it is no easy 
task, but it is a challenge that I believe can be overcome 
through careful coordination, analysis, and strategic planning. 
DHS has many tools at its disposal, and we must utilize them 
effectively.
    First and foremost, more than $1.5 billion have been 
provided for rail and transit grants since 9/11. However, only 
a paltry 12.6 percent of that money has actually been spent, 
leaving $1.3 billion languishing in the coffer. That is 
unacceptable, but unfortunately nothing new to this 
subcommittee. Billions upon billions in first responder and 
other DHS grants are left by the wayside every year. While I 
certainly see the value of providing this assistance to our 
State and local partners, I have got to question its impact if 
they are not put towards their intended purpose.
    With only a small fraction of grant funding having been 
spent, I have serious concerns about whether we have made any 
measurable dent in the security risks of our transit systems. 
The taxpayers deserve to know what we are buying and for what 
purpose we are buying.
    Second, TSA's increasing deployments of Visual Intermodal 
Prevention and Response Teams, VIPeR, to mass transit stations 
appears to be a promising sign. It is my hope that these teams 
of law enforcement agents and canine teams are deterring those 
who would target rail and mass transit stations. TSA also 
appears to be honing in on the threat to rail shipments of 
hazardous materials with the issuance of new, improved 
regulations, most notably to establish a chain of custody for 
such materials. Again these are good signs, but are these 
efforts being coordinated with approved security plans as well 
as the available grant funding. We want to know that.
    Third, the resource that pulls all this together is the TSA 
surface transportation inspectors. Their recent assessment of 
the Nation's largest transit systems reveal that only 23 
percent demonstrated satisfactory security mechanisms and 
processes. That tells me that there are big gaps to fill that 
we are not addressing with either the grants or the VIPeR 
teams.
    While it is evident that securing these transportation 
modes is extremely challenging, there must be effective ways to 
provide sufficient security without unduly hindering the free 
flow of passengers and commerce.
    To help us address this issue we have with us some very 
experienced professionals from two of the Nation's largest 
transit systems. Gentlemen, we thank you for being here. We 
look forward to hearing your thoughts and ideas and hopefully 
some suggestions that we can take seriously.
    I also look forward to hearing from Mr. Sammon of TSA, Mr. 
Ashley of FEMA on how DHS is working with its State and local 
partners to better secure the transit systems that on average 
make more than 27 million passenger trips a day across our 
great Nation.
    Thank you, Mr. Chairman. I look forward to today's 
discussions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Mr. Sammon, please proceed.

                    Opening Statement of John Sammon

    Mr. Sammon. Thank you. Good morning, Chairman Price, 
Ranking Member Rogers, distinguished members of the 
subcommittee, and my colleagues from FEMA, New York, and Los 
Angeles. I am pleased to be here today to discuss progress by 
the Transportation Security Administration on rail and mass 
transit security grant programs.
    The transit grant program is an important part of TSA's 
Intel driven, risk-based, counterterrorism transit security 
strategy. TSA's counterterrorism transit strategy is focused on 
making high risk transit systems less attractive targets and 
more secure, less attractive through forward leaning visible 
deterrents such as VIPeRs, canines, mobile screening, security 
surges, trained front line employees and an aware public and 
behavioral detection capabilities, more secure through 
intrusion and anomaly detection, access control, and facility 
hardening.
    TSA's transit strategy begins with active security partner 
engagement. Peer advisers, two-way communication, best practice 
and intelligence sharing, followed by continuous improvement 
and, finally, risk based allocation of grant funding.
    TSA's grant strategy begins with a regional focus. We 
believe that effective transit security requires an overall 
regional level of security. Manhattan cannot be protected if 
potential terrorists have free access to transit systems in New 
Jersey. The grant process in the past had mostly to do with 
dividing up the pie and individual agencies selecting projects 
that they separately deemed appropriate. TSA has shaped the 
process to begin with intelligence insights, focused resources 
on high risk agencies, give priority to low cost, high return 
security measures and use regional transit security working 
groups to identify, discuss and determine regional priorities.
    Security partner input has helped shape this process in 
many important ways. Two weeks after I started my job at TSA in 
the summer of 2006, I went to New York to meet Bill Morange and 
his staff for his transit security insights. Bill stressed the 
training, drills, canine teams and mobile bag screening were 
common practices on the MTA. The same month I traveled to 
Houston to ask Chief Tom Lambert how we might set up a transit 
advisory group for TSA composed of key transit law enforcement 
chiefs. He said, hire somebody who has walked in our shoes to 
lead the transit effort, and we did. We hired Paul Lennon, Jack 
Eckles' predecessor in Los Angeles, as the general manager of 
transit. Paul is right over here in the corner. We also hired 
Sonia Proctor, former chief with Amtrak and we also hired Fred 
Godeen, Vice President, Safety and Risk Management, from 
Washington Metro.
    Subsequent conversations with Chief Lambert created a way 
to streamline training grants to encourage more transit 
agencies to release front line employees for training classes. 
New Jersey Transit approved champion getting behavioral 
assessment training on a DHS approved list for transit 
officers. The Los Angeles Sheriff's Department fostered a 
regional versus agency view of transit security priorities. 
Chief John O'Connor from Amtrak developed the operating 
agreement protocols to allow increased Federal and local VIPeR 
coordination exercises. Executive Director Bill Morange and 
Chief Jim Hall from New York and Chief Dan Finkelstein of Los 
Angeles are among the fine group of law enforcement chiefs 
advising TSA on a regular basis.
    In summary, TSA's transit strategy evolves through and is 
better from constant interaction with our security partners and 
advisers. It is designed to make terrorist attack planning more 
difficult and the targets less attractive, and it is designed 
to make the facilities and systems more secure. Transit grants 
are an important part of that strategy. The grant process is an 
important tool to support a transit security strategy, and all 
of us at DHS want it to be as successful as possible. We look 
forward to working with our partners at FEMA to award the 
additional grant funds provided in the Recovery Act as 
expeditiously as possible to put more Americans to work 
securing our transit systems and to make this grant process as 
streamlined and as effective for security as we can.
    Thank you, and I will be happy to answer any questions you 
may have.
    [The statement of Mr. Sammon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you, Mr. Sammon.
    Mr. Ashley.

                  Opening Statement of W. Ross Ashley

    Mr. Ashley. Good morning Chairman Price, Ranking Member 
Rogers, and members of the Subcommittee. I am Ross Ashley. I 
serve as the Assistant Administrator of the FEMA Grant Programs 
Directorate. Thank you all for the opportunity to appear before 
you today to discuss our efforts to secure our Nation's transit 
systems.
    As you know, FEMA is the Department of Homeland Security's 
lead agency assisting State, local and tribal jurisdictions and 
regional authorities to prepare, respond to, and recover from 
natural disasters, terrorist acts, and other catastrophic 
events.
    As part of that mission the Grant Programs Directorate in 
partnership with TSA administers a number of programs designed 
to enhance the security of surface transportation systems 
throughout the country. One such program is the Transit 
Security Grant Program, or TSGP. TSGP has evolved since its 
inception in 2005, and I would like to highlight a couple of 
the process improvements that have taken place. Let's talk for 
a moment about the risk-based process.
    Practically 90 percent of the funds that have been 
mentioned earlier today have been applied towards the top eight 
Tier 1 transit systems in the country. This indicates the 
Department's commitment to provide necessary funding to those 
urban areas with the greatest risk.
    In order to truly identify those high risk transit systems 
over the past few years, the Department has continued to make 
improvements to the risk methodology that we use. Four years 
ago the Department, for the first time, distributed transit 
security funds using multiple risk factors. Each subsequent 
year the Department has applied a more mature and consistent 
threat and risk analysis in determining allocations for those 
later year funds. Also, we have considerably improved our 
processes in terms of outreach which is another successful 
component of the Transit Security Grant Program. As you all 
have noticed in her recent action directives, one such 
directive is related to engagement with our State, local and 
private sector partners. The Secretary is fully committed to 
conducting regular outreach with these partners. The owners and 
operators of infrastructure are partners in this process and 
are vital to the well-being in the States and the urban areas 
which they serve. Thus, it is imperative for transit systems to 
be incorporated into a regional preparedness planning effort 
and to have regional strategies.
    The Department believes that a regional approach is 
critical to overall preparedness. These strategies are intended 
to integrate individual agencies' needs into a regional 
perspective in order to identify transportation security 
vulnerabilities, and to focus Federal, State, and local 
funding.
    This year in fiscal year 2009, the Transit Security Grant 
Program continues to build on the progress made in the past to 
institutionalize the risk-based regional approach used for the 
allocation of transit security funding.
    One last successful component of this program is the 
Department's collaborative efforts which Mr. Sammon also 
mentioned earlier. From the development of program guidance to 
the application process, FEMA works and coordinates with 
numerous governmental and nongovernmental entities to ensure an 
appropriate level of subject matter expertise, and to solicit 
feedback from Federal, State, local and industry partners.
    FEMA works with a number of DHS components, including TSA, 
the Office of Infrastructure Protection, the United States 
Coast Guard and the Science and Technology Directorate, as well 
as the Department of Transportation's Federal Transportation 
Administration and Federal Railroad Administration.
    We have also worked closely with State and local 
transportation officials from across the country, as well as 
industry groups, including the Association of American 
Railroads and the American Public Transportation Association.
    Before I conclude my statement, I would like to take a 
moment to illustrate how the successful evolution of this 
program through the use of risk-based allocations, outreach and 
collaboration has impacted real transit agencies and 
effectively mitigated existing and future threats.
    Transit agencies in Philadelphia in fiscal year 2007 used 
funds on a regional project to create a transit specific 
intelligence analysis center. The center allows officials from 
Philadelphia and New Jersey to share information and analyze 
potential threats, allowing officials to take appropriate 
mitigation and prevention activities.
    In fiscal year 2006, Portland's Tri-Met system created and 
began to administer an extensive front line employee training 
program. Through this effort, Portland's transit employees are 
trained on a recurring basis on security and IED awareness and 
principles of behavior assessment screening.
    Most recently and very importantly, on November 23, 2008, 
TSA informed FEMA that a potential threat was identified 
against New York City's subway system. New York requested 
financial assistance for the rapid buildup of its police 
presence in the subway system, including deployment of 
specialized teams. In less than two hours the day before 
Thanksgiving, FEMA released over $23 million in previously 
awarded fiscal year 2008 Transit Security Grant Program funds 
for New York in support of this operational need.
    Mr. Chairman and Members of the Subcommittee, this 
concludes my testimony. Thank you and your staff for your 
support of FEMA's Grant Programs Directorate and the Department 
of Homeland Security. I am happy to answer any questions you 
might have.
    [The statement of Mr. Ashley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Now we turn to the leaders from our 
major systems, beginning with Mr. Morange.

                  Opening Statement of William Morange

    Mr. Morange. Good morning, Chairman Price, Vice Chairman 
Serrano and Members of the Subcommittee. My name is Bill 
Morange. I am the Deputy Executive Director, Director of 
Security for the MTA.
    I joined the MTA in 2003 after having served 39 years-plus 
in the New York City Police Department where I retired as the 
Chief of the Organized Crime Control Bureau. Before that I was 
the Chief of Patrol and served as the Incident Commander down 
at Ground Zero on 9/11.
    My role in the MTA is to ensure that the actions we are 
taking in light of September 11th, Madrid, London and Mumbai 
and other threats, prepared our organization to respond to 
terrorist and other emergency incidents and to provide as 
secure an environment for our customers as is humanly possible. 
I will talk about that and our relationship with the Department 
of Homeland Security and the Federal Government and what other 
security needs we look for as we go forward.
    As you well know, the MTA is the largest transportation 
provider in the Western Hemisphere. We provide over 8 and a 
half million subway, rail and bus rides each day in the New 
York Metro area, roughly one-third of all transit rides 
nationally. Approximately 900,000 vehicles cross our seven 
bridges and two tunnels each day, carrying over 1.4 million 
passengers.
    Certainly 9/11 was a traumatic event that happened in the 
New York Metropolitan region and our system was directly 
affected. But some of the things that we have learned from that 
day and as we move forward we should continue to do. Since then 
we have done many things internally and also externally in 
hardening and operational within the system.
    Some of things that I do like to talk about that have been 
positives are working along with TSA and all the emergency 
drills that we have undertaken. I am a firm believer that the 
emergency drills are probably the most important thing that we 
can do. Six weeks prior to 9/11, we did a drill, and the OEM, 
Office of Emergency Management, for New York City at that time 
was in 7 World Trade. And the biggest thing about the drills 
was not everybody knowing what everybody else does, but 
everybody gets to know who is who. And when you respond up on 
the scene, Bill knows Mr. Price, Mr. Price knows Bill, and it 
is a lot easier to perform your function. And on that day we 
lost a lot of senior leadership, but we were able to move and 
do everything that we had to do to further protect the city. It 
was probably the first time I was really acquainted with the 
MTA, because when you come from a police department of 40,000 
people you would never realize that we would need a lot of help 
to evacuate the city. That was the first time we called for 
buses and we used New Jersey Transit and we used other police 
departments from around the area.
    The other programs I would like to talk about is see 
something, say something, keeping all our customers and people 
aware of what is happening out there and to make sure that they 
have a way to contact us immediately and we have a way of 
responding back to let them now what the outcome was. I think 
the more informed public that you have, the better off you are. 
And I always say that the riding public is your best eyes and 
ears that are out there, because every day if you get in a 
train they sit in the same seat, take the same train, they know 
what belongs and what doesn't belong.
    Another thing that we were able to accomplish through TSA 
and DHS was the training of our front line employees in which 
we feel is very important that they are also aware. Because 
they, like our customers know what belongs and what doesn't 
belong in those systems.
    I would like to talk about before we go further, proposed 
recommendations that we feel will improve the process. Going 
forward, the MTA would like to emphasize a number of points 
that we believe will improve the Federal process. One, we 
believe the regional transit security program should broaden 
emphasis areas and have identified several areas where we think 
Federal funds are necessary. Consequence management, projects 
to enhance egress, lighting and signage, interoperable 
communication for our police and regional partners, backup 
power redundancy, and chemical, biological and radiological 
detection devices, which we have some deployed already in our 
system.
    We look for consistency in the grant guidelines from year 
to year which will allow us to do more effective long-range 
project planning and better address our transit agency's 5-year 
capital security plans.
    We need flexibility to use Federal funds for design project 
management and construction management tasks conducted by in-
house forces. Presently these tasks are reimbursable only if 
they are done by third-party contractors. We feel that our in-
house forces know the system better than others, and also we 
could do it at a lot less of a price and use the rest of those 
Federal funds for other areas that are well needed.
    We need flexibility to fund all in-house flagging and track 
excess work on straight time. As of now it is in lieu of 
overtime because we are not allowed to use that with Federal 
funds, we are not allowed to put in for that. We support the 
creation of a one-stop shopping mechanism for better 
coordination between FEMA and TSA. The current process requires 
one agency to approve the funds and the other to approve the 
scope of the project. This causes delay in approving the grant 
package every year. In fact, we are still awaiting approval for 
funding under the fiscal year 2008 funding measure.
    We recommend that our annual grant guidance be issued 
before the Federal fiscal year. This would enable grantees to 
address their security-related needs prior to the publication. 
Grantees would be able to submit applications at the beginning 
of the Federal fiscal year once appropriations are known. This 
would accelerate the review and approval process by TSA and 
FEMA and enable the transit agencies to advance their projects 
in a more timely manner.
    Seven, we would like to emphasize the critical role that 
the State has in the grant process and encourage a more active 
role for the State administrative agency.
    In developing the regional security strategy, we would like 
to propose the State SAA be formally part of the Transit 
Security Grant Program and chair regional transit security 
meetings, which we do now up in the New York area between New 
Jersey Transit, the MTA, NYPD, the Connecticut DOT, Westchester 
County.
    And finally, the funding sources under the TSGP process are 
designed to support the security needs of the transit agency 
and their primary law enforcement provider. Allocations that 
are directed to local municipal law enforcement agencies have 
the potential for a negative impact on the core objectives of 
the grant program.
    Thank you, and I would be happy to answer any questions 
that you may have.
    [The statement of Mr. Morange follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you, sir.
    Mr. Eckles.
    Mr. Eckles. Good morning, Mr. Chairman and members of the 
subcommittee. Thank you for this opportunity to speak before 
you on matters that are very important regarding the Transit 
Security Grant Program.
    The L.A. MTA is the third largest transit agency in the 
United States, and we serve multiple roles as a regional 
transportation planner, the coordinator, the designer, the 
builder, the operator of the country's most populous county in 
the United States, more than 13 million people. One-third of 
California's population live and work within our 1,433 square 
mile service area.
    Allow me to say that Secretary Napolitano stated much of 
what we would like to have happen with this DHS and TSA in her 
first action directive, as quoted by the chairman, under the 
State, local and tribal integration, immediately plan for an 
accelerated process for soliciting and collecting input from 
our local partners on how to improve the programs and processes 
of DHS.
    A brief overview of our program to date is that we have 
received approximately $24\1/2\ million of the over $1 billion 
that has been allocated nationwide. The Transportation Security 
Working Group in the greater Los Angeles region had its initial 
growing pangs at the beginning, but this group has developed 
into an extremely cohesive and cooperative organization. We 
honestly feel these funds have helped to obtain some initial 
successes in addressing capital investment needs for hardening 
our critical infrastructure and the extensive creation and 
implementation of transit-specific awareness and response 
training and exercises.
    It is important for me to point out that this grant program 
is considered by our group to be vital in order to better 
secure our systems, especially given the current economy in the 
Nation, in which most agencies are struggling to meet basic 
operating expenses.
    I find that the funding for the Homeland Security grant 
program is critical for the protection of this Nation's vital 
transit infrastructure, the public transit agency, and our 
riders. This grant program has allowed our agency to develop 
security programs we would not have been able to obtain any 
other way. We believe we have spent the taxpayers' money in the 
best possible way within the restrictions and limitations given 
to us. However, we believe it can be and should be better.
    Allow me to provide a chronology of events that have 
developed over time that illustrate our working group 
situation, but also let me say that while I do not want to 
engage in attribution of areas where the process has seemed to 
have gotten in the way of progress, I do believe that the 
Subcommittee must have a clear understanding of how certain 
procedures impact our ability to execute the intent of Congress 
as we strive to deliver these Homeland Security grant funded 
projects and programs in our local areas. There is only one 
purpose behind my testimony before this subcommittee, and that 
is to contribute to improving the program for the people we 
serve.
    I will start out by saying that in fiscal year 2006 there 
was clearly undefined and confusing roles and responsibilities. 
Project review and approval is cumbersome and difficult. This 
two-grant authorization notice, to want to approve your grant 
and then somewhere down the road after multiple reviews you get 
a second grant that says, oh, by the way, you can now spend 
down on it.
    2007 was a pretty good year for us in terms of the grant 
process. However, the supplemental funding was fraught with 
problems. TSA's interference with our contracted law 
enforcement agency by dealing with them directly and granting 
them part of the supplemental funds in advance. During our 
investment justification approval meeting TSA made an impromptu 
8-hour challenge to our transit security document, which they 
already possessed, already understood, but never read.
    Constant reviews and rewrites by a, quote, review panel, 
who nobody has explained to me to this date who that is, but I 
only talk to one person and that is a grant analyst. I don't 
talk to anybody in a review panel. Requiring first 
simplification and then they come back and ask for more 
information and then they come back and ask for clarification 
of the information we have given them.
    TSA was supposed to have held a secure briefing in 2007 
after everybody had submitted their application for a security 
clearance, but they failed to process the application. They 
then turned the briefing, which people worked around their 
schedules because the American public transportation annual 
conference was scheduled that same week. It turned into a self 
promotion session about how ask us about how great TSA was 
doing with the grant program.
    TSA didn't even bother to provide a sanitized version of 
the briefing to the agency since they couldn't get them their 
clearances. TSA official answering questions about grant 
guidance stated the grant guidance did not need to be followed 
and that TSA would take care of each unique situation.
    TSA responded to a question about cost overruns for 
operational packages and the transit agency responsibility for 
the cost of those overruns. They replied, it would simply not 
be a problem. However, the FEMA member in attendance countered 
that in an audit the transit agency would be accountable for 
the overruns for the guidance and the language of the grant 
needed to be changed. It further stated only an information 
bulletin can make that change.
    Inaccurate grant authorization notices for amounts not 
requested, in one case to $1.6 million above and beyond what 
the agency asked for.
    At another TSA meeting that turned into 6 hours of what 
training members of our region's agencies had received 
regarding terrorism awareness. They wanted names of courses, 
numbers of employees, including front line and other personnel, 
dates, where the future plans for training are, who is teaching 
and planning these courses, what is the sustainment plan for 
training without any prior notice that they were going to 
request this information.
    Now mind you, I have an agency that has over 9,200 
employees. I can only imagine what New York's employee status 
is. This was followed by questioning all of the region's 
projects except the operational packages, which were 
preapproved.
    TSA was asked questions about operational package equipment 
was not eligible according to that grant guidance. Their 
response was to unilaterally decide that it would come out of 
the base amount of 2007, which the agency had already divvied 
up and submitted their investment justifications with their 
budgets. We had to go back and review them, rewrite them, and 
reallocate to cover the equipment costs.
    In 2008, TSA decided that their member was going to be a 
cochair. In our region we don't have a chairman. We have a 
cooperative working group that spreads the dollars amount and 
allocations based upon project needs and demands of the 
regional security strategy as dictated by TSA.
    On top of that they included by name the two contracted law 
enforcement agencies in our region to sit as members at our 
table and authorized them to draw down on the funds as a 
member, further diluting the allotment of money we get.
    They also authorized them to be the approver of our 
agency's security plans. Our contracted law enforcement agency 
is now the one who has to approve our security plans. They also 
had to certify and review all of our projects. The operational 
packages submitted made the law enforcement agency a sub-
grantee recipient of the transit agency, thus making us 
responsible for what the law enforcement agency does or fails 
to do.
    TSA went on to state the law enforcement agencies didn't 
have to approve the agency's plan and that we could just simply 
line through ``approve'' and write in ``concur''. But to this 
date they have failed to give us an information bulletin to 
that effect.
    Also, 2008 was the year that they developed a scheme to 
group projects, and of course their training and their 
operational package were at the top of that list given the 
highest point value. And those in infrastructure protection and 
prevention were put at the lowest category and given the lowest 
score. So if you didn't submit a project that met some 
numerical threshold, which we were never told or explained 
about, our project wouldn't be approved and our money would be 
allocated to another region.
    2009, we went to the after action conference that TSA put 
on in the hopes that we could clarify and explain what our 
problems with the grant process were. They had scheduled it so 
far down into the system the grant guidance had already been 
written and nothing had changed in the 2009 grant guidance. 
Even though the entire year of 2008 we had explained the 
problems we had faced, nothing was changed.
    This year they added a grant guidance language and included 
an agency requirement for the sustainment of the operational 
package 5 years beyond the grant. When we went on requesting 
clarification as to what that sustainment plan requirements 
were, our law enforcement agency, our contracting law 
enforcement agency receives the e-mail saying, the expectation 
is that the knowledge and capability would be sustained in some 
way for the transit agency and transit security in anti-
terrorism although not strictly required. However, when we 
requested that information bulletin for that kind of 
clarification, none has been or was forthcoming. That is not to 
say we don't consider this program important. Otherwise I would 
not be before you today.
    We do have recommendations and I believe these 
recommendations are important. I heard it said that there is 
contact with peers. Well, I also heard my commander and my 
contract law enforcement name mentioned. To this date there has 
been no contact with me, the transit agency representative to 
have that kind of input, that kind of peer. I believe the 
recommendations should be an industry peer, not a law 
enforcement peer, review of the grant guidance development from 
year to year.
    I believe they should utilize the threat and vulnerability 
assessment that Congress paid for in every agency. To date we 
have not been able to utilize that threat and vulnerability 
assessment to develop projects that effectively reduce our risk 
as determined by the audit. Detection response and recovery 
projects, including chem/bio, should be included.
    As stated earlier, maintenance and administration costs 
hardly begin to touch the costs that we incur to manage these 
projects. 2.5 percent does not come close to anything that it 
costs our agency to manage this cumbersome and difficult 
process.
    Transparency and grant allocations. They say there is a 
risk-based empirical formula, but I don't supposedly have the 
clearance to know what that is. Ladies and gentlemen, I am a 
lieutenant colonel in the United States Army Reserve. I have a 
top secret, sensitive compartmentalized information clearance. 
And I can't find this out? We want more transparency, ladies 
and gentlemen.
    Grant program management, it should be either TSA or FEMA, 
not both. It has created a tremendous amount of confusion and a 
tremendous amount of delay. More predictability and flexibility 
in implementing priorities, that goes along primarily with the 
industry peer review panel, decreased emphasis on operating 
initiatives. We have an open system, and we need to harden it, 
and we can't buy enough people to secure it. So we need to 
implement those things that the threat vulnerability assessment 
says we need to expedite the approval process.
    Ladies and gentlemen, we have one agency in our Transit 
Working Group that is still waiting on its approval for a 2006 
grant because they keep getting the grant number wrong. We 
clarified last October going back to their after-action review, 
we got many of those cleared up right then and there, but we 
still have problems. To date, the 2008 investment 
justifications, some of them are going on their fourth review.
    We also believe that TSA should only contact the transit 
agency's designated representative. The investment 
justification process should be more streamlined. I have over 
the years of this grant development one of my project managers 
having been in the process long enough wrote 54 pages of an 
investment justification hoping to avoid write, rewrites, 
clarifications and drawing this process out longer than it 
needs to be. Unfortunately, it hasn't worked.
    Lastly, we all know the 9/11 Commission Report cited 
failure of imagination as one of the most significant 
shortcomings in security before the terrorist attacks. Also the 
Office of Homeland Security's mission statement for the 
transportation system sector states, ``Continuously improve the 
risk posture of Nation's transportation system.'' And to 
further this position DHS's own sector specific plan, 
``Describe the security framework that will enable the sector 
stakeholders to make effective and appropriate risk-based 
security and resource allocation decisions.''
    Our region supports these ideals and seeks to enable them 
in a flexible and manageable way. We know and understand the 
asymmetrical threat we face; we in our own system know this 
best.
    As an experienced battlefield commander myself having 
served in Iraq, I know the threat we face as do many others who 
work in our industry. We need to be allowed to influence our 
agency security destiny with the funds the American people have 
given us.
    In summary, I would like to say that to my agency and our 
region would like to see a reformed Transit Security Grant 
Program that encourages and supports imagination and innovation 
at the local level in executing the intent of Congress, in 
securing public transit as a national critical infrastructure 
asset. In order to achieve this goal we need maximum 
flexibility and discretion at the local level to operate within 
a broad, but well-defined program and grant guidance from TSA.
    Thank you, Mr. Chairman. I will be happy to answer any of 
your questions.
    [The statement of Mr. Eckles follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        AWARD AND FUNDING DELAYS

    Mr. Price. Thank you. We obviously have a great deal to 
talk about.
    Since 2002 and including the recently enacted economic 
recovery package, Congress has appropriated a total of $1.67 
billion for mass transit and passenger rail grants. These funds 
are used for security enhancements, including infrastructure 
protection, deterrence, facility hardening, employee training, 
and other purposes. There are numerous statutory requirements 
placed on TSA and FEMA as to how quickly this funding must be 
awarded and how quickly it must be provided to transit and 
passenger rail agencies.
    However, once the award has been made, once the funds are 
obligated, this funding is commonly sitting around for up to 2 
years before it is spent. We have heard a good deal of 
testimony this morning to that effect together with some of the 
reasons for this delay and some of the frustrations that 
accompany this delay. $130 million, or 93 percent, remains 
unspent from 2006 rail and transit awards. Over $268 million 
remains from 2007, that is 99 percent, and so forth.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Subcommittee has heard repeatedly from transit 
entities, including those this morning, about not just the 
slowness of decisions being made but the extraordinary 
difficulty of coming to agreement with TSA about specific 
expenditures, and priorities, and criteria and so forth. We 
need to understand this more adequately and figure out how to 
get around these problems, just to put it mildly.
    There is one thing that the 9/11 Act did which was designed 
to expedite the awarding of grants. We required in the 9/11 Act 
that these awards be made directly to transit and passenger 
rail agencies instead of being administered through the States. 
I am hearing Mr. Morange say this morning that perhaps that is 
irrelevant, and in fact there are other good reasons for 
involving the States more directly in this process. So maybe 
that statutory requirement or action was misguided.
    Anyway, I want to ask all of you in turn to address this. 
Mr. Ashley, Mr. Sammon, can you please explain to the 
Subcommittee why it takes so long for transit and passenger 
rail agencies to spend their grant awards? How do you account 
for the delay? How do you explain that and what are you doing 
or what can you do to make sure that the dollars are 
distributed more expeditiously? What kind of due diligence are 
you trying to exercise to make sure this doesn't become just an 
endless morass of shifting criteria, standards, nontransparent 
processes and all the rest that we have heard described here 
today? How can we solve this problem?
    The Subcommittee has heard a lot of complaints, persistent 
complaints from a variety of transit and rail agencies about 
restrictions on how grant funds can be used, and on uncertain 
shifting signals about how grant funds can be used. Entities 
have complained that they must continue to spend funds for 
training when their employees are already up to speed. Others 
have complained they are not allowed to use funds for chemical 
or biological sensors in their facilities, although their own 
assessment is that that is the primary need. Mr. Eckles has 
outlined some of these frustrations. And then finally let me do 
ask about the decision to not have the States any longer as the 
grantee. Has this change had any effect in allowing the dollars 
to be spent more expeditiously? Are there other reasons for 
having the State involved, as Mr. Morange I think suggested?
    Let's start with our Administrator.

                    STATE ADMINISTRATIVE AGENT ISSUE

    Mr. Ashley. I will start from an overall perspective, from 
a grant management perspective. First, let me comment on the 
State Administrative Agency (SAA) issue. This is actually the 
first year that the dollars will go directly to the transit 
agencies. This will be a new process. Previously, the dollars 
had gone through 56 State Administrative Agencies, and the 
transit entities would then be the subgrantees.
    That inherently, in some people's view, created a delay in 
the process, because the funding would go to the State, the 
State would subgrant, and that process created delays.
    Mr. Price. I must say though that none of the accounts we 
have heard this morning cite that.
    Mr. Ashley. No, sir, but that would add to the overall 
delays from previous years. Although it makes a lot of sense 
when you are looking at the regional collaboration. FEMA and 
TSA would both support the continued use of that process. For 
the last two years, the appropriations laws have mandated 
timelines that have been met, both in terms of getting the 
guidance out and making awards. We have consistently done that 
over the last two years.
    In previous years, in 2006 and such, there were extensive 
delays in getting both the grant guidance as well as the awards 
out. So there have been improvements in that area as well.

                           DRAWDOWN OF FUNDS

    As far as the overall drawdown of funds, when you look at 
awards being made and then funds actually being depleted out of 
the Federal treasury, there are a number of issues that 
surround that. Some are at the local level, some at the Federal 
level. Let me talk a little bit about the Federal bottlenecks 
and what we are doing on our end.
    They primarily reside with two major issues. One is 
ensuring our role as the fiduciary agent of the dollars to 
ensure that the dollars are being spent according to good 
practices, and that we have detailed budget worksheets--all of 
the fiduciary responsibilities that we have in place to ensure 
that the taxpayers' dollars are being spent effectively. That 
is part of it--having those detailed budgets and all of that 
before projects are authorized to spend down.

                   HISTORIC PRESERVATION REQUIREMENTS

    The second is, the environmental historic preservation 
requirements on some of the specific projects in all of these 
grant programs. If you take, for example, projects in New York 
where just about every facility that is going to be modified is 
greater than 50 years old, you are talking about an 
environmental and historic impact statement that must be 
conducted. Some of those statements are very detailed and take 
a long time to complete. That creates delays in the program.
    At the local level, we primarily see the acquisition 
process. There is in every local jurisdiction a different 
acquisition process that takes time to get those monies out the 
door, and then on a reimbursable basis for those monies to 
actually be drawn down out of the Federal Government.
    That outlines some of the processes. As far as improvements 
go, specifically with the environmental historic preservation, 
this year we have allowed our program analysts at FEMA to take 
level A projects, the first level of EHP projects, and 
categorically exclude EHP from it and allow grantees to be able 
to draw down on monies that do not have environmental impacts.
    Regarding Level B, or the second level of environmental 
historic projects, we allow the program analysts to work 
directly with our NEPA staff at FEMA to collaboratively get 
these projects rapidly through and approved for a drawdown.
    For the third level projects, we have to turn them over to 
the NEPA staff to do the environmental historic impact 
statements before funds are allowed to draw down.
    When we talk about drawing funds down, if we look at New 
York just as an example here, if we look at the 2006 funds, 96 
percent of the funds are available to be drawn down today of 
every dollar that is there. There are a couple of ``cat and 
dogs'' projects out there. Ninety-two percent of the 2007 and 
96 percent of the 2007 supplemental funds are available today 
to be drawn down.
    In Los Angeles, or California I should say, in total: 88 
percent of the funding in 2006, 60 percent of 2007, and 61 
percent of the 2007 supplemental funds are available today to 
be drawn down. You can see they are differing across different 
transit agencies and there are a number of different reasons 
for each one. A lot of the California stuff is tied up in 
FEMA's EHP process.

                                TSA ROLE

    Mr. Price. As I understand it, 90 percent of complaints, 
have to do with TSA, not FEMA. So the extent the factors you 
cite loom large in your own mind wasn't mentioned in any of the 
specific accounts we heard, but I do think we need to put the 
TSA role into perspective here. That appears to be where most 
of the delay is occurring.

                  TSA MODIFICATIONS TO GRANT LANGUAGE

    Mr. Sammon. Thank you very much for this opportunity. The 
language for the grants in 2008 was modified to go to the 
agencies and further modified in 2009 to go directly to transit 
agencies. In 2008, TSA wanted to establish the most transparent 
process we could. So, we did the grant guidance, there is a lot 
of verbiage behind it, but basically, this chart shows you the 
types of projects. Because we anticipated Congress saying ``get 
the States out of the process'' and have agencies competing 
directly agency-to-agency, we wanted to make clear what the 
security priorities were from an effectiveness basis, not only 
from a security effectiveness but also a cost effectiveness 
basis. We ranked them one through six and each category has a 
score. So, anybody can look at this and say here is a category 
and the score.

                           SECURITY RANKINGS

    Separately we have security rankings for the top 150 
agencies, and as protected SSI we provide those agencies with 
security rankings. Mr. Morange knows his, in Los Angeles they 
know theirs, and the other agencies know theirs. On a very 
transparent, simple basis, an agency can look at a project and 
make decisions where they think they will be in terms of 
putting up fences in bus yards versus where they might be in 
terms of training employees, or as Bill said, in terms of 
public awareness. It is very simple, very straightforward, and 
very transparent.

                 INTERACTION WITH THE TRANSIT COMMUNITY

    In our interaction with the transit community we did add in 
the three largest jurisdictions in the country where the 
security agency is providing the boots on the ground, every day 
security--NYPD, Chicago Police Department and Los Angeles 
Sheriff Department. I know Mr. Eckles refers to him as a 
security contractor, but Sheriff Baca with the Sheriff's 
Department for Los Angeles County is a little bit more than a 
security contractor. We included those folks at the table 
because we wanted to make sure, from a security standpoint, 
that we were getting the best day-to-day, law enforcement view 
of what was happening down in the subway, on the bus lines, and 
whatever else, at the table for that discussion in terms of 
what really are the regional priorities. Some people work with 
it, some not. But, we feel, from a security standpoint, that 
the people who are the boots on the ground, front-line, every 
day, day in, day out, people who are securing the subway, have 
an opinion of what is important to do their job every day. We 
included those folks and made the process better. In terms of 
the specifics that Mr. Eckles is talking about, my staff could 
address those. I do not know those personally.
    But, the idea was to make it as transparent as possible and 
to let people choose. In terms of the biological/chemical 
detection systems that was taken out in 2008 by other folks, it 
is back in this year's application and they are qualified 
things that people can look at and ask for. But, rather than go 
through some mysterious process, we use this. It is available 
on the TSA Web site where anybody can see it. It is simple as 
possible to say how should I apply for these monies and we made 
it as straightforward and simple as it could be.
    Mr. Price. Thank you. I am going to ask our two transit 
representatives to respond very briefly. Assuming that this 
line of questioning will be pursued by Mr. Rogers and others, 
this will not be the only chance to further this exchange. Mr. 
Morange, if you could just respond briefly, particularly to the 
point about the State's place in the process.
    Mr. Morange. We believe--we have found, you know, working 
along with all the other partners that we have up in the New 
York region, that if the State would pull us all together and 
be the guidance and, you know, not be the dictator of what is 
going to be done, but they would be the guidance to come along 
with a regional security strategy--because what we found out in 
the past is, like with the NYPD--I have spoke with the NYPD 
commissioner on many occasions. We have partnered up on things 
that we have done.
    But we have found out that one agency would be putting in 
cameras here, we would be putting cameras in here. Learning the 
technology and finding out what is the right way to do this, 
what is the best way to put these systems in. As you well know, 
everybody went into an integrated electronic system that they 
wanted. The Port Authority had their own, the NYPD had their 
own, and we had our own. And we could have got more out of it 
if we all would have just combined our efforts and got 
together.
    And I really believe that the State should be part of that 
process to bring us together and come out with a security 
strategy that we could go to TSA and say, this is our strategy, 
this is what we would like to do.
    Mr. Price. Thank you. Mr. Eckles.
    Mr. Eckles. Our State representatives have been very 
supportive of our region's actions and our decisions in 
following our strategic plan that we were required to develop. 
They don't dictate to us what we should be doing. They don't 
hinder us, and they haven't hindered us. They have been a great 
advocate and a great representative in trying to deal with TSA 
and FEMA when we run into obstacles or problems.
    In terms of a delay in funding, we haven't found that the 
State has created any kind of delay in funding once it has been 
approved at TSA.
    Mr. Price. We will return to the explanations you gave for 
the delay in funding and how this all comes together as we 
proceed.
    Mr. Rogers, let me turn to you.

                          FUNDING AVAILABILITY

    Mr. Rogers. Mr. Chairman, I am absolutely confused. I don't 
understand what has been said. I am trying to understand what 
the problem is.
    Mr. Sammon, you say that a great percent of the monies 
available to these two systems is available now to be spent. 
Who said that?
    Mr. Ashley. I did, sir.
    Mr. Rogers. Is that correct?
    Mr. Ashley. Yes, sir.
    Mr. Rogers. Repeat that briefly.
    Mr. Ashley. The percentage numbers?
    Mr. Rogers. Yes.
    Mr. Ashley. Yes, sir. I can speak to any one of the Tier 1 
large transit systems.
    Mr. Rogers. Keep it simple.
    Mr. Ashley. If we look at fiscal year 2006 funds for New 
York, 96 percent of the funding is available to be drawn down 
today.
    Mr. Rogers. Today?
    Well, Mr. Morange, why haven't you drawn that down?
    Mr. Morange. Well, on most of the drawing down of the 
funding, you know, we have to put in vouchers and all. And this 
has been ongoing. A lot of times, we don't even find out that 
the grant has been awarded to us until almost a year and a half 
after the clock starts running.
    Mr. Rogers. He says the money is available now.
    Right?
    Mr. Ashley. Yes, sir. Of the 2006 dollars----
    Mr. Rogers. Now, what does it take for him to get that 
money?
    Mr. Ashley. Submit a reimbursable, you know, that the funds 
have been expended and----
    Mr. Rogers. He spends the money and then bills you for what 
has been spent.
    Mr. Ashley. Yes, sir.
    Mr. Rogers. What about that, Mr. Morange?
    Mr. Morange. I don't really know, at this point. I will 
have to get back to you, because we have a staff that does 
that. But I am sure that----
    Mr. Rogers. Surely you know. Surely you know whether or not 
you can support with paper the expenditures that he says you 
must have. That is not difficult to understand.
    Mr. Morange. But I am saying I believe that we have put in 
for all of these expenditures that we have used in 2006. And I 
believe that we have done almost everything in 2006. So I don't 
know----
    Mr. Rogers. Mr. Ashley, he said he has already done what 
you requested.

                         2006 FUNDING DRAWDOWN

    Mr. Ashley. I don't have the drawdown figures in front of 
me on how much of the 2006 funding has actually been drawn 
down. Of the 2006 funding, all of it is available to be drawn 
down. I don't have what has been drawn down in front of me.
    Mr. Rogers. Does anybody here on your staff know?
    Mr. Ashley. Do we have the drawdown figures?
    No, but we can provide that back--by grant program, by 
project. Actually, your staff may have that information. We 
provide those reports to your staff on a, at a minimum, 
quarterly basis.
    Mr. Rogers. Well, Mr. Morange, have you submitted all of 
your expenditure papers that are required before you can get 
the drawdown?
    Mr. Morange. I believe that we have submitted all of the 
paperwork on everything we have completed.
    Mr. Rogers. What about that, Mr. Ashley?
    Mr. Ashley. I would have to check, sir. I don't know what 
has been submitted at this point.
    Mr. Rogers. Why are we having this hearing? Why are we 
here? If you don't know how much money has been drawn down or 
how much is due to be drawn down, the taxpayers are getting 
screwed. There is nothing new about that, but, goodness 
gracious.
    Well, Mr. Sammon, you tell us. You have to approve this 
stuff, too.
    Mr. Sammon. We do. We approve it. All those projects have 
been approved, as Ross said. The money has been obligated, it 
has been approved. But the drawdown numbers--FEMA has the 
numbers; we don't have the specific drawdown numbers. But I 
believe all that.
    For instance, when Bill mentioned--earlier, we mentioned 
the drawdown over Thanksgiving for the response to the threat. 
That was 2007 money or whatever else that was drawn, 2008 money 
that was drawn out of the account and paid for that surging 
activity. So there is current money in the accounts. But I 
don't have the----
    Mr. Rogers. Mr. Eckles, what about you? Tell us. I know you 
are perfectly content with all of this. Tell us your story.
    Mr. Eckles. Well, let me give you an example about 2006, 
since they have figures to tout 2006. We had a project that 
didn't get 2006 approval until July of 2008. And the----
    Mr. Rogers. What I want to know is, have you submitted 
drawdown justifications to them that have not been satisfied?
    Mr. Eckles. We haven't got--well, we have gotten all of our 
grant authorization to spend down, as of October of 2008 for 
2006 funds. So, yes, we have done that.
    Mr. Rogers. You have done what?
    Mr. Eckles. We have submitted whatever reimbursements are 
required for the projects that finally got started in October 
of 2008.
    Mr. Rogers. And have they paid you?
    Mr. Eckles. Not to date.

                      2006 FUNDING DRAWDOWN CONT'D

    Mr. Rogers. They have not reimbursed you for the papers 
that you sent in that you spent?
    Mr. Eckles. Right. There is a pretty big lag time to get 
that back. It is, what, about 3 to 6 months?
    Mr. Rogers. Well, how long ago did you complete sending the 
paper work?
    Mr. Eckles. We do it incrementally. So----
    Mr. Rogers. Help me out. Make it simple, please. Tell me, 
when did you submit the justifications to be reimbursed for?
    Mr. Eckles. Since they only started in October, we have 
only had one submittal in December, for DART. So December was 
our first submittal of our initial reimbursement request.
    Mr. Rogers. Have they reimbursed you for the expenditures 
that you have made?
    Mr. Eckles. Not yet.
    Mr. Rogers. What is the problem?
    Mr. Ashley. I would have to check on the specifics for 
the----
    Mr. Rogers. Oh, for God's sake. Did you bring anything with 
you?
    Mr. Ashley. Not on what we have actually paid out, no, sir.
    Mr. Rogers. Holy cow.
    Thank you, Mr. Chairman. I have heard all I want to hear.
    Mr. Price. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman, for holding this 
hearing.
    And I join Ranking Member Rogers. I am shocked that, for 
example, FEMA and TSA don't know how much of the 2006 money has 
gone out. Don't you need to know whether the people's money, as 
approved by the Congress, has been spent according to the 
Congress's will as expressed in legislation that governs your 
agencies? Don't you want to know if it is being spent? Because 
if it is not being spent, then you are not fulfilling your 
obligations to keep rails safe in America. Don't you want to 
know if it is spent?
    Mr. Ashley.
    Mr. Ashley. Yes, sir, we do want to know how it is spent, 
when it is spent and all of that. We do provide--and it is my 
mistake for not having the reports in front of me--but we do 
provide both to your staffs. We also use it internally--exactly 
how much money is drawn down on a regular basis.
    Mr. Rothman. Excuse me, sir, I apologize. I don't know--
could you explain your responsibility? How could you know the 
rail security picture in the United States if you don't know 
what has been spent from the 2006 budget? How can you be doing 
your job properly if you don't know?
    And I am not saying you need to know every dollar, to the 
penny. How about a ballpark figure? I think that is more of a 
rhetorical question.
    But let me just say this. There is also a great disparity, 
apparently, between what the chairman of the committee knows 
and what you say is the truth. The chairman said that 96 
percent of the money was unspent nationwide in 2006--excuse me, 
93 percent--and 99 percent from 2007 unspent. But you say that 
they are available for drawdown, but, frankly, you don't know 
if they have been spent or not.

                      APPROVAL OF THE 2006 BUDGET

    How about Mr. Eckles, Colonel Eckles, who says that it took 
him until October of 2008 to get approval for the 2006 budget? 
Mr. Ashley, how do you explain that considerable delay, sir?
    Mr. Ashley. For fiscal year 2006, there were considerable 
problems with the process, as I am aware. I wasn't here during 
that time frame. There was a lot of back and forth, as I 
understand it, between the grantees and TSA and FEMA at that 
point. The process was completely different then. I was made 
aware that there were a number of unallowable things applied 
for, and all of that had to be married up.
    Mr. Rothman. Okay, those were bad practices. You weren't 
there.
    Mr. Ashley. Correct.

                          PROCESS IMPROVEMENTS

    Mr. Rothman. On a scale of one to 10, Mr. Ashley, 10 being 
all the problems that caused this delay for the 2006 funds--10 
being all those problems have been fixed, what number would you 
give the process now?
    Mr. Ashley. Where one would be the best?
    Mr. Rothman. Yes.
    Mr. Ashley. I would say we are probably around a four to 
five. We still have a long way to go in the process to improve 
it, to make it streamlined, to make it, as Mr. Eckles said, 
more transparent. We still have a ways to go in that process.
    Mr. Rothman. What is the problem?
    Mr. Ashley. I think a couple different things. One is, it 
is the natural maturing of grant programs. If you take the Port 
Security Grant Program to date, which has been around for quite 
a long time, the process is much more of a streamlined process 
that goes forward. We have a different process in place for our 
Tier 1 transit agencies than we do in our Tier 2 transit 
agencies.
    Mr. Rothman. Okay, but these are the Tier 2 folks, right?
    Mr. Ashley. Right.

                  JOINT ADMINISTRATION BY FEMA AND TSA

    Mr. Rothman. I know my time is limited, but do you 
gentlemen, Mr. Sammon or Mr. Ashley, do you have an opinion on 
whether the grant program that the transit--the security grant 
program should be administered jointly by FEMA and the TSA, or 
should it be administered by only one of your organizations?

                            TIER ONE PROCESS

    Mr. Sammon. I think the joint administration works because 
TSA sets the policy.
    Let me, if I can, just walk through quickly, in terms of 
the Tier 1 agencies, how the process works. In 2006, it was a 
hands-off process that was strictly done all by competitive 
submissions. When the submissions came in, no one could talk to 
the applicant grantee--we could not have a conversation, you 
couldn't pick up the phone to talk to the grantee to ask them 
questions about the grant.
    Mr. Rothman. Was that as a matter of law?
    Mr. Sammon. That was a matter of the process at that time. 
So we changed----
    Mr. Rothman. Was that as a law? Okay. That wasn't law as 
written by the Congress. It was regulations written in the Bush 
administration?
    Mr. Sammon. It was probably DHS grant guidance.
    So we looked at that, and that was failed. So we said let's 
set up a different process; we call it a cooperative agreement. 
The way it works is that TSA and FEMA sit down with the 
regional working group, we discuss any guideline changes, 
funding priorities, ask preliminary questions, and the agencies 
develop their project concepts. They might say, I want to 
harden tunnels, I want to hire personnel or I want canine 
teams. The project concepts are preliminarily scored and 
ranked, because we----
    Mr. Rothman. Excuse me, Mr. Sammon. I have overdone my 
time.
    Mr. Ashley said 40 percent to go to get this right? Am I 
right, 40 percent to go?
    And maybe someone else can ask the two guys on the ground, 
Mr. Morange and Mr. Eckles, if they agree that there is 40 
percent to go, and this is how many years after Congress first 
provided money. It is unacceptable. I think heads should roll 
and people should be fired.
    Mr. Price. Mr. Kirk.

                            CASH FLOW REPORT

    Mr. Kirk. Thank you, Mr. Chairman. Just two quick things, 
and then I am going to yield to Mr. Rogers.
    You are an Air Force veteran, a lot of experience in 
information technology. My gentle suggestion to you would be to 
cancel all leave, crash this weekend, and get this committee a 
cash-flow report by Monday morning. And I would hope that you 
would be able to do that.
    Mr. Ashley. Yes, sir. And I think it is my mistake that I 
don't have one in front of me. I think your staff may even have 
them behind you, but----
    Mr. Kirk. Okay.

                             METRA REQUEST

    Secondly, I deal with Metra, which is the largest transit 
agency in the Chicagoland area. We put in a grant application 
to link closed-circuit televisions to local police departments 
because, frankly, Metra police is pretty thin and not present. 
The Department turned it down saying, hey, because Metra is not 
the first responder of record at these train stations, you guys 
are hosed. And I would say that is probably overly restrictive. 
So if you could take a look at that, that would be a good 
thing.
    And let me yield the rest of my time to the ranking member.

                         TWO AGENCIES IN CHARGE

    Mr. Rogers. I thank the gentleman very kindly for that 
time.
    I have the drawdown information here. For 2008, we 
authorized $359 million. You have drawn down $5 million. You 
have $354 million of that left, 98.6 percent still laying 
around. 2007, in the same security grant program we authorized 
$162 million. You have drawn down $3.5 million. You have 97.8 
percent of it laying around. That is 2007. 2006, you still have 
94 percent of it undrawn. And 2005, there is almost 14 percent 
of the 2005 money still laying around.
    Somebody mentioned here a while ago, perhaps from the two 
units, that part of the problem is we have two agencies that 
you have to go through. And I have always figured that when you 
have two bosses, nobody is in charge. I would like to have one 
person to chew on, rather than two who bat the ball back 
between them so you can't know what is going on and who is 
responsible.
    Do you all agree with that or not?
    Mr. Sammon. I think we view it is that FEMA has expertise 
in terms of handling grants. They handle about $4 billion worth 
of grants. TSA has the ATSA requirement and its charter to be 
the transportation security agency for all modes of 
transportation. In terms of setting those priorities, TSA works 
with FEMA to do that and then get the money out.

                          APPLICATIONS PROCESS

    In terms of applications and looking at where that goes, we 
have a project, for instance, right now from 2008 that we are 
trying to get resolution on, for $36 million to harden a 
tunnel, and the justification is ``construction and 
materials.'' We have been working with the agency to try to get 
a detailed justification from them. It is $36 million with a 
one line justification. We have others--$5 million for CCTV, 
with a one line justification.
    We work with the agencies to try to get detailed 
information out. The process is to work a cooperative 
agreement, get the concepts, rank them, and then get detailed 
justifications. In 2008, in particular, when the matching fund 
requirement was removed, a number of the agencies changed the 
projects around. And we are still working through that process.
    But, again, we have things in there that are one-line 
justifications that we can't put out the door until we have 
more detail.
    Mr. Rogers. Are these two systems involved in any of those?
    Mr. Sammon. Not for those two examples, no. Those two 
systems, in terms of what they have, I think there is one 
project from 2008 that we are working with MTA on that is about 
$270 million. I forget exactly what it is for, but we are 
trying to finalize that. And there is one or two with L.A. that 
we are trying to complete.

                     FEMA FIDUCIARY RESPONSIBILITY

    Mr. Rogers. Why is FEMA involved in this?
    Mr. Sammon. FEMA is involved in this because there is a 
fiduciary responsibility to make sure that, once the money is 
awarded, that--first of all, there is the mechanism to put it 
out the door, the administrative mechanism, and then also to 
make sure that the money is spent as it was initially proposed.
    Mr. Rogers. Why can't you do that, TSA?
    Mr. Sammon. Well, TSA currently does not have the mechanism 
to do that, the people nor the administration in place. I think 
the Department's view of it is, we have an agency, TSA, which 
is good at vetting and security and those kinds of things, but 
it is not an administrative agency for grant purposes. FEMA 
handles 4 billion dollars in grants across the way.
    Mr. Rogers. Well, FEMA, God love them, are notorious for 
being slow and bureaucratic, and they tie themselves up in 
knots over the slightest thing.
    Pardon me, Mr. Ashley. I love you, but----
    Mr. Ashley. That is all right, sir.
    Mr. Rogers [continuing]. I think privately you would 
probably admit that is true. And here we see the biggest 
example of, I think, that.
    But we are frustrated. We don't know where to turn or what 
to do to make it work. I mean, we pump the money into the 
coffer, and it just lays there, rotting and mildewing. And the 
people riding these subways and mass transit by the millions 
daily are the people whose fate hangs in the balance.
    So can we find a way to get the grants out there where the 
Congress intended them to go?

                         EXPEDITE GRANT PROCESS

    Mr. Sammon. We will work more closely with FEMA. Also, what 
we will do--we probably, in one respect, have been too nice, in 
a way, in terms of allowing the back-and-forth process to go 
on. For instance, this one-liner from the agency who wants $36 
million for a particular project, we should probably say, if we 
don't hear a response in 2 weeks or whatever else it is, we 
will move on.
    But, we have been, I think, generous in terms of working 
with the agencies and working with changes, as, for instance, 
in 2008 when the Congress said you don't need to have matching 
funds anymore, a large number of projects were all reprogrammed 
because they wanted to change priorities. And we were very 
flexible and said we will work with you on that. That is a 
process that slows things down.
    But we will work on a number of things with----

                           REPORT REQUIREMENT

    Mr. Rogers. Mr. Chairman, I would like to request that both 
agencies, TSA and FEMA, give this Subcommittee a report no 
later than 1 month from today about what can be done to 
expedite these grants and what the problem is and a timetable 
for getting this money out there. I would like to see us 
require them to give us something in a month's time.
    Mr. Price. Let's do just that.
    We will expect in a month's time a report on the best 
explanation you can give for the problems we have encountered 
and your plan for resolving this and giving us money where it 
needs to be. That is an important priority for the 
Administration coming in, and we, on this Subcommittee, would 
like to push that forward. A month seems about right.
    Mr. Rogers. And it better be good.
    Mr. Rothman. Mr. Chairman, may I ask you a question with 
regards to the report that you and the Ranking Member were 
talking about? And maybe this was assumed by you in your 
request to these gentlemen, but that the report also include 
their timetable and pledge for disbursing the money.
    Mr. Rogers. That was one of the three things.
    Mr. Price. Yes, we will flesh this out. But, of course, 
that is one thing we want to know, where we stand now and what 
the current timetable looks like, as far as they can project 
it. But much more than that; obviously, business as usual isn't 
what we are looking for here. We want to see a plan for getting 
this done.
    Mr. Rogers. And I want to know who is responsible. I want 
to know the names and addresses.
    Mr. Price. In my period of questioning, I want to return 
explicitly to that, because I don't think we have yet sorted 
out the TSA-FEMA roles here. I want to go back to some of Mr. 
Eckles's problem and dissect that account and see exactly where 
the delays we are talking about occurred.
    But I first want to turn to my friend, Mr. Serrano.

                         IMPORTANCE OF FUNDING

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Chairman, I, like all members, had a series of 
questions. But I am not going to ask those questions; I will 
submit them to the record. Because, at the expense of being 
redundant, I have to join the committee in the outrage of what 
I heard here today.
    You know, with all due respect to you two gentlemen, those 
two guys, New York and L.A., with all due respect to all the 
rest of the Nation, have a pretty tough job on their hands. 
They have to protect two of the largest targets in this 
country. There was a reason why the terrorists hit New York. It 
wasn't because they knew I lived there. There was a reason: It 
was Wall Street, it was the stock market, it was our financial 
center. There was a reason why they hit the Pentagon: It was 
our military strength. There was a reason why they intended to 
hit the legislative building or the White House. So all these 
things made some sense in a horrific way.
    As a result, we turned this government upside-down and 
created this Homeland Security Department of which you are 
part. And in turning this country and the government upside-
down, we did a lot of things that some of us still feel bad 
about, in terms of people's civil liberties and civil rights 
and how we deal with implementing security.
    But one thing we all did, whether we were happy about it or 
not happy about it, is we voted year after year--and I have 
been on this committee since the beginning--for the funding 
that goes for the whole Department and for your specific 
agencies.
    And I have to say that, except maybe for the FBI, which was 
in charge of another part of fighting the war on terror, we 
haven't pulled any strings here when it came to holding back on 
dollars. A lot of money has been spent.
    So even those of us who still have problems with the way 
Homeland Security is run and any of your agencies is run still 
feel that the money has to be spent. It makes us look bad if we 
have to fight every year to get more money and then the money 
is not spent.
    Understand something. Yesterday the President signed a bill 
which was a monster bill. It had nine subcommittees involved in 
that one bill. But one of those bills was not Homeland 
Security, because that goes out by itself, because every Member 
of Congress knows the importance of what you do, or at least 
what you are supposed to do.
    And here we hear that there is money ready to be drawn down 
but they can't draw it down. As far as I am concerned, the 
money was ready to be drawn down the minute the President 
signed the bill.
    I remember working for the New York Board of Education and 
asking the State for money, and they always told me that the 
money was ready to be drawn down, except that 2 years later I 
still hadn't received the money for the Title 1 programs. And 
so I know what we are talking about here.
    I think you should get at least a sense that this chairman, 
this ranking member, and this Subcommittee are not happy with 
the testimony that came today and that it is totally 
unacceptable to say that you don't have the numbers. Because, 
again, we appreciate the work you do, we appreciate the work 
you do, but those two are charged directly with the 
responsibility of taking care of Mrs. Rivera when she enters 
the subway system or takes the bus somewhere. And I am 
interested that she gets taken care of, along with Miss Smith 
and Miss Goldblatt and everybody else.
    This is important. And I would hope that you take away from 
here the need to answer the questions and to get on the ball. 
You can't come back to us again and tell us you haven't spent 
money. You know, there are areas where we allocate money and 
hope it doesn't get spent. This is an area where we allocate 
money and we know it has to get spent and we want it to be 
spent.
    And I will not tolerate this part of the panel telling me 
that that part, which is on the field, dealing with the issues 
daily, that they can't draw down the money or the support they 
need.
    So take seriously the chairman's request and the ranking 
member's request for that report, and do something which is 
strange for some of us to do: Don't think of yourselves as 
bureaucrats. Think of yourselves as a team where those two may 
be in your position next week and you will be running New York 
and L.A., and then you know what they have to go through.
    And so, if I sound one-sided, it is because I live in that 
city, I know that subway, and because in a couple of hours I 
will be on Amtrak back to the city of New York. So I know 
exactly what I am talking about. They need your support, and 
the answers you gave us today are not acceptable.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you, Mr. Serrano.
    Mr. Calvert.

                   ADVICE ON STREAMLINING THE PROCESS

    Mr. Calvert. Thank you, Mr. Chairman.
    Before I get to my comments, I want to thank Jack Eckles, 
who is attached to the 358 Civil Affairs Brigade in my district 
in Riverside, California. Thanks for your service, your service 
in Iraq. We appreciate that.
    And thank all of you for coming.
    I have a list of questions also that I am going to submit 
to the record. I have a couple of comments, sharing my 
colleague's perspective on this.
    I think what we need is your advice, Mr. Eckles, and your 
advice, Mr. Morange, on how to move forward. And if you could 
give us some written responses to the committee on your advice 
on how these agencies can better streamline this process, I 
would rather hear it from the folks in the field that we 
possibly can help that process along.
    One of the things I heard was this issue on the historical 
environmental review. I would suspect that public safety trumps 
historical environmental review. That is one thing we can do 
here in Congress, is, possibly working with the chairman and 
the ranking member, get an expedited waiver process in those 
instances. I am sure my colleague from New York would agree 
that, even though those areas in New York where you have 
historical significance, there should be an expedited waiver 
process if public safety is at risk. I think the people in New 
York would go along with that. And so I think we could be 
helpful in that process, in trying to move that process along.
    And if we could get, in the field, your advice on how this 
process could move faster, we would be very much interested in 
hearing that.
    And, with that, I am going to submit my questions for the 
record and hope to hear back from you all.
    Thank you very much.
    Mr. Price. Thank you, Mr. Calvert.
    We have been conferring here, gentlemen, and we think one 
way to bring some focus to this and some resolution to it, 
hopefully, would be to ask the two of you to come back. And 
although it has the effect of shortening the time frame a bit, 
we have a hearing scheduled on March the 31st with TSA. And we, 
of course, will have other business to conduct that day, but we 
would like to ask the two of you to reappear on that day, be 
available for questions and to have this material together by 
that time. We will very quickly get to you our specifications 
as to what we want that to include. So, if that is agreeable 
with you, we will count on that.
    Mr. Eckles, I said I wanted to dissect your case a little 
further. And I am not looking so much for more detail as I am a 
kind of accounting of where the problem lay with the things you 
have already laid out before us.
    When Mr. Rogers was raising the questions about FEMA's 
dispatch--or lack of dispatch in actually getting the money out 
the door--we were focusing on the period from the fall of last 
year until the present.
    However, we, of course, also have a time period of 2 years, 
from 2006 forward to the fall of last year. And my 
understanding of most of what you told us is that that period 
was occupied with a constant back-and-forth with TSA, not with 
FEMA. Many of the complaints that you have had to do with the 
shifting criteria, the lack of transparency, and the various 
frustrations which you outlined very well.
    So I want to just get you to clarify that a bit. We are 
dealing with two agencies here. Their roles perhaps intersect 
in problematic ways. But, to the extent most of these decisions 
lie with TSA, I want to make sure we focus on what that problem 
looks like from your point of view, and how the process can be 
improved.
    And, Mr. Morange, we would welcome your chiming in any time 
you wish.
    Mr. Eckles. Would it be helpful if I gave you, like, the 
2006 chronology kind of example of how this sequence of 
difficulties really goes about?
    Mr. Price. Yes, very briefly, just to give us a sense of 
how that unfolded. Yes, that is exactly what I am asking for.
    Mr. Eckles. Grant guidance comes out, we have 45 days to 
submit investment justification. We submit that investment 
justification. 60 days, TSA has a requirement to give us an 
approval or nonapproval of our investment justification. That 
is the first grant authorization notice, but it doesn't 
authorize you to spend down.
    Then we go through the haggling process of questions like 
``what is meant by multi-agency,'' ``could you clarify this,'' 
``you are too detailed here,'' and it goes back and forth for 
an interminable amount of time until we get that second grant 
authorization that says, ``Okay, we are done, you can spend the 
money now.''
    One of our biggest difficulties is the level of detail they 
want for something nobody has committed we are authorized to 
spend on: engineering drawings, specifications, a detailed 
budget of a project we have never done before. And nobody has 
the time or the energy to commit to developing engineering 
drawings and detailed budgets with any amount of certainty, 
which they keep asking for, when we don't have the money to 
afford the people to actually do that. We have never gone out 
and specced out this, or we have never gone out and drafted 
that, yet we are expected to have that kind of level of detail.
    So this haggling and clarification goes back and forth 
until they finally settle on something that they will give us a 
spend-down grant authorization.
    Mr. Price. Well, let me ask, I am sure you would agree that 
there is a certain due diligence which TSA should be 
exercising. I mean, even in urgent, emergency situations, we 
don't want to spend money recklessly or in ways that will not 
achieve the desired purpose. Yet it also seems very clear that 
the process you are describing goes way beyond that, in fact, 
is pretty dysfunctional in terms of getting money applied where 
it needs to be.
    What would your suggestions be as to what an appropriate 
level of scrutiny is and an appropriate time frame? I know that 
is a very general question, but I am asking you to reflect on 
your experience and what, in your view, this process really 
should have looked like.
    Mr. Eckles. Well, they don't have to reinvent the wheel. My 
grants administrator that handles my transit security grants 
works with the Federal Transit Agency's grant process. And they 
have a Section 5307, which completely streamlines and 
structures a process where, you know, there is no expectation 
that you have drawings on your table and that you are going to 
know exactly where every penny goes. They say, give us the 
concept, give us the idea, and does it fit into the criteria 
that we are looking for. You either have the concept and the 
project idea or you don't have it. Or if it needs to be 
adjusted, that shouldn't take any amount of time at all.
    But the level of questioning, the level of detail--and, 
mind you, the level of questioning and detail is done by an 
analyst who has no idea about transit security, has no idea 
about engineering, but yet we have to answer these rather inane 
questions back and forth and change our grant and rewrite it.
    So I would streamline it according to the FTA Section 5307 
criteria.
    Mr. Price. Mr. Sammon, do you have any response?
    Mr. Sammon. Was that 2006, or was that 2009? When were you 
referring to, this process of asking for detailed engineering 
drawings?
    Mr. Eckles. I used the 2006 timeline as an example, but we 
have run into that problem in 2007 supplemental and 2008, and 
we are on our fourth review in the 2008 right now.
    Mr. Sammon. Well, we will look into those details. But the 
idea with the working group is to get the concepts, rank them, 
score them, and say, here are the projects that are going to be 
approved. This is--I was referring to the $35 million project--
and then go back and get the justification.
    After the project has been approved, it is on the books, 
ready to go. It is going to go through the hopper, but Ross and 
anybody else, any other fiduciary agent, would have to have 
more than, for instance, the project they refer to a one-line 
justification for construction costs.
    Mr. Eckles. Well, we submitted a project that had 54 pages.
    Mr. Sammon. Well, anyway, I don't have those. We can look 
into those things and see what they look like. But the process 
is designed to get that upfront, get the approval. And that is 
how we work with New York. It works very well in New York. It 
works very well in most regions. We will look in more detail at 
Los Angeles, but New York is the largest, most complicated one.
    Mr. Price. Well, I am sure there are differences agency to 
agency, but you are not suggesting that Los Angeles's problems 
are isolated or unique, are you? I mean, we, after all, have 
been talking about aggregate numbers for the most part, right? 
Aggregate numbers, nationwide numbers----
    Mr. Sammon. Yes.
    Mr. Price [continuing]. Numbers that you would agree are 
not acceptable for 2006, 2007, 2008 or even 2005.
    Mr. Sammon. Right. The numbers should be out the door.
    Mr. Price. All right. So Mr. Eckles does have some, 
perhaps, unique circumstances. But on the face of it, it would 
appear that these process problems, whatever it is that is 
creating these interminable delays, are pretty much systemic.
    Mr. Sammon. But, I think the process has been changed to 
get as much of that on the front end--to agree on the projects 
and then have the justifications come in as the agencies can 
provide the justifications. So, it is upfront to say, I would 
like to train 420 people, or I would like to do a camera system 
in a subway that is going to cost $3 million. The regional 
working group ranks them, tiers them, and agrees on them. Then, 
the next step is the investment justifications have to go in. 
They have to be at a level of detail that can pass the test for 
future audits.
    Mr. Ashley. Might I add something real quick, Mr. Chairman? 
Also, we are, to a large degree, dealing with sins of the past, 
if you will, when we talk about the dollars getting out the 
door. The 2006 processes, as you have heard from both of these 
gentlemen, were delayed considerably. The 2007 process was 
delayed considerably. What we are seeing now is a bottleneck, 
if you will, where all of those dollars are hitting up against 
a wall in a process to get them out the door rapidly.
    The 2008 process, I would submit, both from FEMA's efforts 
and TSA's watching what is going on there, has been much 
improved. That is why I said we are not completely there, but 
we are getting better.
    Also, I just had one quick comment. For the March 31st 
hearing, do you want the report prior to that date? We had two 
different requirements there. Just seeking a little 
clarification.

                          REPORT CLARIFICATION

    Mr. Price. I think we would like the report a day or so in 
advance. We know it is a tight time frame but, we need to deal 
with this.
    Mr. Ashley. I agree, sir.
    Mr. Rogers. But, Mr. Chairman, these two gentlemen will be 
here in person to answer any questions we might have on the 
report?
    Mr. Price. Yes. That is the intent.
    I am not going to prolong this back-and-forth at the 
moment. I think we have the picture. We will await your 
accounting of what is going on now. But, above all, we aren't 
looking for rationalization; we are looking for a concrete plan 
for improvement going forward.
    And while we appreciate the chance to look more closely at 
these two systems, it seems quite clear that with these 
drawdown numbers, we are not just dealing with isolated 
problems. Each has its own peculiarities and particularities, 
but what we are talking about goes way beyond that.
    Let's see. Mr. Rogers.
    Mr. Rogers. Mr. Chairman, I don't think I have anything 
further.
    I appreciate the four of you testifying, especially the two 
gentlemen from the systems.
    I was very impressed with Mr. Morange's concluding remarks, 
where he gives us eight specific recommendations. I like it 
when a witness gives us a cure for a problem. And we have not 
had the agency people respond to his recommendations, but 
perhaps they could do that for the record.
    But we appreciate that, Mr. Morange. It was helpful.
    [The information follows:]

    The eight recommendations from Mr. Morange were outlined in both 
his written and oral testimony and were required by Chairman Price and 
Ranking Member Rogers to be addressed as part of the FEMA-TSA report 
just submitted this week for the March 31 followup hearing on Rail and 
Transit Security Grant funding.

    And, Mr. Eckles, I think we share your frustration with the 
process, and this chairman I think is determined to make things 
happen. And we expect a clarification and complete solution to 
this problem on March the 31st when these two gentlemen come 
back and give us a report that everything is smoothed out. And 
if they can't tell us that, we will have some questions for 
them.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                          9/11 ACT PROVISIONS

    Mr. Rodriguez. Thank you very much. And I apologize. I had 
another meeting, in fact, across the hall.
    I have a question that was asked of me to ask Mr. Ashley, 
and it is from Congresswoman Lucille Roybal-Allard, who is sick 
today and wasn't able to be here. And she wanted me to see--and 
I am going to go ahead and read her question. And it is based 
on, actually, trying to get you to compel FEMA to make grant 
applicants aware of the responsibility to transit workers under 
the 9/11 Act.
    And the question is that, ``The 9/11 Act included several 
key provisions to safeguard the interest of transit workers. 
Specifically, it provided that the recipients of the grant 
funding should pay a prevailing wage and allow workers to 
bargain collectively. Unfortunately, FEMA neglected to mention 
these crucial requirements in the February 2008 guidance issued 
to grant applicants. ``Will you take''--you know, according to 
her--``will you take action to rectify the error and ensure 
that the transit security programs are implemented in the way 
that Congress intended?''
    Mr. Ashley. Sir, I can tell you that we actually already 
have. For the fiscal year 2009 guidance that we put out, we did 
rectify that issue. On page 39 of the guidance, we did require 
that all aspects of Davis-Bacon be adhered to for failing to 
pay prevailing page rates. So we have dealt effectively with 
that problem, or that issue, sir.
    Mr. Rodriguez. Well, thank you for answering Congresswoman 
Roybal-Allard's question and concerns. I don't have any 
questions. I apologize for being late.

                     AGENCY PERFORMANCE ASSESSMENT

    Mr. Price. That is all right. We have lots of activity 
here, and we appreciate your coming in.
    Well, I am going to draw this to a close. We will want to 
formalize the request Mr. Rogers articulated, about explicit 
responses for the record to the recommendations actually that 
both gentlemen made regarding future improvements.
    I want to bring up only one further matter, and it will 
just take a minute. It mainly involves a response for the 
record. But since I did cite in my statement a figure based on 
this, I want to circle back around just for a moment and ask 
about the evaluation process, Mr. Sammon, that TSA undertakes 
with respect to agency performance.
    For the first time since TSA was formed in 2002 and as part 
of the DHS fiscal 2008-2010 performance report, TSA evaluated 
the percent of mass transit and passenger rail agencies that 
were in full compliance with the industry-accepted Security and 
Emergency Management Action Items to improve security.
    In total, there were 17 action items, and TSA hoped that 50 
percent of these entities would be in compliance. For this 
evaluation, you conducted 88 baseline security assessments, 
covering 48 of the 50 largest mass transit and passenger rail 
agencies. And on that basis, you concluded that only 23 percent 
of the 48 agencies met the target.
    Now, according to TSA, the shortfall reflects thoroughness 
of assessments which far exceed prior security inspections. In 
2009, you are going to undertake a second assessment and of 
course, you are hoping to improve on that performance.
    I just want to ask you--and maybe you can respond briefly 
orally, but also for the record--I have before me these 
guidelines, 10 pages of quite straightforward action items, 
areas that would enable one, if you could assess them 
thoroughly, to come up with some measure of performance.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    It is not clear to me, and I wonder if it is clear to the 
agencies, how this assessment process works, what kind of 
weights are assigned to each of these items, how they relate to 
each other. It reminds me of some of the documents we have seen 
on risk assessment, where they are so complicated and so 
multifaceted that one wonders about their usefulness as very 
precise measurement tools.
    So I cited and I am alarmed about the 23 percent figure. 
But the reason I wanted to bring it up again was that I am not 
terribly confident as to what that 23 percent figure really 
means.
    Was it clear, do you think, to the transit and rail 
entities of what requirements they were being assessed on and 
what constituted a passing grade? Was it clear how all this was 
being calculated?
    I would be interested in your oral response, but, more than 
that, I would be interested in a more detailed response for the 
record as to the way this is scored, the way this actually 
works, and maybe further refinements that you are considering 
to make this a more precise measurement tool.
    Mr. Sammon. Thank you. I am glad you asked that question.
    The assessments are done by TSA transportation security 
inspectors voluntarily with the agencies. The 20 percent is 
actually--if you look at these--and I think the confusion here 
is looking at these as compliance standards versus excellence 
standards. The only way you were in that category, as terms of 
23 percent, was if you had a greater than 90 percent score over 
all 17 measures. If any one of the 17 measures, any one, was 
below 70 percent, you didn't get credit in the category.
    So, this is really the top of the top. It is kind of like 
looking at grading in school--that these are all ``A''s. There 
is an elite group that are in that top category.

                  AGENCY PERFORMANCE ASSESSMENT CONT'D

    And also what we do with our security inspectors and our 
sharing best practices among the agencies, our idea is: ``Here 
is the top group. How do we get the others migrated to that 
level?'' They are people--again, as you said, 23 percent in the 
top group--in the transit area, to work with the transit 
agencies on a voluntary basis to get them to improve. Maybe 
someone needs more people trained, maybe they need a better 
security plan, whatever. But it is an interaction, a constant 
interaction, with the agency to improve their overall level of 
security, to improve the scoring. And, as we have seen and the 
OIG report has addressed, where we have gone back to rescore, 
we have seen improvements with the agency.
    So, it is not like you know, the airline compliance, where 
compliance is passing grade. This is an excellence grade. Our 
idea is to continue to work with the agencies and migrate them 
to excellence as opposed to passing and, frankly, if we had 
scored people in this thing and they had all passed, I would 
worry about the standards. So these are very high standards.
    There are agencies who make the standards and achieve it, 
which are very good agencies; others which are close. But, if 
you have one miss on any of the 17, you don't get in the club.
    Mr. Price. That is helpful. If you could detail a more 
elaborate account of how this works and how you plan to utilize 
it, going forward. That is helpful, though, to understand the 
kind of tool this is.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    With that, I am going to adjourn the hearing, with thanks 
to all of you. We clearly have a lot to work on. We will look 
forward to working together and seeing our witnesses here on 
the 31st.
    And we wish our transit directors the best. We thank you 
for your contribution here today.
    The Subcommittee is adjourned.
                                           Tuesday, March 31, 2009.

         SECURING THE NATION'S RAIL AND TRANSIT SYSTEMS, PART 2

                               WITNESSES

JOHN SAMMON, ASSISTANT ADMINISTRATOR OF TRANSPORTATION SECTOR NETWORK 
    MANAGEMENT, TRANSPORTATION SECURITY ADMINISTRATION
W. ROSS ASHLEY, ASSISTANT ADMINISTRATOR OF GRANTS PROGRAMS, FEDERAL 
    EMERGENCY MANAGEMENT AGENCY

                  Opening Statement of Chairman Price

    Mr. Price. The Subcommittee will come to order. Good 
morning. Today we are reconvening our hearing on securing our 
nation's rail and transit systems.
    On March 12, we heard from the Los Angeles Metropolitan 
Transportation Authority and the New York Metropolitan 
Transportation Authority on the difficulties they have had in 
getting DHS approval to spend their federal grant dollars in a 
timely fashion. At that time approximately 90 percent of the 
2006 rail and transit security grant funds remained unspent 
because DHS and the transit agencies were still negotiating 
what would be eligible projects. Meanwhile, our rail and 
transit security vulnerabilities go unaddressed. That is not 
something that this subcommittee can accept.
    I want to be clear. This is not just a New York and Los 
Angeles problem, although those were the systems we heard from 
directly in this forum. Other Tier 1 transit entities, those 
systems with the most riders and high security risks have also 
experienced problems with spending their grant awards.
    Since the hearing, we have heard from other entities about 
their similar difficulties with DHS, and I will just cite a 
very few examples in their own words.
    The Philadelphia Transit Authority has been promised 
resolution on how their 2006 transit security grant can be 
spent for the past six months, but because of confusion with 
the Pennsylvania Emergency Management Association, and FEMA, 
this process has moved ``nowhere in months.'' This money funds 
projects in Philadelphia and in conjunction with New Jersey 
Transit. In the case of Philadelphia, if they do not receive 
the grant dollars their project will be incomplete. In the case 
of New Jersey, they are still waiting on approval to purchase 
35 mobile trace units, with 10 of those units to be deployed to 
the Philadelphia Transit Authority.
    The Washington Metropolitan Area Transit Authority has 
informed the Subcommittee that while they have had problems 
with the slowness of 2006 grant awards, it was largely because 
of the states--Virginia and Maryland--adding a layer of 
complexity that delayed application approvals and alterations 
to their plans. This entity also expressed concern about the 
timeliness of the 2007 grants. At this time TSA has not yet 
completed its reviews.
    Atlanta requested and received an extension to spend the 
remaining 37 percent of its fiscal year 2006 grants. According 
to that transit authority, there were delays in receiving the 
authorization to expend funds primarily because of the 
environmental process and requests for more information from 
DHS after the submittal of initial concepts.
    Because of the extreme frustration expressed by 
Subcommittee members earlier this month about the slowness of 
actually spending grant dollars appropriated two or three years 
ago, Ranking Member Rogers and I asked TSA and FEMA to come 
back with some solutions to this problem. We believe this 
process needs to be streamlined.
    So Mr. Ashley and Mr. Sammon, we welcome both of you back. 
We have your report in front of us, although I hate to say it 
was submitted only late yesterday afternoon. We do have the 
report, and we will spend time this morning discussing how DHS 
plans to remedy the slow spending of rail and transit security 
grants from 2006, 2007 and 2008, as well as how your agencies 
will reach 100 percent draw-down.
    I am pleased to note that in 2009, when DHS announces the 
awards for Tier 1 rail and transit entities, there no longer 
will be any additional approval process required by TSA. In 
comparison, this TSA approval phase took 285 days after the 
2006 announcement. This change alone would be a vast 
improvement because rail and transit entities could begin 
spending money on these critical projects much faster. We do 
want to know more about how this rather striking change is 
going to work.
    And there is an additional problem. This report does not 
provide the requested timeline of how previously awarded funds 
will be 100 percent drawn down. So one might conclude that you 
are fixing the problem for 2009 while letting previous awards 
wither on the vine. We hope that is not true, but from reading 
the report, one would not know any different. So we get into 
this discussion right away.
    Let me first recognize Ranking Member Hal Rogers for any 
statement he wants to make.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Gentlemen, it is not often that we have to go 
back a second time. You do not have the time, we do not have 
the time. So this ought to be good. It better be really good 
because we do not want to do it a third time.
    In many ways TSA is the public face of Homeland Security. 
It is not only the agency millions of people interact with 
daily at the airports, but it is also what many of us think 
about when discussing our response to the attacks of 9/11, and 
since its creation shortly after those tragic and unforgettable 
events, TSA has made tremendous progress.
    Screening and credentialing programs such as TWIC and 
Secure Flight, once symbols of ineffectiveness and disfunction, 
are now viable programs, properly identifying travelers and 
transportation workers. Just this past week, TSA issued its one 
millionth TWIC card, and since January, Secure Flight has begun 
screening operations.
    But in spite of this laudable progress, many challenges 
certainly remain, and securing the surface transportation 
sector is one of those big challenges.
    We can only do so much to secure these open systems and the 
federal government plays a limited role in what is primarily a 
state and local operating environment. Rail and transit grants 
jointly administered by FEMA and TSA represent what is perhaps 
the signature contribution of the federal government in this 
arena. But despite visible threats to transit systems around 
the world, and more than $1.5 billion in appropriations over 
the last few years, we appear to be falling down on that front. 
So I look forward to hearing how we are going to get these 
grants back on track and get real security solutions in place.
    And so Mr. Ashley, Mr. Sammon, we meet again. I enjoy being 
with you, but I hope this is the last time we are blessed with 
it this year, and I trust you both have come prepared so we can 
get to the bottom of why so little of the grant funding has 
moved out the door.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Thank you, Mr. Chairman.
    Mr. Price. Thank you. We have your joint statement which 
will be entered fully in the record, but we would like to have 
your five-minute summaries, and we will start with Mr. Sammon.

                    Opening Statement of Mr. Sammon

    Mr. Sammon. Good morning, Chairman Price, Ranking Member 
Rogers, Distinguished Members of the Subcommittee, and my 
colleague, Mr. Ashley, from FEMA.
    As the federal agency responsible for transit security, TSA 
shares the Subcommittee's concerns about draw down and 
expenditure rates. We want to thank you for providing us the 
opportunity to discuss what TSA has done to improve its portion 
of the transit grant process and what we expect to do to 
improve the flow of state and local grant expenditures.
    TSA owns the front end of the process. We are responsible 
for identifying security priorities and assigning projects to 
achieve the highest risk reduction. We recognize the timeline 
involved in this, and we have taken steps to reduce that 
process down from 345 days in fiscal year 2006 to 60 days in 
2009, and 60 days means all the grants as of Friday are out and 
over to FEMA. So the process chart that we passed out to this 
Subcommittee and have shown everyone is not an expectation or a 
plan or whatever else, it actually happened.
    We have done that largely by taking the Investment 
Justification process and putting that up front rather than 
negotiating over a period of months.
    So, TSA has fixed the front end. We have taken it down to 
60 days, and we think that is a reasonable period of time to 
review grant applications, sort them, put them in proper order, 
make priorities, and determine awards.
    Secondly, TSA is also committed to fixing the back end of 
the process. I know that transit agencies are conducting grant-
related security activities, so I want to know why the draw-
down rates are so low. This Thursday, I am beginning a series 
of meetings around the country to determine why the draw-down 
rates are so low and what can be done to expedite them. I am 
going to start with the largest agencies, the MTA in New York 
on Thursday; sit down with their folks, and map out the process 
in terms of determining where security projects are in the 
planning and execution process. We intend to map each state, 
local and federal process to identify the root causes of 
expenditure delay versus planned.
    Finally, we have addressed the recommendations of Mr. 
Morange and Mr. Eckles and we agree with approximately 17 
different recommendations. We agree with six; recommendation 
nine we agree with in principle, additional work has to be 
done; and we disagree with two recommendations, one being that 
we should contact only the transit grant agency and not the 
primary security provider, and the other involving of issuing 
guidance before the appropriation is enacted.
    So, finally, I would like to leave this Subcommittee that 
TSA has reduced the front end of the process, the part that TSA 
is responsible for, and we are determined to find out where the 
money is sitting in terms of the approximately three-quarters 
of a billion dollars between 2006 through 2008. Thank you, sir.
    Mr. Price. Thank you. Mr. Ashley.

                  Opening Statement of W. Ross Ashley

    Mr. Ashley. Good morning, Chairman Price, Ranking Member 
Rogers, Members of the Committee. Thank you for having us back 
here for round two.
    Earlier this month I appeared at this Subcommittee with Mr. 
Sammon as well as representatives from New York and Los 
Angeles. During that hearing, Mr. Chairman, you and Congressman 
Rogers as well as other members of the Subcommittee, expressed 
concern over several issues. Among those----
    Mr. Price. Mr. Ashley, make sure your microphone is on or 
you are speaking into it.
    Mr. Ashley. How is that? Is that better?
    Mr. Price. Good.
    Mr. Ashley. Among these concerns were the following: the 
amount of time that is required to obligate and draw down 
critical transit security grant funds; the roles and 
responsibilities of TSA and FEMA; as Mr. Sammon mentioned, the 
specific responses to recommendations made both by L.A. and New 
York transit agencies; and solutions to facilitate rapid draw 
down on transit security grant funds.
    At the Committee's direction, FEMA and TSA constructed and 
submitted our joint report on these concerns, and we are 
pleased to be here today to discuss the report. The report 
highlights areas of improved results as well as identified 
specific actions to be taken in order to continue to enhance 
programmatic results.
    To illustrate this point, it has been said twice now, the 
report submitted includes a chart entitled ``Processing Time 
for TSA Grants,'' clearly illustrating the substantial progress 
made in the time between application submission and when funds 
are available to draw down.
    The report also identifies specific actions to be taken in 
order to continue to make funds available faster, measure 
results, increase capability, and finally, to facilitate 
increased draw down rates.
    There is one final point I believe requires mention and I 
believe we talked about it briefly in our interoperable 
communications hearing we had as well. From discussions I have 
had with New York and Los Angeles these past weeks, it is not 
necesarily accurate to equate the rate of drawdown of rail and 
transit funds with the lack of activity by the recipient 
agencies to increase security and safety of their systems.
    It is true that grant funds may have become available for 
use not as quickly as all of us would have liked, but that does 
not mean money is not being used. Critical grant-funded 
projects are underway in every state, and they are being 
executed today.
    Again, I would like to thank you for the opportunity to 
appear before you to discuss these matters, and I am happy to 
take questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
             APPROVAL OF PROJECTS BEFORE AWARD AND BACKLOG

    Mr. Price. Thank you. We will turn directly to questions, 
and I will start with a couple of questions that I pretty well 
telegraphed in my opening statement because I think they are 
very obvious questions from the report you have submitted.
    Your testimony in particularly, Mr. Sammon, restated that 
you intend to move the approval process to zero days after DHS 
announces how much each transit entity is awarded in fiscal 
2009. Now, that would mean going from 285 days for the 
distinctive TSA part of this process, to zero days in 2009.
    Now, we know, of course, that TSA and FEMA have been part 
of this statutorily-required 60-day process that precedes the 
285 days you are talking about, and then the TSA process kicked 
in. So presumably in going from 285 days to zero you plan to 
move the work and the review that you do into that initial 60 
days, assuming you are still going to review and approve all 
the projects before award. I think we need some clarification 
of that. How exactly is it going to work.
    Now, if you are truly able to review and approve projects 
prior to award, then this is obviously a step in the right 
direction to avoid the lengthy delays between your award time 
and when you actually allow transit agencies to spend the 
funding. Nonetheless it is a major change.
    And my second point is that it leaves largely unaddressed 
the process that remains from the previous years of funding. So 
the second question is what are you doing to clear the backlog? 
Has TSA approved all projects for 2006, 2007, 2008? I suspect 
the answer to that is no. If not, what is the sense in 
releasing current year funds without dealing with the older 
projects? Unless I missed it, the report does not deal with 
that.
    So two questions: How are you going to make this rather 
extraordinary turnaround? What does it imply in terms of the 
sequencing and the content of the review process? And then 
secondly, what about the pre-2009 years?
    Mr. Sammon. Those are two very good questions. Thank you, 
Mr. Chairman.
    First of all, in terms of what we have done the chart is 
showing what we have actually done for the 2009 process, and we 
have turned over all during that 60-day period. We have gone 
through the review of the projects down through the ranking of 
the projects. But, the one big change that has happened is the 
projects are going directly to the agency, we do not have the 
state involvement in it. We have been able to move the 
investment Justifications up into that 60 day period and by 
doing that, we have basically cut the cord, award and rank the 
projects, and send them to FEMA.
    In the past, after the initial period, the states were 
awarded funds and the Investment Justification process went 
back and forth between TSA and the agency for months. We have 
completed the review in 2009--this is done. This is not a plan 
that we intend to do for all the 60-day projects, we have met 
and sent over to, the award, the grant award we sent to FEMA on 
Friday afternoon. So, TSA is done with our portion of the 
process, and we were able to do that by moving the Investment 
Justification process the analysts who put the project priority 
on a ranking system, a numerical ranking system, which makes it 
very easy to rank and order these projects. We do not have to 
go through a complex period of paneling and so on and so forth 
by working with the agencies throughout the year to get their 
project priorities in line. So for the front end of the 
process, we have taken down the time significantly.
    The interim years, starting with fiscal year 2006, was a 
mess. It was a hands-off process, and there was no 
communication allowed back and forth between the agencies, and 
that was a messy, messy process. Fiscal year 2006 would have 
been lower--TSA is composed of the blue and red bars in this 
chart. I believe that 2007 would have been lower. A 
supplemental appropriation was enacted and in the supplemental, 
TSA pushed for increased use of operational funds. The capital 
grant programs and projects take the most time because there is 
engineering involved and bidding and outsourcing. We have 
pushed to include things like the canine teams, paying for 
canine, paying for mobil screening teams, paying for train 
surges, bus surges and so on, which agencies do not have to 
outsource or bid; they simply do it with their own people, and 
we have pushed for that recommendation. But that change that 
slowed the process down in 2007. I think 2007 would have been 
better.
    And, in 2008, because Congress--I think it was a good thing 
to do, that Congress did in terms of eliminating the match, the 
people for a number of the previously applied projects went 
back and said, well, gosh, if I do not have a match requirement 
let me resubmit my projects and we worked with them to do that.
    So, in 2009, with a clean process, everyone knew the rules 
up-front and, we were able to take it down to 60 days.
    Now, as you said, that still does not address the 
approximately three-quarters of a billion dollars sitting out 
there, and that is why I am personally going to go, starting in 
New York, to identify where the money is sitting in terms of 
between the local planning, the local procurement process, then 
the state and the state processes--the previous money from 
2008, back to 2006--because it all went through the state, the 
state process and the federal process, we will determine the 
root cause of where the money sits versus plan, and identify 
those delays because that is the issue--what is the cause of 
the delay. In two weeks we simply did not have enough time to 
go around the country and do this.
    The good thing about this process, getting it down, getting 
back to you and reporting back to you where this is, there are 
only approximately seven states and approximately 15 or 16 
agencies that represent the vast majority of this money. So, we 
should be able to get back to you and tell you where this is, 
where it is sitting according to their plan, what we think the 
delays are, and what we think we ought to do to speed up this 
backlog of money. If we hit the front end process, the new 
process is improved, what do we do with the old process, and we 
are going to have to tell you that, and today we did not have 
enough time in two weeks to be able to tell you that.

                    TSA APPROVAL OF BACKLOG PROJECTS

    Mr. Price. So TSA has not approved all the projects for 
these previous years--2006, 2007, 2008? What you are telling 
me, as I understand it, is that this approval is still tied up 
in these consultations with the major states involved?
    Mr. Sammon. All of the 2008s are approved. All of the 2007s 
are redos. What we want to do is go through a detailed 
examination. For instance, I am going to meet with Rob Marciano 
and Mr. Morange on Thursday; sit down and take their projects 
and outline where they are, what is their expenditure plan, 
where is the money versus their expenditure plan, so we can map 
out and get back to you and say, here is the stuff that they 
plan to spend, here is where they are in actual spending, and 
if there is a federal delay, a state delay or a local 
procurement delay, or whatever else, we will be able to outline 
that to you.
    The issue they have explained to us, the capital projects 
they have to do, they have to do design work. Once the grant 
order is made, then they start the design process, the 
procurement process, the actual construction process, so those 
things do take time, and they do have a plan for how they 
expect to spend it. But, what we want to know is versus that 
plan what are the inherent--what are the inherent delays. What 
kind of delays are being imposed on them from being unable to 
spend the money before they plan to spend it? We want to do 
that.
    Mr. Price. All right. I think case by case one can 
understand what these discussions are about, but I am still 
having trouble with this transition that you are proposing, to 
basically go to zero days of this kind of TSA review you are 
talking about beyond that initial 60 days. Are we to assume 
that these kinds of protracted discussions that you are 
involved in with regard to these monies from 2006, 2007 and 
2008 will no longer be necessary or somehow they will be 
telescoped into that first 60 days?
    I do not understand why the process you are proposing for 
2009 has so little relevance apparently to clearing up this 
backlog.
    Mr. Sammon. The previous money that is hanging out there, 
and the numbers are from the GAO in terms of what is approved, 
and what the bars represent is the close of the application 
period. So when the application closes, everybody has to have 
their application closed by the time that money is available 
for the agency to spend.
    But, we have taken the closed, the TSA portion, from the 
close of the applications to the time we approve the 
applications and move them to FEMA, the 60 days. The TSA 
portion takes 60 days. We think that is a reasonable period of 
time going forward.
    The previous years' money, most of those awards have been 
made except there are, again in 2008 a number of people when 
they saw that they did not need a match anymore due to the 
appropriation act, have been going through a process of trying 
to re-negotiate projects and move money around from one project 
to another. We expect to have that cleaned up pretty shortly.
    Mr. Price. Well, we will want to figure out with you what 
is a reasonable timeframe for getting your full accounting of 
this.
    Mr. Sammon. We expect to do this as quickly as possible. I 
am personally going to New York, and going to California next 
week.
    Mr. Price. What is a reasonable timeframe? Thirty days?
    Mr. Sammon. I think it will take more than 30 days. What I 
would like to do is report back to the Committee staff in 30 
days to tell you where we are. We may, with hitting four or 
five agencies, account for 50 percent of the money, for 
instance, and I think we should report to you under those 
intervals and get back to it, commit to it. All 44--44 agencies 
account for 92 percent of the money, but as I said, 50 agencies 
account for the vast majority of the money, and we will see the 
process breakdown or delays, I think, pretty quickly.
    Mr. Price. Well, we will return to this.
    Mr. Rogers, your questions?

                    INTERIM REPORT AND FINAL REPORT

    Mr. Rogers. I want to follow up on that. We need a timeline 
here. You are going to report interimly in 30 days, right?
    Mr. Sammon. Yes, sir.
    Mr. Rogers. And when can we expect a final report?
    Mr. Sammon. I think we should be able to get the vast 
majority of this accounted for and have a report cleared out 
through the Federal Government in perhaps about 120 days.
    Mr. Rogers. I am sorry?
    Mr. Sammon. About 120 days, have it cleared through DHS so 
on and so forth. The clearance process is also a significant 
portion of getting the report to you.
    Mr. Rogers. So four months from today.
    Mr. Sammon. Yes.
    Mr. Rogers. We should have this all clear?
    Mr. Sammon. You should know where the money is and what we 
think can be done to get it out faster, yes.
    Mr. Price. If that is agreeable, that will be our 
expectation.
    Mr. Sammon. One correction. What I would like to do is get 
the vast majority of the money--again those 15 or 16 agencies 
in seven states--as opposed to every last penny of it, but that 
will tell you where the problems are and where most of the 
problem is.
    Mr. Rogers. All right, 120 days?
    Mr. Sammon. Yes.
    Mr. Rogers. Deal.
    Mr. Sammon. Good. Thank you.
    Mr. Rogers. Well, now the last time we were here you said 
you would have a report to us by Friday, March 27, and we did 
not get it until 4:45 yesterday afternoon. You will be more 
prompt next time on the 120 days.
    Mr. Sammon. We will get it to you in 120 days, yes.
    Mr. Rogers. Because we have not had time to digest this 
report----
    Mr. Sammon. Yes.
    Mr. Rogers [continuing]. And we do not want to do business 
that way.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Yes.

                           FUNDS FOR FY 2010

    Mr. Rogers. Now, the $1.5 billion that has been 
appropriated for rail transit and intercity bus grants, only 
$192.4 million, about $12.5 percent has been spent, leaving 
more than $1.3 billion, 87 percent unspent. That means we do 
not have to provide any funds for 2010 then, right?
    Mr. Sammon. Well, looking at the timeframe, I think one of 
the recommendations we would like to make back to the 
subcommittee in terms of there are activities taking place. I 
know, for instance, there are lots of security-related 
activities taking place. The MTA, for instance, is conducting 
security searches five days a week in six locations with our 
grant money. They have trained their front-line police force 
and a number of other people in terms of security awareness 
training.
    In Los Angeles, the Sheriff's Department conducts mobile 
search and screening operations three times a day as a result 
of this grant money. They also do bag checks and sweeps on 
Metrolink, which is a commuter agency. Washington, D.C. has 
provided their bus operators with security.
    So, there is activity taking place, and the question may be 
when you look at the operational funds, what we want to know is 
how quickly the operational funds are being drawn down versus 
the capital funds because it is a very different issue and I 
think we ought to get insight on that here pretty quickly to 
get----
    Mr. Rogers. I mean for grant monies.
    Mr. Sammon. Yes.
    Mr. Rogers. For making grants.
    Mr. Sammon. Yes.
    Mr. Rogers. You have got the $1.3 billion laying around. 
You do not need any extra money piled in that hopper for 2010, 
do you?
    Mr. Sammon. I think that is one of the recommendations we 
will make back to you.
    Mr. Rogers. What recommendation?
    Mr. Sammon. In terms of the question you have asked me in 
terms of----
    Mr. Rogers. Whether or not you will need more money?
    Mr. Sammon. Yes.
    Mr. Rogers. There is no way you can spend the $1.5 billion 
in 2010, is there?
    Mr. Sammon. The $1.5 billion will not be spent, I doubt it, 
in 2010 because they are multi-year capital projects.
    Mr. Rogers. So if we need money elsewhere in this bill----
    Mr. Sammon. Yes.
    Mr. Rogers [continuing]. Why put more money in a hopper 
that is not operating?
    Mr. Sammon. I think that is what we have to be able to tell 
you is how quickly it can be operated, sir.

                             UNSPENT FUNDS

    Mr. Rogers. Well, now, what you have recommended to us are 
fairly obvious recommendations. I mean, there is nothing rocket 
science about what you are proposing. Why have we not done this 
before?
    Mr. Sammon. In terms of going through the grant analysis?
    Mr. Rogers. Yes.
    Mr. Sammon. That is a very good question. We have been--
again, TSA in terms of our role, in terms of talking to the 
agencies and security providers, we see activity happening. We 
know that the capital projects take longer. We have been 
pushing since the supplemental appropriation in 2007 to get 
more money for operational funds, which we know can be on the 
street quickly. One of the things we have been doing, 
recognizing that, one of the reasons we changed the grant 
guidance significantly in 2007, to provide for operational 
funds and also to make sure that the operational funds provide 
the highest priority, meaning those projects are going to be 
put to the top because we know that it takes a long time to get 
capital projects funded.
    Mr. Rogers. Mr. Ashley, what do you think?
    Mr. Ashley. A couple of things. One, I would like to 
comment on the part about the money that is sitting around in 
the budget that is unspent. From talking with these transit 
agencies, and I am sure if you talked to the transit agencies 
that have been speaking with the notion that the money is not 
spent or drawn down does not mean that the funding is not 
obligated to valid security projects that are ongoing.
    Now, one could make the argument on how big the funnel 
ought to be going in, but every dollar that has been 
appropriated is going towards valid security projects that are 
obligated to them.
    The second part about this, as mentioned by Mr. Sammon, 
vast improvements have been made on the front end of this 
process. The part about doing the investment justification at 
the very beginning of the process (during the application 
process) is consistent to the way that we do the Homeland 
Security Grant Program. It allows for those funds to become 
available for draw down faster.
    Having talked to the transit agencies now over the last 
couple of weeks on this issue, the issue is not on the back end 
of the process of how long it takes from a cash management 
standpoint; it is on the front end of the process, on how long 
it has taken to make these funds available, and we have made 
marked improvement in that area.
    What we deem to do now, as Mr. Sammon mentioned, is a 
couple of different things. One is to reach out to the transit 
agencies and determine what is specific to the individual 
agency or state. One size does not fit all. There is not one 
plan that fits for New York, that fits for Los Angeles, that 
fits for Philadelphia. They each have different procurement 
systems. They have different state laws. They each have 
different abilities to take advantage of our cash management 
exemption from the Cash Management Act. So we are going to 
reach out to each one of them and identify these points to help 
them develop plans to draw down the funds faster.
    In our monitoring plans on the back end, we plan to include 
an explanation of the use of our cash management exemption to 
allow folks to get the funds out of the Federal Treasury and 
into the states and transit coffers much more rapidly. But 
again, this will be a state by state, transit agency by transit 
agency-specific issue.

             CONGRESSIONAL DIRECTION TO ACCELERATE EFFORTS

    Mr. Rogers. With all of these monies not spent, and 
realizing that these grants are supposed to be purchasing 
greater security, we put in the 2009 bill a direction that FEMA 
accelerate efforts to develop tools for measuring the 
achievement and effectiveness of its grant programs to give us 
some yardstick to measure whether or not the money being spent 
is doing what it is supposed to, a cost to capability is what 
you now call it, and we put money in there. Where are we on 
that?
    Mr. Ashley. Yes, sir. You all were good enough to put $5 
million in for the first time to measure the effectiveness of 
grant programs, not just in transit, but across the $27 billion 
or so at this point that has been appropriated to date. The 
project has two different components to it. One was a look back 
over the last five years at the accomplishments that have been 
made from the data that we have available, whether from TSA 
partners and FEMA, or whether from Coast Guard and the Port 
Security Grants, what has been accomplished over the last five 
years with the existing data. From that, we learn what kind of 
questions are we asking; are we asking the right questions of 
our state and local partners to find out how we could better 
measure that capability going forward on a year-over-year basis 
so that we can begin to allocate grants not just upon the risk 
but the ability to determine the return on investment of 
addressing that risk?
    We are in the final process of clearing the Grant 
Accomplishments Report, which is the first phase of that 
project. It has been cleared out of FEMA and is at DHS now--to 
look at that five-year look back.
    More importantly, we are kicking off in the next three 
weeks a pilot with 20 UASI and state jurisdictions, 18 to 20, 
that will be specifically looking at the year-over-year return 
on investments all across grant programs for those individual 
jurisdictions on an automated basis, and we have been working 
with your staff on that.
    Mr. Rogers. When will we hear something?
    Mr. Ashley. With the new team in place, it has taken a 
little bit longer to coordinate reports out. I would anticipate 
within the next two to four weeks we will have the first phase 
report out of final clearance. Then we will report to your 
staff who will be the pilot participants moving forward on 
the--for the 2010 process.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rothman.

                          OBLIGATION OF FUNDS

    Mr. Rothman. Thank you. Mr. Ashley, can you tell me if, if 
I heard you correctly, every dollar appropriated has been 
obligated. Did I understand that correctly?
    Mr. Ashley. That is correct.
    Mr. Rothman. For 2006, 2007, 2008, and 2009?
    Mr. Ashley. 2009, not yet. We will announce the FY09 grants 
on April 8. The Secretary will be announcing them.
    Mr. Rothman. So as of April 8th it will be 100 percent from 
2006 to 2009?
    Mr. Ashley. For 2009, it will take approximately 60 to 90 
days after the award is made to do the fiduciary programmatic 
work, after which they will be obligated.
    Mr. Rothman. I will tell you there might have been a lot 
less heat last time if we had heard that sentence.
    Mr. Ashley. Right.

                    ACCELERATION OF PROJECT APPROVAL

    Mr. Rothman. But I want to first thank the Chairman and the 
Ranking Member for calling the first hearing on this subject, 
and I would like to thank you gentlemen for calling the second 
hearing. I believe it did get everyone's attention and 
refocused on this. There has been a lot of work done by the TSA 
and FEMA, obviously, in a whole host of areas very important to 
our national security, but on the rail security we have a ways 
to go.
    I am grateful, I think I am grateful that this middle part, 
this project approval phase of TSA has been eliminated. I say I 
think I am grateful because I am not sure what is lost by going 
from 285 days worth of work, evaluation and thought to zero, or 
have that work combined with work that was already being 
undertaken in the initial 60-day phase.
    Mr. Sammon, you said that what allowed for this progress, 
this rather remarkable process, was that investment 
justifications were moved up between TSA and the Agency. Do you 
mean FEMA?
    Mr. Sammon. The applying agency.
    Mr. Rothman. The applying agency.
    Mr. Sammon. Yes, sir.
    Mr. Rothman. And you said the ranking was moved up.
    Mr. Sammon. When we issued guidance back for the fiscal 
year 2008, we made a simplified process in terms of putting in 
five categories of projects, and each category, depending upon 
which one you wanted to apply for, received a different score. 
So, for instance if you wanted to train employees, you get a 
score of five. If you wanted to put cameras in suburban bus 
yards, you might get a score of two or one. So, it is very 
transparent. The agencies can see it up front. They understand 
if I apply for this, here is how I will score.
    Mr. Rothman. And how was it done previously?
    Mr. Sammon. Previously, people would submit complex 
applications, lots of paperwork, and then a whole room of 
experts would sit around the table and look at them, judge 
them, and argue about them. It was a complex process.
    Mr. Rothman. Are you saying that a group of people do not 
evaluate them before they put the number on them?
    Mr. Sammon. The numbers are assigned--there is a 60-day 
period from when the application is closed until TSA is 
finished with them.
    Mr. Rothman. And who puts the numbers on them?
    Mr. Sammon. TSA looks, for example, if it is training, they 
will put a five.
    Mr. Rothman. Okay. So you feel you do not need that room 
full of folks that you relied on previously. You can now do 
that with a different group?
    Mr. Sammon. It is still a set of subject matter experts, 
but they get to the answer much quicker than they did before.
    Mr. Rothman. And how is that, sir?
    Mr. Sammon. Because, for instance, if you are applying for 
training, training is in the first category, the highest 
priority. If it is a training application, they see it is 
someone wants to train 500 bus drivers with security awareness 
training, the project is scored a five, and now it moves along.
    Mr. Rothman. So in other words you have set up a system 
where certain categories of work are automatically assigned a 
number.
    Mr. Sammon. Yes, sir.
    Mr. Rothman. So now all you have to do is find out where 
the application plugs in.
    Mr. Sammon. Yes.
    Mr. Rothman. Whereas before you on an ad hoc individual 
basis----
    Mr. Sammon. Yes.
    Mr. Rothman [continuing]. Decided what the number would be.
    Mr. Sammon. And they would all have to compare all the 
voluminous number of applications to one another to see where 
they ranked and how they fit.
    Mr. Rothman. And so now you compare the five, four, three, 
two, ones with each other.
    Mr. Sammon. Yes.
    Mr. Rothman. And then you rank them.
    Mr. Sammon. We also look at the rank, the agency's risk 
score. So, for instance, the New York Transit Agency would have 
a higher score than a smaller----

                           FUNDING FOR FY2010

    Mr. Rothman. One other fast question if I may. It is more 
of a comment. You know, coming from the Northeast, Mr. 
Chairman, Mr. Ranking Member, New Jersey, in particular, 
probably one of the highest risk target centers in the country, 
I am not certain that I would want to zero out the 2010 capital 
budget for rail security, especially since, as Mr. Ashley said, 
every penny of 2009 has been obligated--excuse me--of 2006, 
2007, and 2008 have been obligated, and 2009 will be obligated 
within 60 days from April 8th?
    Mr. Ashley. If I could also add, in the process that TSA 
has taken place in 2009, all of the projects for 2009, as Mr. 
Sammon mentioned, are approved. These are projects that are 
being obligated. They are not financially obligated, but they 
have identified needs that are moving forward.
    Mr. Rothman. Okay. So all the more reason if I may make the 
plug for not zeroing out the capital budget for 2010, that we 
keep this progress going, and provide sufficient resources for 
capital projects as well as operational. Thank you, Mr. 
Chairman.
    Mr. Price. Thank you. Mr. Carter.

                 MEETING WITH GRANTEES ON EXPENDITURES

    Mr. Carter. Thank you, Mr. Chairman.
    So you can go have these meeting with these folks around 
the country to find out how they are spending the money, is 
that right?
    Mr. Sammon. Yes, sir.
    Mr. Carter. That was not thought of in 2006? We just laid 
it out there and forgot about it, or what happened there?
    Mr. Sammon. Well, I do not think anyone forgot about it. 
FEMA is the fiduciary agency for the money in terms of where 
the money is spent. The money is drawn against their account 
and that is what they primarily do. What we wanted to do is 
make sure, however, and I also see on an ongoing basis when 
talking to MTA, Los Angeles Sheriff's Department, Tom Lambert 
down in Houston, for instance, he trained 2,200 of his front-
line employees with transit grant money. So in our normal 
conversations we have with agencies, people are doing things. 
In terms of their insight, in terms of their capital projects, 
where they are in terms of between the state and the local 
entities and design, engineering, construction, those things do 
take longer; however we do believe that the length of the draw 
is lengthy and the Committee deserves a complete understanding 
of where the money is and what we are doing to speed it up.

                         RAIL TRANSIT SECURITY

    Mr. Carter. When you say transit, is it a priority on rail 
and bus that we are talking about?
    Mr. Sammon. It is.
    Mr. Carter. We spent lots of money on air.
    Mr. Sammon. Yes. This is for intracity rail and bus.
    Mr. Carter. I unfortunately took the train from Texas to 
Washington because of surgery I had, and I thought about it the 
entire way because they stopped in--well, I got on in Taylor, 
Texas.
    Mr. Sammon. Yes.
    Mr. Carter. And I can assure you there was zero security in 
Taylor, Texas. And I put two very heavy bags on there because 
my wife was with me. [Laughter.]
    We are not on television, are we?
    And I thought about that. I mean, I thought this is not any 
different than traveling on the train when I was a little kid 
going to visit my grandmother in Tennessee from Houston, Texas. 
I saw no security whatsoever anywhere. And it did not worry me 
because I just figured I am one of these fatalists, it either 
will happen or it will not. But it really ought to worry us 
because I had to go all the way to Chicago, from Chicago all 
the way across the top of the country to Washington. Never saw 
any security anywhere.
    Mr. Sammon. Sir, I went to New York last week from D.C. 
Amtrak security at Union Station, you see they have guards and 
they have other security traveling on the train to New York. A 
police officer with a dog is checking, stopping the dog at the 
bags. So, Amtrak does look at what they perceive to be higher 
threat locations, and they tend to concentrate all the security 
resources there. For instance, they have also spent a lot of 
time and money, you know, hardening the tunnel into New York. 
They are looking at what do they think the highest target 
threats would be, and I think they focus their resources there. 
And they do, particularly in the Northeast corridor.
    Mr. Carter. I will be corrected. I did see security in 
Chicago. I will say that.
    Mr. Sammon. Okay.

                 MEETING WITH GRANTEES ON EXPENDITURES

    Mr. Carter. But I guess what I am wondering about is that 
if I am hearing what you are saying, you are going to go find 
out how they are spending the money and how they are processing 
it out, and I am just assuming that some places you go the plan 
is going to be how you secure Amtrak, and it seems to me that 
ought to be reported to you on a, I would think, monthly basis 
or at least a quarterly basis from the start of the program so 
you know what they are doing, and that is why it is curious for 
me that it seems to me you are going to go back and check on 
how they are spending the money.
    Mr. Sammon. Yes, Amtrak does have a direct grant in terms 
of the appropriation. There is a direct amount for Amtrak that 
is carved out of the overall grant appropriation for 
transportation. We have worked with Amtrak closely for the past 
number of years to encourage them, particularly, to do things 
such as more dogs, more patrols, those kinds of things. Again, 
that is the kind of money you can spend faster. You get more 
up-front security.
    Back in 2007, for instance, in the process we brought the 
New York Police Department to enter the grant process to get 
the people who are actually providing the front-line security 
into this process so we get those applications for funds to 
folks who are securing subways in New York, Chicago, and Los 
Angeles.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Ms. Lowey.

                      DELAYS IN DRAWDOWN OF FUNDS

    Ms. Lowey. Thank you, Mr. Chairman, and thank you for 
holding this second hearing. I just want to clarify a couple of 
points. While a significant amount of money waiting to be drawn 
down could be problematic, that does not mean that the local 
governments are ignoring their responsibilities, and I 
encourage my colleagues to not simply look at drawn down 
figures and make conclusions about the effectiveness of certain 
programs. I am really confident that if you would examine 
security operations in New York, which Chairman Price and I did 
in November, you would be truly impressed with how the grants 
have been spent in the area that is the likeliest target of an 
attack.
    However, I would like to share an example that provides 
insight into the delays from when money is appropriated to when 
it is drawn down. For the fiscal year 2008 transit grant, New 
York State submitted investment justifications in August 2008. 
Until last week, maybe because you knew you were coming before 
the Committee, until last week the state heard nothing from TSA 
or FEMA, and last week FEMA sent the state a letter claiming 
that transit security funds had been released in November.
    The problem is no one contacted the State in November, and 
it took five months from the time DHS has issued the grant 
award notice to when it notified the State that money could be 
spent.

                      COMMUNICATION WITH GRANTEES

    Now, I understand the need to be a rigid system in place 
and I have been reviewing this and the recommendations, but DHS 
just has to do a better job communicating with grantees, and 
when grants are awarded recipients should be notified 
immediately. Would either of you care to comment on that?
    Mr. Ashley. Sure. I can comment on it, and part of this is 
the confusion of when the grant is made. We have a competitive 
process and in the transit programs for the Tier 1 agencies 
there is a target allocation given, and then we award. Last 
year, I believe, New York State was awarded $175 million, and 
an announcement of that award took place on May 16th or so last 
year.
    In the process, the investment justifications as Mr. Sammon 
was talking about earlier took place after the fact. After that 
award was made, TSA in New York went back and forth with the 
development of what that was. We received from TSA at that 
point an ``authorization to spend,'' if you will: ``projects 
are good--move forward.''
    Also what occurred, as referring to in that November 
letter, is when we obligate the funds in the financial system 
and say those funds are now committed in the federal fiscal 
year they are notified that those funds are committed to New 
York. Those funds are obligated and cannot be taken away. At 
the same time that is going on (while FEMA is doing its 
fiduciary management), TSA is currently working on the 
programmatics of the grant to make approval on a project-by-
project basis. That is also the part that Mr. Sammon spoke 
about that has now been accelerated up to the front end of the 
process, eliminating that dual (what you are referring to) 
notification to the State.
    Ms. Lowey. That does not make any sense to me at all. Does 
it make sense to you?
    Mr. Ashley. Okay.
    Ms. Lowey. Do you think that is a great system that the 
justifications were submitted--I mean----
    Mr. Ashley. In 2008, it was not a great process in taking 
that two-step process.
    Ms. Lowey. But why did it take until--I am just reading 
from these notes here--why did FEMA send a letter last week 
that the transit security funds can be released in November? In 
other words----
    Mr. Ashley. Because we----
    Ms. Lowey [continuing]. You messed up?
    Mr. Ashley. No, ma'am. We just received the authorization 
from TSA within the last couple of weeks for the 2008 funds, to 
release those funds to New York to be spent.
    Ms. Lowey. Well, I am glad you are reviewing the process. I 
will not belabor the point, but I also want to make it clear to 
my distinguished Chairman because he was in New York with me, 
that nearly all the funds have been obligated to New York. Now, 
there may be some areas of the country, and we have talked 
before about formulas and risk, that do not feel the urgency 
that we feel in New York. We know what the threat is. I am 
thrilled when I see those dogs at Grand Central Station. I am 
delighted that the feeder routes have dogs, not on all of them, 
they rotate, and I think it is important.
    So as I understand it, because we checked, nearly all of 
the funding in New York has been obligated and I think it is 
very important that you do not hold the state and locals 
responsible for federal problems. So I would hope that the 
federal government is working aggressively to streamline the 
program, but in areas of the highest risk I think it is 
essential that the money keep flowing because, boy, we could 
use more dogs. It really works very well.

                          FEMA'S RISK FORMULA

    And I wanted to mention another program. FEMA's risk 
formula used to distribute the grants values threat at 20--I am 
finished with that, okay, but I would be interested to know, 
Mr. Chairman, and perhaps they can respond to me, why is the 
actual threat of an attack worth only one-fifth of the risk 
formula? I think that is pretty important when you are putting 
together----
    Mr. Price. It is important. Please respond briefly, and 
then you can elaborate for the record if you wish.
    Mr. Sammon. Again, the threat is one part of it that is 
very important. The threat information comes and goes, but it 
is a very important portion. The vulnerability and consequence 
of the formula take into account underground riders, 
passengers, and so forth. So, in that formula, New York always 
scores very high because the MTA has the higher passenger 
density and is many times more than any system in the whole 
country. And of those that are very high, threat kind of adds 
on top of that as another item.
    You can quantify it clearly by the passenger density, and 
underground tunnel, and miles and so on and so forth, and 
threat is more of a qualitative thing, so it is kept in that 
proportion.
    Ms. Lowey. I will not pursue that but you still have to 
convince me that threat should not be more than--should not be 
more than 20 percent.
    Mr. Sammon. And that is a very good observation to discuss.
    Ms. Lowey. Thank you, Mr. Chairman.

                     DRAW-DOWN FIGURES FOR NEW YORK

    Mr. Price. Thank you, and I would say to my colleague the 
draw-down figures for New York are part of the reason we are 
having these hearings. Yes, the funds have been obligated but 
the draw-down is alarmingly slight, and so these monies need to 
flow and, of course, New York City needs to have the highest 
priority in terms of addressing these needs.
    Ms. Lowey. Mr. Chairman, we are looking at that as well 
because I understand part of the problem is that the locals 
have not been reimbursed, so we are trying to figure out what 
the issue is here, and maybe the whole system, because as I 
understand it, it was explained to me when I asked the 
question, it does not mean that these programs are not being 
carried out. They have not necessarily been reimbursed in the 
most effective responsible way.
    So, Mr. Chairman, I think you bring up a good point, and 
that is what we are looking at as well, so the funding has been 
obligated, and that does not necessarily mean that the security 
programs have not been accomplished. They just have not been 
reimbursed.
    Mr. Sammon. And Rep. Lowey, that is why I will be in New 
York on Thursday morning.
    Mr. Price. New York obviously has a major stake in this 
review process. We have asked the agency to expedite, you know, 
within this four-month timeframe.
    Ms. Lowey. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Ruppersberger.

                        REDUCING APPROPRIATIONS

    Mr. Ruppersberger. Thank you. I was not here when the 
comment was made, so maybe it was not made exactly how I heard 
it or someone else told me that they heard it. One of the 
issues was raised that because we cannot move the money quickly 
enough, then maybe we should not be appropriating as much 
money, and that it was something that you were going to look at 
or that might be an option to look at. If that is the case, I 
want to try to address the issue.
    To begin with, management is about getting the best people 
you can get, getting the resources to do the job, and then 
holding people accountable. Now, a lot of times things like an 
issue such as grants is you do not have enough people, you do 
not have enough technology, or management is not doing their 
job, so, you know, that is something that we would try to find 
out from an oversight point of view, but I am going to get 
parochial to an extent.
    I represent a district that has NSA in the district, Fort 
Meade, BWI Airport, Port of Baltimore, Aberdeen. It is 
considered the Washington Metropolitan Area, including Virginia 
and Maryland. If we do not deal with the issue probably of mass 
transit, it will be worse than California, and it is getting 
close to that right now. So there is going to be a lot of 
activity in rail, there is a lot of activity, as you know, with 
homeland security. I was just at BWI Airport yesterday meeting 
with a lot of employees at the TSO at TSA.

                           FUNDING PRIORITIES

    So I would like you to respond. I think there are numerous 
needs and, unfortunately, I believed strongly when Homeland 
Security was stood up, that there was a lot of mismanagement of 
money going to places that were not really where they needed to 
be, and I believe now it is coming around a lot better and 
focusing on reality of where the money is supposed to go.
    Could you respond to the issue of what you are going to 
look at as far as the money is concerned because I would like 
to take you on a tour of my district. New York is a big city, I 
love New York, and what is the song, I love New York. I am a 
bad singer. But I really think the needs are there, and it is 
unfortunate if we cannot get the money to the front-line as 
quickly as possible.
    I was in local government for 18 years, and I always had a 
problem when the feds pressed down the state with grants, the 
state presses down on the locals, and the locals do not have 
any place to press. So the quicker and the better we can get 
that money is going to be helpful. Could you respond?
    Mr. Sammon. Yes. Well, in terms of Baltimore, it is 
included in the National Capital District in terms of for 
grants, which is a highly rated district. It shares Baltimore. 
By doing so it shares the risk rating and the threat rating 
that Rep. Lowey is referring to at the national level, that 
Washington, D.C. has. So, in terms of being in the group 
because we want to look at this as a regional process because 
obviously Maryland transportation agencies interface, coming 
back and forth to Washington. We have been working closely with 
the folks in Maryland to get transit priorities and grant money 
to them, working with them more in terms of operational funds, 
getting the kinds of things--people on the ground kind of funds 
that we think are important to get to secure the system 
because, again, the issue, when I think we get into this in 
terms of process-wise, looking at how long it takes to build a 
capital project, we are going to see more time. But we believe 
we can get money flushed out more quickly for operational costs 
in terms of paying for police, paying for overtime, paying for 
dogs, paying for mobil screening, those kinds of things.

               TESTING AND DEPLOYING SCREENING EQUIPMENT

    Mr. Ruppersberger. There is another issue too--do I have 
enough time? On the recovery bill, I believe there is $1 
billion to TSA. We talk about resources to do the job to 
protect our citizens. Detection capabilities, detection systems 
that have been used and on a test basis I know there is one at 
BWI Airport as an example. We need to do more than that. Is 
there a focus in Homeland Security working with the 
manufacturers of this equipment and has testing been done so 
that we can start using more of this equipment which will help 
our people on the front-line protecting us?
    Mr. Sammon. Well, I think we are looking at acquiring more 
of the whole body imagers which gives us the capability to see 
threat items on folks in a----
    Mr. Ruppersberger. My question, I want to get specific, 
there is detection equipment out there.
    Mr. Sammon. Yes.
    Mr. Ruppersberger. Are we on top of it? Are we starting to 
put it out there? Have we tested it? Is it where we should go?
    Mr. Sammon. With the whole body imagers what we are seeing 
is that the key thing we were worried about that is the 
through-put time. We are seeing through-puts raise 
significantly. The other piece you will see more is AT X-ray. 
The advantage of AT X-ray is it is a programmable platform that 
we can--as we see threat streams changing, we can put those 
kinds of materials, different liquids, other kinds of things 
into the machines to detect. If it only sees metal, it only 
sees----
    Mr. Ruppersberger. There are a lot of--how about an 
electronic baggage screening program?
    Mr. Sammon. Well, a large portion of that billion dollars I 
believe is going for in-line EDS systems in airports.
    Mr. Ruppersberger. Now you are talking about intelligence. 
Intelligence is very important----
    Mr. Sammon. Yes.
    Mr. Ruppersberger [continuing]. In protecting us against 
terrorism and there needs to be a lot of communication, but 
from an intelligence point of view when you are moving forward 
with this equipment you have pilot programs at most airports.
    Mr. Sammon. Yes.
    Mr. Ruppersberger. Are you using your intelligence to put 
it in places such as New York, such as other high-risk areas.
    Mr. Sammon. Yes. In terms of looking at the priorities and 
the rankings of those airports, and we also use intelligence. 
We talked about the program, the AT X-rays, to see what people 
are looking for on the Internet in terms of folks looking at 
possible threat streams and able to program those kinds of 
materials into those x-ray machines.

                      GRANT PROGRAM ADMINISTRATION

    Mr. Ruppersberger. Finally, my time is up, the other issue 
is I asked the question at the beginning, but I really would 
like you to focus on the fact when you have an administrative 
situation that you are not getting out the grant or there is a 
breakdown, in my opinion you do not put that money into a 
situation----
    Mr. Sammon. Right.
    Mr. Ruppersberger [continuing]. That is not going to work, 
but I think you need to come back and focus on where the money 
needs to go. Money is a priority in programs that have worked, 
programs that make a difference. And so I would hope when you 
are evaluating this do not use it as an excuse not to give 
money when in fact it is the mistake of administration.
    Mr. Sammon. I agree 100 percent, and that is why we pushed 
in 2007 for the supplemental appropriation to add the 
operational costs for deterrence. There was a RAND report in 
October of 2007, if you look at the--as was mentioned by Mr. 
Ashley--the cost/benefit return on investment, those kinds of 
things were the first level of priorities that you get the best 
bang for your buck.
    Mr. Price. Thank you. I am happy to say that some of the 
gentleman's questions provide a nice segue into our next 
hearing.
    Mr. Ruppersberger. Well, that is why I did it.
    [Laughter.]
    Mr. Price. Thanks for your help. Many of them do pertain, 
obviously, to aviation security; maybe even more than rail and 
transit security.
    With that, we are going to seque into our second panel. I 
do appreciate your gentlemen appearing. Let me just underscore 
a couple of things in terms of our remaining questions and also 
our expectations. We obviously greet as good news the 
streamlined process that you announced this morning for the 
2009 grant funds. However, Mr. Rothman was getting into some 
important questions and I want to ask you to, in a more 
systematic way, provide for the record an accounting of exactly 
what we are gaining and losing in terms of the substance of 
that review process.
    Going from 285 days to zero is of course what we have been 
asking for in a way, but seems to me legitimate questions have 
been raised and remain about the state role, for example, in 
this kind of expedited process you are describing, the place of 
the kind of peer review that you have conducted and that you 
have from time to time touted as a value and perhaps other 
things that we have not raised.
    Are these processes simply being compressed? Are they going 
to be eliminated or going to be modified? We would like a more 
systematic accounting for the record of what this rather 
dramatic change is going to entail in terms of not just the 
timing of the process, but also the content of the TSA 
component of this process. And then secondly, we do look 
forward to your accounting of the disposition of these 2006 
through 2008 grant funds.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    We will expect 30 day periodic updates with the staff, and 
then we expect a 120 day full accounting with the Subcommittee. 
With that, we thank you for your work and for your testimony 
here today, and we turn to our second panel. During the second 
portion of the hearing we will hear from Ms. Gale Rossides, the 
acting Administrator of the Transportation Security 
Administration.
                                           Tuesday, March 31, 2009.

        IMPROVING THE EFFICIENCY OF THE AVIATION SECURITY SYSTEM

                                WITNESS

GALE ROSSIDES, ACTING ADMINISTRATOR, TRANSPORTATION SECURITY 
    ADMINISTRATION

                  Opening Statement of Chairman Price

    Mr. Price. We will be focusing on TSA's efforts to improve 
the efficiency of the aviation security system. Now, we members 
have a lot of experience with this. It is one of those things 
that everybody has an opinion about. We fly at least twice a 
week, 40 weeks a year. Time and time again we encounter the 
aviation security system, and we also hear a lot from our 
constituents.
    We wonder, they wonder, when we will be able to bring 
liquids above three ounces in our carry on bags or when we will 
be able to stop dragging our bags over to the explosive 
detection system in the middle of the airport's lobby. So we 
all have some experience with this but we clearly will welcome 
the chance this morning for a more systematic review.
    Our Subcommittee's task over the years has been to help TSA 
find ways to more expeditiously move airline travelers, their 
luggage and air cargo, while at the same time strengthening 
security. Since 2002, Congress has appropriated over $44 
billion for aviation security activities, including $1 billion 
in the recently enacted economic recovery package.
    This recent appropriation should accelerate the 
installation of in-line explosive detection systems at airports 
nationwide and the development of technologies that would allow 
passengers to bring liquids of any size aboard on aircraft. The 
results have been slow in coming, and today we want to talk 
about what progress TSA has made in improving overall 
efficiency and what kind of progress we can anticipate in the 
future.
    Our concerns have also been voiced repeatedly about the 
pending general aviation rule on large aircraft security. That 
is another thing we hear plenty about. While it is critical to 
ensure the security of air travel, whether in the commercial 
aviation sector or with general aviation, security regulations 
should not pose an unwieldy financial or logistical burden on 
the general aviation community.
    Any new security requirement the government imposes on the 
public must strike a balance between tighter security and the 
need to ensure minimal disruption of the movement of goods and 
people in our economy. I know TSA is, as we speak, in the 
process of weighing these costs and benefits and continues to 
work with the affected stakeholders. I, and many others, have 
urged that course on the agency. Today we want to discuss the 
status of this pending rule and what alternatives TSA is 
continuing.
    Finally, with the adoption of the 9/11 Act, TSA was given 
several mandates, including tighter air cargo screening 
procedures. The Act specified that by February of 2009, 50 
percent of all air cargo being carried on passenger aircraft 
must be screened and 100 percent of this cargo must be screened 
by August 2010.
    While TSA has informed the Subcommittee that it has met the 
50 percent mandate, GAO recently has questioned this assertion. 
On March 18, 2009, GAO testified that TSA cannot verify this 
level of cargo screening and that TSA is still working to 
establish a system to ensure 50 percent screening which might 
be ready by next month. Now, this in theory was the easier 
mandate to meet. Reaching 100 percent will be a much greater 
challenge.
    Today we want to discuss how you can assure the 
Subcommittee that you are meeting the 50 percent deadline, what 
is working well so far and what challenges you face, and how 
you are going to stretch to meet this 100 percent requirement. 
I have publicly stated this is an important mandate. I believe 
that it is. I believe it is one TSA can meet, although I do 
recognize that it is easier said than done, perhaps, with 
respect to the timeframe we have set.
    So welcome, Ms. Rossides. I look forward to your testimony 
this morning. I want to ask you, as we do all of our witnesses, 
to take five minutes to summarize your written statement and we 
will put that entire statement in the record. Before you do 
that, I want to recognize our distinguished Ranking Member, Mr. 
Rogers, for his comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rogers. Thank you, Mr. Chairman. Ms. Rossides, welcome 
to the Subcommittee. Despite being one of TSA's first 
employees, today marks your first appearance before the 
Subcommittee, so welcome. Thank you for appearing today. We 
notice you have brought along some tissue paper. I promise you 
we will not bring you to tears.
    As I have said many times before, I am concerned TSA's 
approach to aviation security too often falls back upon an over 
reliance on costly manpower rather than efficiencies gained 
through technology. I acknowledge the airport environment is 
immensely challenging given the confluence of confined space 
and tight time schedules. All the more reason for investing in 
the latest screening technologies that can accurately and 
efficiently detect dangerous items while also reducing the 
staffing footprint.
    It is no secret that this has been one of the highest 
priorities of this Subcommittee and the Congress since the 
inception of TSA. In fact, we have provided nearly $2 billion 
for EDS procurement in just the last three years. Hefty sums 
that I hope are having the intended effects. Today, I look 
forward to learning more about how this sizeable investment in 
screening technology is allowing TSA to meet its mission 
requirements more effectively and more efficiently.
    I also note that this major increase in funding places 
TSA's procurement efforts on par with the annual funding levels 
of other large scale DHS acquisition programs, such as SBInet 
and Deepwater, and yet, TSA's acquisitions continue to be based 
upon what appear to be year to year needs rather than a 
strategic multiyear approach. So I hope we can discuss that 
today, how TSA is managing its acquisitions to meet its goals 
across all of its aviation security programs.
    From the inspection of carry on and checked baggage to the 
screening of passengers to the inspection of air cargo, TSA's 
efforts are certainly vital to keeping us all safe and secure. 
Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Ms. Rossides, please proceed.

                   Opening Statement of Gale Rossides

    Ms. Rossides. Good morning, Chairman Price, Ranking Member 
Rogers, and distinguished members of the Subcommittee. Thank 
you for the opportunity to appear today to testify on the 
Transportation Security Administration's efforts to improve 
aviation security. As we are pressed for time, I will keep this 
brief and request that my written testimony be included in the 
official hearing record.
    I am appearing before you today to discuss aviation 
security while serving in an acting capacity which is required 
in order to maintain a level of security during the transition 
period between the administrations. In the Department of 
Homeland Security, continuity of our mission was assured by 
designating the career position of Deputy Administrator of TSA 
as the acting Assistant Secretary.
    As such, I am honored to serve in these positions and to 
appear before you today. I would like to begin by thanking the 
members of the Subcommittee for their leadership, their 
oversight, and support of our evolving initiatives which are 
continually discussed in transportation security. By providing 
us with our 2009 appropriation at the beginning of this fiscal 
year we have been able to sustain progress on our planned 
enhancements through the Presidential transition.
    In addition, I especially want to thank the Subcommittee 
for the resources that were provided to TSA in the American 
Recovery and Reinvestment Act. We are working to ensure the 
prompt expenditure of these funds, which will further 
accelerate the deployment of TSA's explosives detection 
capabilities in airports throughout the country.
    The Subcommittee's efforts over these seven short years 
since TSA was created have enabled us to grow from a small 
cadre of employees to a dedicated workforce of over 50,000--
protecting every domestic commercial airport, strengthening 
security in all transportation modes and doing so through the 
strong stakeholder engagement in the U.S. and around the world.
    We have continually improved our people, processes, 
technologies, and partnerships and achieved some noteworthy 
milestones during this transition period. First, I am pleased 
to announce that on January 27, Secure Flight began operational 
cut over of the first air carrier and now has four carriers 
participating. TSA truly appreciates the cooperation of these 
volunteer air carriers. Our experience thus far has been a good 
one and has validated the program choices we made.
    This initial operating capability is a major milestone in 
the history of our agency and is a credit to all in both 
branches of our government who made this security enhancement a 
reality. In addition to my staff, I would like to thank, 
specifically, the DHS Screening Coordination Office, and 
especially Ms. Cathy Berrick and the GAO staff for their superb 
work with us in this program.
    Our goal for the Secure Flight Program is to assume 
responsibility for watch list matching of passengers for all 
domestic commercial flights by the late spring of 2010 and all 
international commercial flights by the end of 2010.
    Second, in February, we were to have met the mandate to 
screen 50 percent of cargo transported on passenger aircraft. I 
am pleased to inform the Subcommittee that based on the 
carriers' reports, a conservative analysis of the data 
indicates that the milestone has been met.
    Third, on March 26, we issued our one millionth 
transportation worker identification credential, and to address 
the surge we expect in the final and two largest sectors that 
are to come into compliance, L.A./Long Beach and Houston, we 
have set up additional enrollment centers. Finally, I will 
close by thanking this Subcommittee for the support of our 
workforce transformation efforts over the last several years.
    These accomplishments have been remarkable and can be 
represented by the role our Transportation Security Officers 
(TSOs) Inspectors and Federal Air Marshals played in the 
Presidential inauguration. Three hundred TSOs served in support 
of the United States Secret Service and provided screening 
expertise at checkpoints along the parade route and for the 
inauguration.
    FAMs, TSOs, and inspectors served on VIPR teams and more 
than 30 TSA canine teams were deployed. TSA personnel at the 
Transportation Security Operations Center provided an around 
the clock watch in partnership with the FAA, Department of 
Defense, and other DHS, state and local agencies to coordinate 
and monitor activities through the four-day event. The FAMs 
provided significant coverage of all commercial flights in and 
out of the National Capitol Region.
    It truly is my honor to serve alongside the men and women 
of TSA who are, in my opinion, everyday heroes. I could report 
even more, but in the interest of time will end my remarks. I 
thank you, and I am happy to answer your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      AIR CARGO SCREENING PROGRESS

    Mr. Price. Thank you, and let me say we are particularly 
pleased to receive the report about the 50 percent target. We 
know there has been some scrutiny of this by the GAO. We will 
look forward to their scrutiny of the documentation you can 
provide for the achievement you cite this morning. Let me move 
to what I think we would all agree is a more difficult question 
and that is the next goal of 100 percent screening of the cargo 
to be carried in the hold of passenger planes. That is what we 
are talking about here.
    We know that this 100 percent goal by August of next year 
is an ambitious goal but an important one. To reach that goal 
you developed the certified cargo screening program which would 
permit certified supply chain facilities to screen air cargo 
using a variety of technologies prior to delivering the cargo 
to the air carrier through a secure chain of custody. I think 
we all understand that making that system work is absolutely 
essential to reaching this goal.
    The certified cargo screening facilities must adhere to TSA 
mandated security standards. Earlier this year you began a 
limited Phase I roll out in the 18 major gateways focusing on 
shippers in nine cities and freight forwarders in all 18 
airport markets. This work is all being done domestically. 
Eventually, a similar program is going to need to occur 
overseas.
    I know you plan to evaluate the success of this program, 
before it can be expanded nationwide. So let me ask you just a 
few related questions on this matter. First of all, what kind 
of general assessment can you give us of how these certified 
cargo screening pilots have gone? What kind of problems have 
you encountered? Easier, harder than expected?
    Part of all this of course is having the ability to secure 
cargo with tamper evident technology so that there is assurance 
that it has been screened at the point of assembly of the 
pallet, let us say, and that it has not been tampered with. How 
are you ensuring that once physical screening has been 
completed and the package or pallet has been sealed it will not 
be tampered with later in the process?
    How far are we toward assuring this technology is working 
as it will need to? Then there is the matter of cargo coming 
from overseas. I think it would be helpful to the Committee 
just to have your realistic assessment of how you see this 
going short-term and longer term. Is the best way forward to 
screen most of this cargo overseas or should we assume, at 
least for the near term, that most of the cargo heading to our 
shores is going to have to be screened here and that we are 
going to have to have a system for doing that?
    Here, too, this is a major component of that 100 percent 
goal. So that is what I am asking you. How are these various 
efforts proceeding? What are the biggest challenges to meeting 
the 100 percent screening requirement by August of next year?
    Ms. Rossides. Thank you, sir. First of all, let me break it 
down in terms of the domestic versus international. With 
respect to the domestic side, we are very confident that we 
will meet the 100 percent screening requirement by August of 
2010 for domestic air cargo. We are doing that through a number 
of ways. First of all, our inspectors will be going out and 
certifying these cargo screening facilities.
    We are doing extensive out reach with the industry to 
identify these facilities. Of course, the supply chain solution 
is an excellent one to be able to spread the screening 
requirement across the supply chain so that we do not have a 
complete bottleneck at the airport locations. So, on the 
domestic side, we are quite confident, particularly working 
with the largest carriers. As you mentioned, it is really 
focused on 18 cities.
    On the international side, the challenge is much greater. 
As much as I would like to say that we are certain we would 
make that 100 percent milstone I would have to say, in all 
honesty it is probably unlikely that we could make the 100 
percent milestone by August of 2010. Our best estimate is 
perhaps about 75 percent of the progress will be made on the 
international front. The challenge there is it represents 
basically 98 countries that ship by air cargo into the United 
States, and so our approach literally has to be country by 
country.
    Now, for example, in the U.K., their system, which has 
really served as a model for us, is a very, very good system, 
but we literally have to work with our partners through ICAO 
and our partners that we make through these other efforts with 
foreign countries get their systems to a standard that is 
commensurate with ours. That is going to be a challenge.
    We still believe that the model of the supply chain 
approach with the certified cargo screening facilities in these 
countries is the only way that we hope to have them achieve 
this. We will use our Inspector cadre to go out and provide 
both support and inspect these facilities, and we will also be 
doing a tremendous amount of outreach. Your third point about 
technology, the challenges are in the technology arena.
    As you know, the approach we are taking is that we are 
literally requiring the screening by piece of what is either 
assembled in a pallet or is shipped as a single airway billing, 
and so that requirement will help us ensure that it is 
commensurate with baggage screening, but that also puts quite a 
challenge on the industry. The technology that we are looking 
at today is everything from an ETD machine, which we use in the 
baggage area, to an EDS.
    We have also been working with the DHS Office of Science 
and Technology to see what other new technologies we can really 
be leveraging. We have asked them to invite various industry in 
to try to help provide a solution for this challenge, but it is 
a challenge from the technology, especially once everything is 
in a pallet of this size.

                        TAMPER-PROOF TECHNOLOGY

    Mr. Price. Does the assurance you have given us just now 
that this 100 percent requirement with respect to domestic 
cargo can be reached by August of next year, does that assume 
that well in advance of that date, this tamper-proof technology 
has been certified and has been recommended by you for use in 
securing these supply chains?
    Ms. Rossides. No, sir, I cannot speak to that specifically. 
I would have to follow up with a specific----
    Mr. Price. I do not see how you can offer the assurance 
about the 100 percent goal until this tampering problem is more 
definitively dealt with.
    Ms. Rossides. I will take the question back. What the staff 
advises me on, with respect to the domestic, is by employing 
these certified screening facilities and ensuring that along 
the chain we have the proper measures in place, that will get 
us to the 100 percent milestone. But, with respect to the 
specific answer on the tamper proof technology, I will have to 
get back to you.
    [The information follows:]

                       Air Cargo Chain of Custody

    A key characteristic of the Certified Cargo Screening Program 
(CCSP) is the rigorous tracking of the chain of custody, including the 
use of tamper-evident technology to assure that, once screened, cargo 
remains secured in transit to the aircraft. TSA is continually 
evaluating chain of custody technology and has issued procedures to all 
entities involved in the CCSP, as well as other members of the air 
cargo supply chain, to ensure that cargo remains secure as it moves 
along the air cargo supply chain. These procedures are Sensitive 
Security Information and TSA would be pleased to provide these to the 
Committee and discuss this matter further in the appropriate venue at 
the Committee's convenience.

                   INTERNATIONAL AIR CARGO SCREENING

    Mr. Price. All right. And then, with regard to the second 
question about how this international cargo is going to be 
dealt with, I am not sure you stated your assumption totally 
clearly about how much of this is going to need to be dealt 
with in our domestic ports, as opposed to being handled 
overseas.
    Ms. Rossides. Well, one of the things we are looking at is 
those countries, for example, like the U.K. and Japan, what 
percentage are they actually bringing in today. And they 
represent about 40 percent.
    And so wherever we have countries that are meeting the 
standards today, that will be the solution we have in place. If 
we get to the point where we have other countries that cannot 
make it, we are going to have to take a decision down the line 
as to what to do in terms of those foreign countries, and 
whether we have to create some system here in the U.S. to 
address it.
    But, right now, our goal is to try to get the compliance 
and the level of screening commensurate in those countries at 
the point of origin.
    Mr. Price. All right. So when you say 75 percent by the 
appointed date for the international cargo, you are basing that 
on an assumption that you can do 75 percent of this cargo at 
the point of origination.
    Ms. Rossides. Right, in these foreign countries. Correct. 
So what we are hoping is that these countries will be 
compliant, and then we will only have to go after smaller 
countries where actually the load that is coming in is much 
smaller.
    Mr. Price. Well, it does seem to me that dealing with that 
problem should not have to wait until a determination some 
years from now, that we are not going to be able to achieve 
this kind of screening at the point of origin.
    Ms. Rossides. Oh, no.
    Mr. Price. Because there needs to be a provision obviously 
in the near term for screening this cargo on our shores, when 
this cannot be arranged overseas. And clearly, we are not going 
to reach 100 percent for some time in that regard.
    Ms. Rossides. Right. And right now, literally, our folks 
are working with folks in the U.K., in the E.U. We are reaching 
out. We are visiting foreign countries right now. We are not 
waiting for later in 2010 to address this issue. We have people 
who are working in these foreign countries right now, trying to 
get an assessment and trying to get those capabilities up in 
those countries.
    I did not mean to suggest that we are going to wait until 
2010 to say we have a problem. We will know much sooner than 
that.
    Mr. Price. No, I am talking about having a problem in terms 
of our ability to screen that cargo here, when it has not been 
screened overseas.
    Ms. Rossides. Right. And we will know that sooner, rather 
than----
    Mr. Price. All right. Mr. Rogers.
    Mr. Rogers. I am assuming that most of that international 
cargo will be palletized cargo?
    Ms. Rossides. For the most part, yes, sir. When it is 
coming in the large numbers, like from the U.K. and Japan.
    Mr. Rogers. If you do not mind, move that microphone 
closer.
    Ms. Rossides. I am sorry.

                 EQUIPMENT FOR INSPECTION OF AIR CARGO

    Mr. Rogers. But we do not have an explosives detection 
machine yet to examine palletized cargo, do we?
    Ms. Rossides. That is correct.
    Mr. Rogers. So how will you, how will you inspect 
international cargo, either there or here, without a machine?
    Ms. Rossides. Well, sir, the requirement is that it be 
inspected by the piece. So that means, it has to be inspected 
by the piece before it can be put in the palletized 
configuration. That is the expectation. And then that can be 
done via the ETD equipment, EDS equipment, canine, physical 
hand search of each piece, before it is palletized.

                       UPGRADE SECURITY EQUIPMENT

    Mr. Rogers. In the last three fiscal years, TSA has 
received nearly $2 billion for EDS procurements.
    Ms. Rossides. Yes, sir.
    Mr. Rogers. Specifically, $1 billion within the recent 
stimulus bill, which comes on top of the $294 million that was 
provided in 2009. And this large infusion of funding in 2009 is 
more than four times the amount of funding received for FY-08.
    So happily, there is then a great infusion of monies into 
the explosion-detection machine field, because we have been way 
behind in that.
    However, that large infusion of money I think represents an 
opportunity to upgrade the security equipment at a significant 
number of airports. Do you have a schedule now in place about 
the airports you are going to upgrade?
    Ms. Rossides. Yes, sir. As part of the stimulus funding, we 
actually have 16 airports that we are working with right now. 
And, as part of our Fiscal Year 2009 planned purchases, we have 
other airports that we are looking at.
    We have a schedule, we have a strategic plan. And the 
beauty of these investments is, particularly with the 
additional stimulus funds, it has allowed us to accelerate our 
checkpoint technology plan by about two years. And for our 
baggage area, it has allowed us to address airports that are 
ready with proposals in to us, so that we can ensure some quick 
spending of this stimulus money.
    Mr. Rogers. Do you have the list of the 16 airports that 
are on the list?
    Ms. Rossides. I do not have it with me, but yes, sir, we 
have those established. And we have notified them. We have 
given them interim letters of commitment.
    Mr. Rogers. Will you file that with your testimony?
    Ms. Rossides. Yes, sir. Yes, sir.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rogers. Now, what will happen at those airports?
    Ms. Rossides. It is a combination. They will be having 
optimal screening systems put in, focusing on checked baggage. 
It runs a range from replacing in-line, replacing lobby 
solutions, to in-line solutions. In some cases it may be some 
new terminal work with additional EDS technology and in-line 
systems.
    And there, the advantage to us with these programs, as I 
said, they have already had their plans and proposals in to us. 
So, we are hoping that we are going to be able to address them 
very quickly.
    Mr. Rogers. Are these the larger airports?
    Ms. Rossides. For the most part, yes, sir. But in addition, 
what we are looking at, the combination of Fiscal Year 2009 
dollars and stimulus dollars, is also to address some of the 
requirements of CAT 2 and 3 airports, with a reduced-size EDS, 
and trying to really look across the whole system as to how to 
best maximize the use of these dollars.
    Mr. Rogers. Well, it has been my experience that the place 
where we could gain fewer personnel and more technology were 
the small- and medium-sized airports, where, up until fairly 
recently, a lot of the activity was being done manually in the 
lobbies. And a single machine could save us a lot of personnel 
costs.
    Is that still the operating philosophy?
    Ms. Rossides. Yes, sir, that is one of them. We are 
actually looking at equipment in our new Transportation 
Security Integration Facility over at DCA, as to how that kind 
of technology can be used for both, you know, carry-on and 
checked baggage in the smaller airports.

                          NUMBER OF SCREENERS

    Mr. Rogers. And getting to the bottom line, how many 
screeners do you have there?
    Ms. Rossides. Sir, we have, not including our screening 
managers, approximately 44,500, FTE dedicated screeners.
    Mr. Rogers. Forty-four thousand, five hundred.
    Ms. Rossides. Yes. Yes, sir.
    Mr. Rogers. Well, that is 500 short of 45,000, is not it?
    Ms. Rossides. Yes, it is, sir.

                             SECURE FLIGHT

    Mr. Rogers. Magically. Secure Flight is going well?
    Ms. Rossides. Yes, sir, it is, it is going very well. We 
have some, as I mentioned in my oral statement, we have four 
carriers already. We have three in the queue. We actually have 
a schedule now that we are working out with the major U.S. 
carriers in terms of their cut-off, cut-over dates. It is going 
very well.
    We are working with GAO on the final tenth condition to 
satisfy that requirement. And, I believe it is going to be 
very, very successful, sir.
    Mr. Rogers. Question.
    Ms. Rossides. Yes, sir.
    Mr. Rogers. I am a Secure Flight recipient, say. What does 
that get me?
    Ms. Rossides. Well, sir, by providing your name, your date 
of birth, and your gender, we are confident that we will have 
far fewer misidentifications for persons who are currently 
experiencing misidentification with names on the watchlist.
    So, the real benefit is for those persons who frequently 
get misidentified, who get stopped at the ticket counter, who 
cannot print their boarding passes in advance, who get 
questioned as to having to go through a redirect process. We 
are confident that once Secure Flight is on line for all 
carriers, that those misidentifications will be dramatically 
reduced.

                       MASS TRANSIT SECURITY HELP

    Mr. Rogers. TSA really is the face of Homeland Security for 
most Americans, because it is where we encounter inspections 
and uniforms, and the like.
    However, a lot of people say the most vulnerable aspect of 
what TSA is doing is mass transit. Subways, rail, and the like. 
And as you know, we have just concluded the second hearing of 
FEMA, and TSA's people on getting these rail grants, mass 
transit grants out there.
    We are all frustrated with that. Can you help us out?
    Ms. Rossides. Yes, sir. Several things. One is that, as a 
result of the prior hearing really several weeks ago, we have 
done a ``deep dive'' within TSA in terms of how can we better 
enable that process to support both the FEMA process and the 
agencies that are the recipients of those funds.
    We are committed to really doing follow-up work with those 
agencies in terms of what difficulties they are having in 
putting their final plans together to execute those funds. 
Because our goal in the end, frankly, is to get those grants 
out, and get the intended use in place, that is the security 
advantage we are looking for.
    The other thing that we are looking at is in doing our 
extensive outreach with both rail and mass transit. We are 
looking at what other ways can we support them in not only the 
grants area, but in things like our VIPR teams and trying to 
find additional ways that we can really, you know, support 
their needs at the local level with respect to rail and mass 
transit.
    Mr. Rogers. Well, it is a very difficult problem.
    Ms. Rossides. Yes, sir.
    Mr. Rogers. Given the number of people that use the mass 
transit and the exposure of the rail lines and the tunnels, and 
so on. And the need to be unobtrusive in your efforts. So I 
understand the difficulty of the task.
    However, because of the numbers involved, numbers of users 
of mass transit, it has to be addressed, and it has to be done 
forthwith. We have been frustrated by appropriating huge 
amounts of money, only to see it lay there being unused. And we 
get bureaucratic gobbledy-gook when we try to understand what 
the problem is, and how we can solve it.
    We are going to have to have you crack some heads.
    Ms. Rossides. Yes, sir.

                             FEMA PROBLEMS

    Mr. Rogers. And I realize that part of the difficulty is in 
FEMA, which is not under your direct jurisdiction, of course. 
And we do not expect you to defend or condemn them.
    But we are frustrated. Are you frustrated?
    Ms. Rossides. Yes, sir. I am, and I share your frustrations 
and understand them.
    My experience prior to TSA with respect to grants is that 
they are sometimes very difficult to administer. I am not 
making excuses for FEMA at all, but I do know that there are 
challenges, both to the Federal Government in putting the funds 
out and for the recipient agencies to bring those funds in. 
And, we have to look at the whole process and make improvements 
on it.
    Mr. Rogers. Well, we are looking to you for that. Thank 
you.
    Mr. Price. Thank you. Mr. Serrano.

             FOCUS ON AIR TRANSPORTATION VERSUS OTHER MODES

    Mr. Serrano. Thank you, Mr. Chairman. Thank you for your 
testimony, and thank you for your service.
    I probably will live to regret this statement, because I 
take Amtrak. And it seems that the kind of screening is nowhere 
near what we know happens at airports. And I say I will 
probably regret it, because starting next trip, I will probably 
receive it, too.
    My question is, have we weighed heavily on the side of air 
transportation as a reaction to September 11? And if so, are we 
then going after the kind of attack that already took place 
rather than paying attention, or equal attention, to the kind 
of attack that could take place?
    Again, no traveler, no commuter likes to be imposed upon. I 
have just touched on that. Or to be in the way, so to speak. 
But it is clear that there is a total difference in one.
    Now, that may be based on information that even the 
committee may not have as to what is special out there. It just 
seems to me that maybe, maybe, I am asking you, have we gone 
too heavy on that side, and not looking at the others?
    Ms. Rossides. Well, sir, it is really a set of different 
models. In the aviation domain, ATSA, which created TSA, 
required very specific things to be done in aviation. And yes, 
I believe that was in response to 9/11, but it also, I think, 
demonstrated the support of the Subcommittee, the tremendous 
work that has been done and improvements in the aviation 
domain.
    The other modes of transportation really, from a federal 
perspective, are secured in a variety of different ways with 
tremendous reliance upon the state and local agency level to 
provide the resources, the police, the security value.
    What we do at TSA is maintain very close coordination with 
the security directors in all these different modes of 
transportation, and with people like the Amtrak security 
director. We see our job as multi-purpose.
    One is to feed them information on what the intel is, the 
levels of threat that are here in the United States to those 
other modes of transportation.
    We also have done training in the area of security in mass 
transit. We have looked at how do we supplement their resources 
with our program--our VIPR program, which deploys Federal Air 
Marshals, Inspectors, and TSOs into these other modes of 
transportation.
    We recognize that we do not have the federal resources to 
bear to apply the exact same model that we have in aviation, 
but we have the shared responsibility for securing those modes, 
as do the agencies and state and local governments.
    And, it is a question of how do you secure those modes, and 
not impact, commerce and the passengers, and recognizing we 
have, millions of people that travel through those other modes 
every day.
    So, I would say that I believe that the Congress and TSA's 
response in the aftermath of September 11 has shored up and 
strengthened aviation. And, I think that what we are doing with 
these other modes of transportation is very good in terms of 
providing them support in a different way.
    Mr. Serrano. Yes. It just seems to me that there is a 
disconnect of some sort. Because your statement, and it is 
correct, sort of leaves other modes of transportation at the 
local level, with your involvement. Yet the other, aviation, is 
totally federally controlled.
    Where I may take issue, and it is not necessarily with you 
personally, but a statement in general about a lack of 
resources to expand. I have been on this Subcommittee since it 
was formed, and if there was a Subcommittee that had a blank 
check, certainly for a while, it was this Subcommittee. We just 
printed the money I think somewhere in the basement, and a lot, 
a lot of money, as a matter of fact.
    I do not know what the figure is, Ranking Member, but it is 
has been quite a bit of money. I think only the FBI ranks up 
there in terms of the same issue where we give the FBI through 
Congress just to assign the stakes, anything they wanted.
    So I just think that there is a need to inform them as a 
Congress a little bit more about what is being done in other 
areas, so we do not have any surprises. Thank you.
    Mr. Price. Thank you. Ms. Lowey.

                           EMPLOYEE SCREENING

    Ms. Lowey. Thank you, Mr. Chairman. Madame Administrator, 
the Subcommittee was told many times by former Administrator 
Harley, others at the Department, that 100 percent screening of 
airport employees was not reasonable, and would significantly 
slow airport operations.
    Yet when this Subcommittee provided TSA with the resources 
to conduct the screening pilot program last year, the doomsday 
scenario, I understand, that was previously predicted was never 
realized. And in fact, the largest airport in the program, 
Boston's Logan International, is likely to implement 100 
percent employee screening on a full-time basis.
    Frankly, it is hard to believe that implementing this 
requirement nationally would be impossible, when two of the 
busiest airports in the world, Heathrow and de Gaulle, already 
do it successfully, and two large domestic airports, Miami and 
Orlando, find it critically important to their security.
    If you could describe to the Subcommittee what, if any, 
negative consequences were witnessed at the airports involved 
in last year's pilot program, I would be appreciative. And do 
you believe it would be a valuable exercise to once again pilot 
the effectiveness of 100 percent employee screening at another 
set of airports in Fiscal Year 2010?
    Ms. Rossides. Yes, Rep. Lowey. As you know, we did a pilot 
of seven airports, Logan and Denver were the two CATXs that 
were part of that pilot. Logan did 100 percent employee 
screening.
    We owe you, and we owe the Subcommittee, a report, which I 
am very sorry has not gotten to you yet, on the evaluation that 
was done by the Homeland Security Institute on those seven 
pilots.
    In essence, the pilot program showed was that there was no 
clear distinction of the screening effectiveness between the 
100 percent and the aggressive random screening. And, by that, 
what it showed is that every airport is different and you have 
to consider the operational impact and the infrastructure of an 
airport as to whether or not you could actually effectively do 
100 percent screening without putting significant costs into 
the infrastructure and the operations.
    I would respectfully request, when we get that report to 
the Subcommittee as soon as possible, that we will come up and 
brief you, and then see what the way ahead would be and what 
the Subcommittee would be interested in doing.
    Ms. Lowey. Okay, so we will wait for that. But I would be 
interested in knowing if there were any negative consequences 
as a result of those pilots. So if you could include that, I 
would be appreciative.
    Ms. Rossides. Yes, ma'am.

                COLLECTIVE BARGAINING FOR TSA EMPLOYEES

    Ms. Lowey. Administrator Rossides, you called the employees 
of TSA your biggest investment and most valuable asset. Yet the 
more than 40,000 transportation security officers continue to 
be denied the same basic collective bargaining rights granted 
to other front-line security personnel in the federal workforce 
employees: Customs and Border Control, Immigration Customs 
Enforcement, Capital Police, Pentagon Force Protection Agency.
    And before the House adjourns this week, I will be 
introducing legislation to grant all TSA employees the right to 
bargain collectively. And I hope the members of this 
Subcommittee will join the effort.
    Secretary Napolitano testified before the authorizing 
Committee that she was checking with general counsel on the 
issue of TSO collective bargaining.
    Number one, I would like to know if you have an update on 
these discussions. Your testimony highlights the lowered 
attrition rates among TSO. Where does the 7.5 percent rank as 
compared to other federal agencies? And what is the attrition 
breakdown between full-time and part-time TSOs?
    Ms. Rossides. Yes, Rep. Lowey. First of all, let me start 
my comments by saying that during my 30-plus years working in 
the Federal Government, I worked at the Treasury Department 
where we had collective bargaining for the workforce. So, I am 
very used to that in the federal workforce.
    Yes, Secretary Napolitano has indicated that she first 
would like to have a permanent Administrator in place at TSA, 
and is looking at what options she has available to her on the 
subject.
    I would like to offer to you that whatever the Secretary 
decides, or this Subcommittee decides, and the Congress 
decides, we will do at TSA, and we will do it very well. 
Because, if there are two corporate principles that I and the 
leadership of TSA believe in, it is that we owe it to the 
American People to provide a level of security that is the best 
in the world. And, we owe it to our employees to provide the 
very best quality of work life that we can provide to them.
    You mentioned the attrition rate with progress we have made 
in four years. The attrition rate and the time. The full-time 
attrition rate four years ago was over 30 percent. Today, for 
the voluntary full-timers, it is 7.5 percent. The part-time 
attrition rate four years ago was over 50 percent, and today, 
it is 17 percent.
    The progress in that area goes right to the heart of 
involving our employees in telling us what are things that they 
would like to see in the workplace that we could put in effect.
    So, for example, for the part-time employees, we provide 
full-time health benefits. Just doing that has significantly 
contributed to reducing the attrition.
    I would like to talk about injuries. Another area that TSA 
has tremendously focused on in its workforce initiatives was in 
the area of injuries. I will tell you today that we do not have 
the worst injury rate in the Federal Government because we have 
made dramatic improvements in cutting those injury rates by 
more than 50 percent.
    All of this has been because our employees have been able 
to be a part of giving us the solutions.
    I believe that collective bargaining is a very serious 
issue. I have full respect for our employees' ability today to 
join a union. We allow the employee's representatives to 
represent them if there is any kind of discipline issue.
    And I believe that in the end, what we all want is what is 
in the best interest of our commitment to providing our 
mission, and what is in the best interest of our workforce.
    I will tell you, in all honesty, that my involvement in TSA 
has been a labor of love. And, I do not think you will meet 
anybody on this planet that wants something for the welfare of 
our workforce as I do.
    So, whatever the Secretary ultimately decides, we are 100 
percent ready to make it in the best interest of our workforce.
    Ms. Lowey. Thank you. And thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much. And let me first follow 
up, you have not had to use a tissue----
    [Laughter.]

                               BUS TRAVEL

    Mr. Rodriguez. That is good. Let me follow up on what 
Congressman Serrano had talked about. We usually talk about air 
and rail. I wanted to see if you could, if nothing else, later 
on get me some information on bus travel. Because I know 
hundreds of thousands of people go through the bus, and I think 
we only provide some security, and we have a strategy in that 
area.
    Secondly, I wanted to ask you, I know we have, you know, 
somewhat successfully established an international register 
travel program on air and land with Canada. But with Mexico, we 
have not. I know we have done something there with the air 
program, but not with land. I mean, excuse me, not with the air 
program, and yes, with the land.
    And Mexico is the second-largest market for inbound travel 
for both business and leisure to the U.S. For both consecutive 
years, Mexico has been record levels on travel in the United 
States, totaling 9.6 billion in 2007, and the second trading 
partner, and in terms of leisure travel, as well as business.
    Why have not we established a register to travel program 
with both Canada and Mexico?
    Ms. Rossides. Sir, I will have to get back to you on that. 
I do not have an answer that I can give you right now, but we 
will definitely follow up.
    [The information follows:]

                      TSA Bus Security Activities

    TSA's Highway and Motor Carrier Division, Passenger Carrier Branch 
has actively initiated and broadened its security awareness training of 
commercial motor coach operators nationwide using awareness programs 
created both by the industry and by TSA/DHS grant initiatives. These 
programs provide 24/7 reporting facilities that are in direct contact 
with TSA's Freedom Center operations. TSA has also leveraged DHS grant 
programs averaging $8 million to $10 million per year since 2003 to 
implement driver shield, passenger screening and security training 
initiatives in the commercial motor coach industry.
    Motor carriers of passengers in the southern border region have 
long practiced heightened security procedures in direct recognition of 
a history of violent encounters at the border. However, the highway-
specific Information Sharing and Analysis Center (ISAAC) created under 
a grant by TSA to the ``First Observer'' awareness program in 2008 has 
recently issued an alert of all motor carriers along the southern 
border. That alert focuses attention on the heightened threat of 
vehicle hijacking and kidnapping. It was distributed to the entire 
highway motor carrier community early in March.
    TSA works closely with major bus companies on security improvement. 
In addition, TSA works with Customs and Border Protection to coordinate 
security efforts in this region.

    Mr. Rodriguez. Okay, thank you. And then, because I think 
if we can do that and see what we need to do to make that 
happen. Because next to Canada, Mexico is our second partner in 
terms of leisure travel, as well as trade. And if we can 
expedite that and make that happen, it would be great.
    And then the second question regarding the bus travel. We 
have thousands of people in there, and my understanding is that 
we only have, you know, in major metropolitan areas, and that 
is about it on bus.
    Ms. Rossides. Correct. What we do have, as part of our ISAC 
program is an ability to monitor the travel on a bus around the 
country. And that is in its infancy. But, we are looking at how 
do we communicate with bus drivers, how do we provide some 
security value and training for them as part of our outreach 
efforts, and working in the consortium of the bus companies.
    Mr. Rodriguez. What I would be interested to know, if we 
have a strategy, how to deal with it and how to, you know. 
Especially, I guess, close to those states on the border, as 
well as the Canadian and the Mexican side, and see how we can 
help secure that.
    Ms. Rossides. Right.
    Mr. Rodriguez. Okay. Thank you very much. Thank you for 
being with us.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                      SECURING UNIFORMS AND BADGES

    Ms. Roybal-Allard. Thank you, Mr. Chairman. First of all, I 
would like to express the same concerns that Ms. Lowey just 
did. With regards to the fact that 100 percent of airport 
employees are not being screened, especially in light of the 
fact that there has been a recent report of airport workers 
smuggling guns and narcotics onto commercial planes.
    So I will be interested in your report, and also if those 
seven pilots actually reflect what could be done. Because there 
is about 300, or more than 300 airports. So I would be 
interested to see if those seven that you did pilots really are 
a reflection of all the airports.
    Also, if you could include in that report, I would 
appreciate it if the conclusion is that it is not possible, for 
whatever reason, is what contingency plans, then, do you have 
in place to prevent a terrorist from becoming an airport 
employee in order to sabotage or, you know, hijack a plane?
    Because certainly if you can get people smuggling guns and 
narcotics on planes, it is certainly possible that a terrorist 
also could get onto a plane, as an employee.
    I would like to talk a little bit about the TSA badges and 
the uniforms. As you know, an investigation by DHS Inspector 
General of missing TSA badges and uniforms concluded that the 
Agency does not have adequate controls to track these items; 
and that this increases an airport's level of risk to a wide 
variety of terrorist and criminal acts.
    In September 2008, the Inspector General recommended the 
TSA strengthen its policies and guidance related to securing a 
uniform and badges. Could you tell the Subcommittee what steps 
have been taken to implement the IG's recommendation?
    Ms. Rossides. Yes, ma'am. With respect to the uniforms and 
badges, we have provided training to our employees. We also 
have an accountability for the new badges that is required of 
every Federal Security Director to account for all of the 
badges. Any report of a missing or lost badge is investigated 
by our Office of Inspection.
    We have had a very small number of badges lost since we 
have issued the new uniform in September, with the metal badge. 
The employees are required to conduct the training as part of 
their initial orientation, and annually, on the importance of 
safeguarding the badges, in particular.

                      SECURITY OF AIRPORT WORKERS

    If I may, if I could go back for one moment to your comment 
about what assurances or confidences do we have with respect to 
airport workers and people getting on aircraft, or putting 
prohibited things on an aircraft.
    TSA, in 2006, began a program where we have our TSOs 
randomly go through the secured area of the airport, and do 
things, including gate-screening and patrolling the perimeter. 
We also require all airport workers to be vetted.
    So there are a number of things that we have in place today 
that are fairly aggressive measures that provide for random 
screening inside the secured area, getting to the exact concern 
that you are describing as an insider threat.
    Ms. Roybal-Allard. But still, there are some 
vulnerabilities there that could have been cited. So again, I 
would be interested in your report.
    Also, TSA conducts covert tests of airport security, in 
which undercover inspectors attempt to pass through passenger 
checkpoints with weapons and other prohibited items.
    And according to an August 2008 GAO report, TSA failed to 
systematically record the reasons for the airport failing the 
tests. And GAO has said that without this information, that you 
are very limited in your ability to correct inadequate security 
in airports.
    How are you addressing this limitation? And are you 
implementing, again, GAO's recommendation to fully document a 
covert test failure?
    Ms. Rossides. Yes, ma'am. Since that GAO report, we do 
actually document the reasons. But, prior to that, even when 
the covert test teams went out to the airports, they did a 
number of things to advise the TSOs in the immediate aftermath 
of the testing, and the Federal Security Director, as to what 
they observed that they believed contributed to the failures, 
as well as what they observed that contributed to the passing 
of the testing.
    And then after every trip that the covert team makes, they 
come back and brief everybody, from the Administrator through 
the executive staff, of not only what the test results were, 
but their observations. And, they have always issued 
recommendations for tightening up procedures, such as focusing 
on better training of supervisors to be vigilant as to the 
officer's performance on the checkpoint, on any number of 
measures.
    So we have implemented the GAO recommendation. But, prior 
to that, we had a tremendous amount of dialogue on what were 
the things that the covert teams observed every time they went 
out and did these tests.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                    LARGE AIRCRAFT SECURITY PROGRAM

    Mr. Price. Thank you. We are aware that the time is getting 
rather late. I would like to have a very efficient final round 
of questions. And I will begin, because I think it is important 
to focus on the general aviation matter that I mentioned in my 
opening statement.
    Ms. Rossides, as you know, on October 30 of last year TSA 
announced a notice of proposed rulemaking that would strengthen 
the security of general aviation by further minimizing the 
vulnerability of aircraft being used as weapons or to transport 
dangerous people or materials. This so-called Large Aircraft 
Security Program Regulation would require all U.S. operators of 
aircraft exceeding 12,500 pounds maximum takeoff weight to 
implement security programs that would be subject to compliance 
audits by TSA. The proposed regulation would also require 
operators to verify that passengers are not on the no-fly and/
or selectee portions of the federal government consolidated 
terrorist watch list.
    Airports, pilots, small businesses, and the general 
aviation community have expressed serious concerns, to put it 
mildly, over some of these proposed regulations, saying they 
are overly intrusive, would pose significant financial and 
resource impacts on general aviation airports across the 
country, and so forth.
    And so this rulemaking does appear to be one of the more 
controversial issues from the waning days of the last 
Administration. TSA has been asked by numerous entities to 
delay its implementation until the new leadership at DHS can 
review it.
    I know you are in the process now of weighing costs and 
benefits, that you are continuing to work with the affected 
stakeholders. So I want to ask you just a couple of things.
    What is the current timeline and status of this rulemaking, 
first of all? And secondly, to what extent is it being 
rethought? Are you considering alternative security measures 
for general aviation aircraft?
    Ms. Rossides. Yes, Mr. Chairman. First of all, let me say 
that the rulemaking when it went out, it specifically addressed 
security vulnerabilities that we felt needed to be raised and 
addressed. Those vulnerabilities included things like who the 
pilot is, who is actually commandeering that aircraft, who are 
the other people on board that aircraft, and what is actually 
being transported on board that aircraft.
    The initial interest was to address what we were concerned 
about in terms of security vulnerability.
    It was also very much a risk-based decision to address it 
at the 12,500-pound-size aircraft, which really covers about 4 
percent to 5 percent of the general aviation community. We 
received over 6,000 comments to that proposed rulemaking. We 
extended the comment period by 60 days from the initial 
deadline. We conducted public hearings around the country. Now, 
we have over 6,000 comments that we are looking at.
    What we have decided to do is actually bring in 
representatives from the general aviation community. We have a 
meeting scheduled for April 6. We are going to have the members 
come in and help us look at what are the interests from the 
security standpoint, what are their concerns, and come up with 
the best options.
    Once we have had that meeting, we intend to go out with a 
second proposed rulemaking period of time for comments from the 
community and from the general public.
    Obviously, no final rule will be made until, no final 
decisions will be made, without bringing in the DHS leadership.
    Mr. Price. Well, that second round is an unusual process 
for you.
    Ms. Rossides. Yes, it is. Yes. We have only done it one 
other time, and that was when we were implementing Secure 
Flight.
    We believe that this, plus the in-person engagement, and 
the April 6 meeting should help address concerns and get some 
common understandings out there.
    Mr. Price. Well, I think it is well-advised, and I 
appreciate your undertaking this additional layer of review. We 
know there are security vulnerabilities here, we know this 
needs to be dealt with. But I do believe, under the 
circumstances, this is warranted. And we will look forward to 
reviewing with you the results of this process.
    Mr. Rogers.
    Mr. Rogers. Well, nothing further, except to echo the 
Chairman's remarks about general aviation. I have heard a lot 
from them. I am sure, obviously, you have.
    But in the rural parts of the country, in which I live, 
general aviation is the way to get around. And a lot of these 
pilots, charter and/or personal, cannot understand that you do 
not know that they know every person that gets on that plane, 
and they know every nut, bolt, and screw in that plane, and 
they know everything that somebody brings on that plane. So 
they are quite upset.
    Thank you for your service. You have been a long-time 
worker in that venue, the TSA, from its very inception, in 
fact. And worked most recently with Kip Hawley, who did, I 
think, a masterful job of bringing TSA around, along with all 
of your-all help. Give our regards to him if you talk to him.
    Ms. Rossides. I will.
    Mr. Rogers. Thank you.
    Ms. Rossides. Thank you.
    Mr. Price. Thank you. We do appreciate your service and 
your testimony here today. I look forward to working together 
going forward.
    With that, the Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 19, 2009.

                        BIOMETRIC IDENTIFICATION

                               WITNESSES

KATHLEEN KRANINGER, DEPUTY ASSISTANT SECRETARY OF POLICY, DHS SCREENING 
    COORDINATION OFFICE
BOB MOCNY, DIRECTOR, UNITED STATES VISITOR AND IMMIGRANT STATUS 
    INDICATOR TECHNOLOGY

                  Opening Statement of Chairman Price

    Mr. Price. The Subcommittee will come to order. Good 
morning. We are going to be discussing this morning biometrics 
identity management more broadly, continuing our hearings on 
policy questions and topics of great interest as we look toward 
writing the Department of Homeland Security's budget.
    One of the advantages of this transition period that we are 
in--there are some disadvantages in terms of not having precise 
numbers and not having a detailed request of the sort we 
usually have at this point in the cycle, but one of the 
advantages is that we can step back a bit and consider some of 
these broader issues which very definitely have budget 
implications. So we welcome you this morning for your part in 
that series.
    Recognizing and authenticating a person's identity is part 
of daily life in business and in government. Recording a 
person's physical features to authenticate their identity has 
been done for millennia, beginning with the use of 
fingerprints, so we are told, in ancient Assyria.
    This recording has evolved in modern times to the high-
technology of biometrics, automating the collection, 
management, and authentication of data about personal physical 
characteristics and storing that information in databases that 
can be used to identify people.
    Supporters of these practices see them as a solution to 
identify security challenges. Critics view them as a threat to 
individual privacy.
    Our governments use identity databases in several ways. US-
VISIT relies on IDENT, one of the largest identity databases in 
the world, to track foreign individuals as they deal with our 
immigration services. We have watch lists that identify people 
for special screening at airports or that bar people from 
flying altogether.
    Several databases are outside of DHS, including the 
Consolidated Consular Database System at the State Department 
and the Interstate Data Sharing Network, which we have required 
states to establish for their driver's license files, under the 
Real ID program.
    Effective use of these databases to confirm or discover 
personal identities is critical in maintaining our national 
security, but there are many signs that we are not where we 
need to be in this regard.
    For example, on March 16th, GAO released a report that 
showed fundamental vulnerabilities in the way our government 
issues passports. A single investigator obtained four U.S. 
passports using fraudulent identity documents and was able to 
travel on those identities.
    While weaknesses identified in the report are in the State 
Department and Postal Service, not DHS, nonetheless, the 
example is broadly relevant, I think. It proves we need to 
build vigilance into our system to catch bogus documents and 
that watch lists and databases must be constantly scrubbed for 
accuracy.
    Now, inclusion of biometrics can be part of the solution, 
but just bolting it onto our current system and our current 
practices will no more solve this problem than reroofing a 
house will solve a termite problem.
    Since the 9/11 attacks, the federal government has 
intensified the use of biometrics in databases to identify 
terrorists or other individuals of concern. We have also used 
this practice to confirm the rights and privileges of those who 
pose no security risk or who may be entitled to special 
credentials.
    The Department of Homeland Security has a principal role in 
collecting and managing biometric and biographic information on 
millions of foreign nationals, residents, and citizens in 
programs used for border and travel security, counterterrorism, 
immigration control, law enforcement, and infrastructure 
protection.
    DHS incorporates biometrics in a variety of identification 
documents, particularly for immigration. DHS has at least nine 
other systems or databases that collect and maintain biometric 
and biographic records and links to at least five others in 
other departments.
    Identification data, for example, is collected for Trusted 
Traveler and Safe Shipper programs. It is collected to 
credential transportation workers and for critical 
infrastructure protection.
    Now, such broadened use of biometrics may seem justified in 
the post-9/11 world, but that begs the question we expect to 
discuss here today. We are not trying to give absolute answers 
here because that is not where we are or where we need to be. 
We need to use this technology well and responsibly and 
effectively.
    How is the Department using biometric technology today? We 
need to know, and how can we best use it to secure the homeland 
while protecting individual privacy rights? We must do both 
things.
    Under this theme, how is DHS working with other agencies to 
develop standards for biometric and contextual data and to 
coordinate the collection and management and sharing and 
control of such records?
    Why are there so many different databases? What is DHS 
doing to ensure that the use of biometric technology improves 
security in law enforcement or program effectiveness with a 
minimum duplication of effort?
    And, finally, how does DHS protect personal information in 
its custody and keep this powerful tool from being abused?
    The most prominent DHS biometric program is US-VISIT, which 
collects and verifies fingerprint and facial images for almost 
all non-U.S. travelers entering this country and, in theory, 
will someday do the same for their departure.
    US-VISIT has evolved into a provider of identity management 
services for other agencies, for U.S. Immigration and Customs 
Enforcement, for the Coast Guard, for U.S. Citizenship and 
Immigration Services, as well as other U.S. Government 
agencies. In that role, it is working to link its records with 
those of the Departments of Justice and State and is developing 
information-sharing agreements with the Department of Defense.
    We expect to hear today how US-VISIT is undertaking its 
mission as custodian for one of the world's largest databases 
of biometric information. We also expect to hear about plans 
for the air traveler exit tracking pilots mandated in the 
Fiscal Year 2009 appropriations bill, as well as any plans for 
a comprehensive exit strategy.
    Clearly, widespread use of biometric technologies to 
confirm or discover people's identities is here to stay. It is 
critical, then, that we understand the full range of policy 
implications, management challenges, and funding issues that 
such programs entail.
    We welcome today, for the first time before this 
Subcommittee, Kathleen Kraninger, the deputy assistant 
secretary for screening, and we welcome back Mr. Robert Mocny, 
the director of US-VISIT.
    We have, as I understand, a combined written statement from 
the two of you, which we will enter in the hearing record, and 
then we will ask, as we usually do, for each of you to begin 
with five-minute oral statements, and then we will turn to 
questions.
    Before we do that, let me turn to my colleague, our 
distinguished Ranking Member, for his comments.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman. Welcome, ma'am and 
sir.
    From IDENT to WHTI to TWIC, REAL ID to US-VISIT, a 
seemingly endless list of acronyms and abbreviations that 
represent DHS's efforts to verify identity and provide real 
integrity for the screening and credentialing of both travelers 
to and from the country and key personnel. At the heart of this 
acronym soup is the biometric data that allows DHS to 
distinguish between the legitimate and those who wish to 
inflict harm.
    In recognition of the multitude of programs with similar 
reliance upon biometric data for their enrollment and vetting 
processes, DHS did what any good government agency does: It 
created yet another new acronym to coordinate and harmonize 
these activities, known as the--I think I am pronouncing it 
right--the SCO. Is that right: SCI or SCO?
    Ms. Kraninger. SCO.
    Mr. Rogers. SCO--pardon me--SCO, the Screening Coordination 
Office. This office has made some real progress in unifying 
these programs across the Department through what is known as 
the Credentialing Framework Initiative, an effort that, for the 
first time, comprehensively inventoried all of the DHS's 
screening and credentialing programs in terms of capabilities, 
technology relationships, and investment needs, thereby 
identifying opportunities for improved efficiency and economies 
of scale.
    But these programs, and perhaps, more importantly, our 
terrorist, selectee, and no-fly watch lists are only as good as 
the data they contain. DHS's efforts to unify the vetting 
process for its credentialing programs will serve little 
benefit if the data they are checking against is lacking in its 
breadth or authenticity.
    To this point, GAO recently identified gaps in the 
Department of Defense's processes for the collection and 
sharing of biometric data of known and suspected terrorists 
with DHS. In a separate investigation, GAO found it relatively 
easy to obtain genuine U.S. passports, the so-called ``gold 
standard of identification,'' using fraudulent identification.
    These two reports, combined with the fact that we continue 
to lack an effective exit solution for US-VISIT, tell me there 
are some serious gaps in our identity security efforts across 
the government, gaps in the quality of the known and suspected 
terrorist data we are checking against, gaps in our immigration 
controls, gaps in identity verification. These are gaps we 
simply cannot tolerate in the post-9/11 era.
    So, with the help of our witnesses, Mr. Chairman, I hope to 
learn more about how we are addressing these gaps, like you. 
While I certainly appreciate how far DHS has come in 
coordinating its identity security efforts, all of that work 
will be for naught if we are not applying rigor to the 
foundations of these programs and managing them with real 
accountability, sentiments which echo the findings of the 9/11 
Commission, as well as the priorities of this Subcommittee.
    So welcome to the room. Mr. Chairman, and thank you for the 
time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Ms. Kraninger, please begin.

                Opening Statement of Kathleen Kraninger

    Ms. Kraninger. Mr. Chairman, Ranking Member Rogers, and 
other distinguished Members, I am pleased to appear before you 
today with my colleague, Bob Mocny, to discuss the use of 
biometrics and identity management programs across DHS that 
enhance our nation's security.
    In its short history, the Department of Homeland Security 
has truly been at the forefront in implementing large-scale, 
high-visibility programs utilizing biometrics technology. It is 
clear that biometrics and identity management programs provide 
a key capability, furthering our mission to keep bad people and 
dangerous goods out of the United States and to protect 
critical infrastructure.
    Our mission is critical, tangible, and highly complex. It 
requires a split-second decision by a CBP officer at the port 
of entry or a U.S. CIS adjudicator reviewing a naturalization 
case or a Coast Guard officer on the high seas.
    To support those decisions, we need to provide the right 
information to the right person at the right time, and, Mr. 
Rogers, as you said, that is, obviously, a very difficult thing 
to do, and it is relying on the underlying information that we 
have available to us. But we have to ensure that that right 
decision can be made in that limited period of time, and we 
have to be right every time.
    Bob will provide some key examples of some of the success 
stories, but we recognize that much work has to be done.
    As the Department continues to mature, we are focusing on 
not just those individual mission environments but how they fit 
together, how the investments we make in one component can 
support another, how the business processes we use in one 
component compare to the ones used in another in a similar 
process, and we are beginning to realize the capabilities and 
vision with the creation of the Department.
    Let me take a moment to speak specifically about what the 
Screening Coordination Office is doing in this area. Over the 
past two years, the SCO has led a DHS-wide effort to establish 
a framework for our people-screening programs. We have looked 
at how we can enhance our screening processes to achieve better 
security, efficiency, and facilitation, and we have found that 
the screening programs face the same challenges and essentially 
follow the same process.
    Every process involves enrollment or collection of certain 
personal information, whether it is fingerprints or a 
photograph, name and date of birth, extensive biographic 
information, or all of the above, depending on the program, yet 
how is each program collecting that information? How did they 
determine what information was appropriate to collect?
    After enrollment, the agency must conduct vetting, or 
validating that information, and ensuring eligibility and 
accuracy. Is the terrorist watch list checked? Is immigration 
status checked? Is a criminal history records check conducted? 
Which systems facilitate these checks, and how do adjudicators 
receive results back and make appropriate determinations?
    Enrollment and vetting are just two of the key parts of the 
screening business process, but they account for a significant 
portion of the investment.
    That takes me to the most critical part of our framework 
effort. Working with the screening programs, the Department's 
CIO, CFO, chief procurement officer, and privacy officer, we 
are rationalizing and prioritizing these investments in the 
screening technologies and systems to provide a consistent, 
security-risk-based framework across DHS programs to improve 
our processes, eliminate redundant activities, utilize existing 
information in a more effective manner, and improve the 
experience for the travelers and the public who seek DHS 
services.
    While this exercise is certainly about good management, it 
also supports our ability to accomplish our mission. 
Establishing standards and ensuring interoperability enables us 
to better share information across programs, as appropriate. It 
creates a common language so that the different layers of 
security, key interdependencies, and inherent vulnerabilities 
are better understood across the Department. This all 
facilitates a stronger integration of effort to improve how we 
achieve our mission.
    I focused primarily on internal DHS integration, though, as 
the Committee appropriately recognized, this is an effort 
across the interagency, as well as across the globe. We have a 
longstanding relationship with the Departments of State and 
Justice in furthering biometric technology standards and 
interoperability to enable information sharing.
    We have established a strong cooperative effort with the 
Department of Defense and the intelligence community, and both 
of those efforts continue to mature. DHS is working closely 
with allies and interested nations to shut down terrorist 
travel routes through these same principles: establishing 
standards and interoperability and sharing information, as 
appropriate.
    We realize the responsibility we have to protect this 
country and the opportunities for meeting that mission through 
a coordinated effort.
    Thank you again for the opportunity to testify and for your 
continued support of these efforts.
    I would be happy to take any questions that you have at an 
appropriate time.
    Mr. Price. Thank you very much. Mr. Mocny.

                     Opening Statement of Bob Mocny

    Mr. Mocny. Chairman Price, Ranking Member Rogers, and 
distinguished Members of this Committee, I am pleased to appear 
before you today with Kathy Kraninger of DHS's Screening 
Coordination Office to discuss the critical role that biometric 
identity management plays in today's homeland security efforts.
    In the five years since DHS embarked on the world's first 
large-scale, biometric identification program, our biometric 
services have revolutionized the way decision-makers across the 
government verify identity and determine whether someone poses 
a threat to the United States.
    When we began, the U.S. was relying on travel documents 
that could be easily forged to verify international travelers' 
identities. ICE inconsistently knew when local police arrested 
an immigration violator, and the U.S. Immigration and Border 
Management System had disparate information systems that lacked 
coordination.
    The use of biometrics has changed all of this. Today, we 
verify international travelers identities with biometrics, 
which makes fraud almost impossible. Thanks to biometrics, DHS 
and the State Department have stopped thousands of criminals 
and immigration violators from traveling to or entering the 
United States. Information about criminals and immigration 
violators is more seamlessly shared between ICE and law 
enforcement authorities as we make the DOJ and DHS biometric 
systems interoperable.
    And DHS is moving from disparate systems toward a single 
source for biometrics-based information about criminals, 
immigration violators, and known or suspected terrorists. Our 
IDENT biometric system helps almost every single agency whose 
mission affects homeland security, from CBP officers at ports 
of entry to the U.S. Coast Guard on the high seas of the 
Caribbean to local law enforcement agencies booking criminals.
    To give you some sense of the scale of these services, 
government agencies relied on biometrics to help accurately 
identify people and assess their risk 48 million times in 
Fiscal Year 2008 that is more than 130,000 identification 
transactions every day. These encounters were people applying 
for visas, arriving at ports of entry, applying for immigration 
benefits, people caught trying to illegally sneak into the 
U.S., and people arrested by local law enforcement.
    DHSs Biometric Support Center also helps law enforcement 
and the military identify criminals and terror suspects through 
the analysis of latent fingerprints left behind at crime scenes 
or on the battlefield.
    Biometrics are also helping where other forms of 
identification cannot. Last year, a man arrived at New York's 
JFK Airport and presented a valid passport and a valid visa. 
When his fingerprints were checked through US-VISIT, they 
revealed that he was trying to use the visa belonging to his 
twin brother, who had no history of criminal or immigration 
violations.
    By matching his biometrics, CBP officers learned that this 
man had been apprehended for taking photos of a U.S. military 
base and had overstayed the terms of admission on a previous 
visit to the U.S. He was refused admission.
    Although the use of biometric identification and analysis 
services has grown rapidly across DHS and other agencies in the 
last few years, we still have much to do to stay ahead of the 
increasing sophistication of terrorists and criminals. The work 
ahead requires collaboration across the government and with the 
international community.
    Internally at DHS, US-VISIT is working to strategically 
align its biometric services with the needs of the agencies it 
supports through an Executive Stakeholder Board. This board 
will significantly improve planning and coordination for future 
biometric initiatives.
    In addition to continuing to collaborate internally, DHS is 
working on three areas that will enhance our biometric 
services.
    Number one: As I mentioned earlier, DHS is working to make 
our biometric system interoperable with that of the FBI. The 
improved interoperability of our system is already helping ICE 
identify and remove criminal aliens arrested by state and local 
law enforcement through the Secure Communities program.
    Number two: We continue to stay on the leading edge of 
biometric technology to ensure that the solutions we develop 
are more advanced than the threats we face. We are closely 
working with DHS's Science and Technology Directorate to 
research multimodal biometric technologies like iris scans and 
facial recognition, that will help us more accurately identify 
people, increase efficiency, and make the technology easier to 
use.
    Number three: We are working with other countries who are 
adopting similar biometrics programs to share lessons learned 
and develop compatible systems. As countries develop compatible 
systems, we can share biometric information about criminals and 
known or suspected terrorists, dramatically improving our 
ability to prevent those people from moving across our borders 
undetected.
    For example, United Kingdom immigration officials recently 
requested that the United States check one of its asylum 
applicant's fingerprints against DHS's data. The result 
revealed that the man had previously traveled to the U.S. using 
a different name, confirming for U.K. officials that the asylum 
applicant was lying about his identity. Upon further 
investigation, the U.K. learned that the man was wanted on rape 
charges in Australia, and he was returned.
    A case like this illustrates that sharing biometric 
information with our allies holds great promise for making all 
of our countries safer.
    Mr. Chairman, thank you for the opportunity to update you 
on how biometrics are improving DHS's identity management 
efforts. Your Committee's leadership in funding this work has 
helped the United States lead the way in biometrics screening. 
I look forward to working with this Committee as we continue to 
improve the biometric identification services our frontline 
decision-makers rely on to identify and deter human threats. 
Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 PASSPORTS ISSUED TO GAO INVESTIGATORS

    Mr. Price. Thanks to the both of you. Now, we will proceed 
with questions.
    I want to ask you to reflect on a case that has been very 
prominent in the news lately. Even though it is outside your 
immediate area of responsibility, I am sure you have not only 
heard about it but thought about it, and I think it would be a 
good way to get us started today, to understand some of the 
potential, and maybe some of the limits, of biometric 
technology.
    As you know, the State Department recently issued four U.S. 
passports to GAO investigators, and they were based on Social 
Security numbers issued to a fictitious five-year-old child, a 
dead man, and bogus identity documents, including forged 
drivers' licenses and birth certificates. All applications had 
pictures of the same individual.
    Could biometrics have solved this, or to what extent could 
biometrics have solved this, or is it a case of underlying 
processes being so flawed that it is not simply a question of 
more sophisticated and more fool-proof technology?
    Ms. Kraninger. Biometrics are certainly an important aspect 
of being able to establish and verify an identity, but they 
certainly are not the end-all/be-all.
    At the beginning of the process, you are looking at how to 
issue a passport or any document. As I said, we have really 
taken that business process apart and looked at what 
information should be collected and how should it be checked, 
and there is certainly a lot of system improvements that have 
happened in recent years but many more that still need to 
happen.
    We have been working very closely, for example, with the 
Social Security Administration. They do provide a capability to 
actually check Social Security numbers for appropriate agency 
use. The State Department has been using that system. We use 
that system in different cases, but the next part of the 
process here is looking at birth and death records. Certainly, 
that would be an appropriate way to verify that an individual 
is no longer alive and, therefore, is not applying for a 
passport.
    That system actually is underway as well, and will likely, 
with the desire to get to electronic health records, get a 
little boost as well in that area. This is something that we 
are very interested in, and the State Department is very 
interested in, because the opportunity to check with the vital 
records agencies across this country, of which there are many, 
and their ability to collect that information and verify is 
varied, but some [vital records agencies] are fairly 
sophisticated. And so the opportunity to check those records 
is, again, another useful step in the process.
    The third point is just to look at the biometrics question 
you asked. In part, it becomes, when is the identity actually 
established, and then against what are you verifying? 
Certainly, the theory, as we have moved forward with US-VISIT, 
is, yes, it is very possible that someone who is not who they 
say they are is coming before us and presenting a false 
identification, but they will not get to do it again.
    It is not ideal, but it is what we have done with the 
system. By collecting fingerprints, we are then freezing, so to 
speak, that identity in our system. For example, the twin 
brother case is a perfect example of how that action and that 
threat can be countered.
    The State Department is looking to use facial recognition 
technology more broadly. It help to do a similar check as 
fingerprints, although the facial recognition technology is not 
as far along as we would like it to be. We are encouraging the 
State Department to continue to use that. As they noted in 
their response to the report, they do use it for visa 
applications, and are looking to do that for passport issuance 
as well.
    So it is not one single solution to this problem, but it is 
something that we are looking at, the underlying documents that 
we are relying on for identity presentation, how we verify 
those, and certainly what information we collect, whether it is 
biographic or biometric.
    Mr. Price. The inclusion of biometric data, whether it is a 
standardized facial image or fingerprints or whatever; the use 
of that in the successive documents that we are relying on 
obviously would tighten up the process of personal 
identification when you are doing something like issuing a 
passport.
    Ms. Kraninger. Yes.

                        DATABASES MANAGED BY DHS

    Mr. Price. It does not answer the question, how feasible, 
or how desirable, for that matter, that that is, but there is 
no question that biometrics, at whatever stage, add a degree of 
precision that we have not heretofore had.
    Well, let me just move into the databases that you are 
working with at DHS.
    When the Department was put together, you inherited 
databases containing personally identifiable information and 
biometrics. It has taken time, of course, to bring these 
together into a cohesive unit, and duplications, new 
efficiencies, you are still working on.
    We need a clear picture of databases managed by DHS, the 
biometric data they use and the relationship of those databases 
to non-DHS databases, and I do not expect you to do all of that 
here orally this morning. But I wonder if you could just give 
us an overall picture.
    When DHS was set up, how many databases containing 
biometric and biographical and contextual data did it control? 
How many are there today? How many records are in these 
databases? Are there still overlaps that you are looking to 
eliminate, or is there perhaps some justification for keeping 
some of these databases discreet and not fully integrated?
    Ms. Kraninger. Well, at the beginning of the Department, of 
course, we had 22 agencies, so there were dozens of databases, 
again, associated with different programs that may have had 
personally identifiable information in them. We do have 
documentation on that, but, as you noted, going through that 
would be rather extensive.
    Primarily, where we are going is setting up service 
providers within the Department so that we do not have 
stovepipe systems being set up for each new screening program 
as we go along the way. The best example of that really is 
IDENT, that Mr. Mocny and US-VISIT actually manage and run for 
the Department.
    Biometrics is, obviously, highly complex, highly technical. 
It is to our benefit, from a management standpoint and also 
from a security standpoint, to put our expertise in one place 
with respect to biometric storage, capture, and management of 
that information, and so that is what we have done. We have 
designated IDENT as the service provider.
    We are on migration paths for the agencies that are not 
currently using IDENT because many of them are, certainly in 
the immigration context. Of those that are not, the biggest is 
TSA. That is something that we are working with them to migrate 
to. For example, the TWIC fingerprints. We are also looking at 
aviation worker process and how that works and making sure that 
we again create that center of excellence.
    Probably the other big systems to note are the other 
modernization efforts that you are very familiar with. TECS is 
the back end, really, of CBP's operations but is also a major 
database for law enforcement across the board and contains all 
of the biographic derogatory information associated with 
agriculture violations and customs violations. There is ATF and 
DEA information in TECS. That information is all used for 
cross-border purposes. CIS uses that information appropriate to 
their decisions. And so, looking at that modernization effort 
to really improve our ability to get the right derogatory 
information to that end user, so they can actually 
appropriately make a decision, is why the TECS modernization is 
so important to us.
    The other thing is really transforming the way TSA works. 
There is a modernization effort, actually, in Fiscal Year 2010, 
that increases their ability to bring their programs together 
that were very much created in different fee-funded structures 
with different systems.

                 US-VISIT IDENTITY MANAGEMENT SERVICES

    Mr. Price. Perhaps you could supply, in graphic form, the 
answer to the broad question I asked about the number of 
databases you inherited, the degree of consolidation that has 
taken place, the number of records they contain, just so we 
have in one place an indication of exactly how far this 
consolidation has proceeded.
    I want to move on to other questioners, but I do want to 
pick up, Mr. Mocny, and we will come back to this, I want to 
pick up on what Ms. Kraninger just said about the service 
function of US-VISIT. As we hear about that, it almost seems 
that this is becoming the core US-VISIT mission because you 
have so many other agencies and other programs now dependent on 
you. Of course, your basic entry/exit program; we want to look 
at the status of that as well.
    But you are providing identity management services for CBP, 
for ICE, for CIS, for the Coast Guard, for FEMA, for TSA. 
Correct?
    Mr. Mocny. Yes.
    Mr. Price. You are collecting biometric information on 
immigration violators and criminals because all of these 
agencies are collecting information, as well as utilizing it. 
So is this becoming your core mission, or, at least, a core 
mission?
    Mr. Mocny. It is. We are kind of transitioning away from 
what we were initially stood up as a project office, to 
deploying the equipment out there to begin collecting the 
information. But as we have done that. Our database is now at 
98 million and we are almost at 100 million records of 
individuals who have come into the United States. We service 
about 30,000 users every single day, 24/7.
    As you mentioned, most of DHS, those components that you 
mentioned, but also the Department of State. In some respects, 
that is a good news story because they use our system. They did 
not have to build a separate biometric system to satisfy the 
visa in-person biometric requirements; they use the IDENT 
system as well. So the State Department writes to the IDENT 
database all of the biometrics that they capture worldwide.
    So it is providing a service that people do rely on. We 
have protocols in place to make sure that the system is as up 
as it possibly can be. It has to be ready and available for the 
decision-makers, as Ms. Kraninger talked about, but it is a 
service that is relied upon now for the current operations 
across DHS, State Department, and is also, as I said earlier in 
my opening statement, now helping state and local law 
enforcement.
    So when a police officer in Houston, Harris County, or 
Boston, Dallas and in several other counties that are beginning 
to deploy Secure Communities, arrest a subject, in the past, 
that person would be run against the FBI's IAFIS system and 
stopped right there. Now, in these communities, more and more, 
they also run against the IDENT system, and these people will 
lie to the police officers that they are a U.S. citizen or a 
legal permanent resident. But now we are able to tell that 
police officer that this person is in fact, an illegal alien 
has been deported so many times. ICE can then put a detainer on 
that individual and then remove that person from the U.S.
    So, from the federal to the state and local across the 
board we are assisting with biometric identification services.

                           SECURE COMMUNITIES

    Mr. Price. And the local agencies that would access these 
records would do it through participation in Secure Communities 
or some such program.
    Mr. Mocny. That is correct.
    Mr. Price. It is not generally the case across the country.
    Mr. Mocny. Through the Secure Communities program.
    Mr. Price. Through a special designation as part of that 
program.
    Mr. Rogers.

               US-VISIT IMMIGRATION CONTROL OR INVENTORY

    Mr. Rogers. Well, to follow up on the Chairman's line of 
questioning on US-VISIT, of course, at the outset it was 
conceived that US-VISIT would be an agency that would pick up a 
chore that INS had failed for all of its years, and that was to 
find a way to learn who was in the country and who had 
overstayed their allotment of time, an inventory, if you will, 
of people here illegally. But since we cannot seem to get an 
exit piece of US-VISIT working, it is not an inventory anymore 
of those here illegally, obviously, and it is really 
essentially a terrorist-screening system, not an immigration- 
control system. Right or wrong?
    Mr. Mocny. It is an immigration-control system. We do rely 
on biographic information in a big way. We have a unit 
dedicated to looking at the information that we glean from 
another system called ADIS, which is tied to IDENT--ADIS, the 
Arrival/Departure Information System--and every 180 days we get 
an exception record of those individuals who are potentially in 
the country, having overstayed their visa.
    We have a unit that looks at that and culls that 
information, looking at priority countries and individuals and 
gives that information to ICE.
    In Fiscal Year 2008, we sent thousands of records to ICE, 
Immigration and Customs Enforcement. They made approximately 
750 arrests based on that information. That is a functionality 
we did not have before.
    I will grant you, we do not have exit in place. We are 
working diligently on that. A biometric exit will be in place 
soon, but the biographic side of the house is being looked at. 
We are able to work with ICE and are able to take people out of 
the country to, who have overstayed their visas.

                             EXIT SOLUTION

    Mr. Rogers. Have we given up on an exit solution?
    Mr. Mocny. Absolutely not, sir. Let me speak to that issue 
because we have been talking about that, and I was here two 
years ago talking about that as well. We have made tremendous 
progress.
    It is challenging. I will grant you that. We do not have 
exit in the U.S. When you leave from France or Australia or 
Japan, you go through an exit-control process. They have had 
that up for years.
    We do not have that here in the U.S., and so where we did 
have an entry process which we modified through the US-VISIT 
program, we have yet to stand up the exit program. We have run 
some pilots, where we know the technology works. We are going 
to conduct the two pilots that were in the Fiscal Year 2009 DHS 
Appropriations Act.
    We have the places identified where we are going to run 
those pilots: one in Detroit and one in Chicago. We will run 
that pilot for 35 days. We are going to analyze the information 
from that, and we are going to make recommendations, obviously, 
to the Secretary and to the Administration, to have a roll-out 
plan for how we implement biometric exit at the air and 
seaports of entry.
    So I realize we are not where we need to be, or perhaps 
where we should be. But we are very close, and I am committed, 
and we are all committed, to getting it up and running.
    Mr. Rogers. Well, it has been a while. We spent $2.1 
billion on US-VISIT, and a big part of the chore that we 
assigned to US-VISIT was exit, and, without the exit 
capability, it severely cripples what we have conceived to be 
the mission of US-VISIT in the first place.
    You know, are we just to continue pouring money in this 
bucket with all the holes in it, or can you give us some hope, 
just a thread of hope, that, one of these days, we will have an 
exit part of US-VISIT?
    Mr. Mocny. I can. I can tell you that we have all of the 
pieces in place.
    Certainly, from a legal standpoint, we put a proposed rule 
out there. We looked at six different scenarios and we costed 
those out. We went through a very rigorous process. We are now 
going to conduct the two pilots that were mandated in the 2009 
appropriations law. We can then conduct a final rule and have 
an exit system up and running within the year or so.
    Obviously, it is a policy decision for the new 
Administration to look at. I have not had the opportunity to 
speak directly to this issue with the Secretary. I see my 
colleague over here nodding her head. She is aware of this 
issue within the Secretary's office.
    So I can give you a thread of hope, absolutely. We are 
certainly poised to move forward, and I do not want you to 
think that the $2.1 billion is not money well spent. The 
Chairman has provided this money over the years and we have 
gotten value for our dollars. We have stopped thousands of 
individuals from entering this country. We have identified 
people at the Mona Past, where I know you have seen it 
personally, sir, and been able to stop people who were coming 
into this country.
    So the money has been well spent. It is not complete yet, 
but we are moving in that direction.

                             DOD BIOMETRICS

    Mr. Rogers. Let me switch gears real quickly here, then. 
DoD has got to be one of the most important sources of 
information. Right?
    Mr. Mocny. Absolutely.
    Mr. Rogers. GAO, in their October 2008 findings, says that 
DoD immediately shares biometric data related to terrorism that 
it collects on non-U.S. personnel. When asked, they share that 
information. But according to GAO, updates on certain types of 
DoD biometrics are not being regularly received by DHS, and, 
when received, are inconsistent in format and usefulness.
    For example, if data collected in Afghanistan on a 
particular individual is only a two-print format, it is often 
impossible to go back and obtain the other eight prints in 
order for the information to be logged into our ten-print 
system.
    Tell us about the DoD sharing, whether it is adequate, 
spotty, or complete.
    Mr. Mocny. Let me start, and I think that Kathy will want 
to say something as well. Let me start by saying, this is a 
work in progress. Yes, we are five years old, but, in many 
ways, the coordination of the biometrics is still something 
that we are working on.
    That being said, we have made tremendous progress on this 
issue. We receive DoD prints on a daily basis through the FBI, 
so we have a direct connect from IDENT to Clarksburg, West 
Virginia, to the IAFIS system. Every day, the FBI will also 
collect information from ADIS, the DoD system, and will route 
that information to us in the form that we call ``known 
suspected terrorists,'' or KSTs. We get that information daily 
from the FBI to update our records.
    Do we have every single print taken by every single 
warfighter on the battlefield? Again, a work in progress, and 
it is something that we need to look at, from a governance 
standpoint, to make sure that the collection processes are 
standardized, that we, in fact, do get that information. But I 
will say this daily, we get this information, as I said before. 
That which the FBI cannot send to us, we can get in another 
direct feed from ADIS via a CD, oftentimes, but we have already 
identified individuals who the DoD was holding.
    We have latent print examiners in our office. They were 
able to identify an individual by a fingerprint on the back of 
a piece of electrical tape that was used for an IED that was 
linked to an individual that DoD was holding. They were able to 
increase the security, based on that information.
    So it is working. Does it need to improve? Absolutely, and 
that is something that Kathy is working very strongly on. Do 
you want to add to that?
    Ms. Kraninger. Yes. DoD, just on their side, has, 
obviously, had a lot of progress to make, in terms of their 
collection and standardization, and, certainly, without 
speaking for them, they have made a lot of progress on that 
end, so the data that was collected earlier in both theaters is 
being cleaned up, and, from a point forward, they have been 
very good about standardizing and making sure that the 
collection is what the screening community would need.
    So that has been one-half of the effort. The other half of 
the effort, as Bob noted, is that there is certain information 
that the FBI actually cannot take, or will not take, for legal 
reasons. Admissibility is a much broader category, and we have 
access to, and authority to look at the other information that 
DoD has. So we have been working very closely with them to 
ensure that we can get the right populations from them and be 
able to use that for screening, but it is a work in progress.
    Mr. Rogers. Well, finally, the compatibility of the data 
that you get from DoD and your system; are you fully compatible 
with DoD?
    Mr. Mocny. We are. We are.
    Mr. Rogers. No problem with format.
    Mr. Mocny. They collect through FBI standards. There is a 
standard collection process. If they collect only two 
fingerprints, our system can accept that. The FBI can accept 
that as the latent print, but we can accept two, one; it does 
not really matter. But the format is very compatible. As I 
said, we get them daily, we run them daily, and we get hits on 
a regular basis.
    Mr. Rogers. And they are fully cooperative?
    Mr. Mocny. Absolutely.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Ms. Roybal-Allard.

                              EXIT SYSTEM

    Ms. Roybal-Allard. Thank you, Mr. Chairman. I just wanted 
to do a little bit of a follow-up on the exit system because 
you said you have been moving forward, and you are ready to 
implement it, yet there was a GAO report in 2008 that stated 
that ``DHS still lacks the crucial capability,'' and the report 
states that ``the Department's poor planning risks repeating 
failed and costly past exit efforts,'' and it went on to 
recommend that DHS conduct an analysis of costs, benefits, and 
risks for proposed exit solutions before committing even more 
money to the development of such a system.
    My question is, have you gone through that process, in 
terms of the planning, before you started to move forward on 
what you are doing now?
    Mr. Mocny. Yes. As part of the proposed rule that we 
published last year, we did do a cost-benefit analysis of six 
different scenarios. We looked at ways the government might do 
it, ways the airlines might do it, various ways that the 
government might do it. And so, looking at those various 
scenarios, and costing those scenarios out, we went with part 
of the proposed rule.
    So that does, I believe, satisfy the GAO's recommendation 
that we do an analysis first before we actually move forward. 
Having done that, and in addition to the two pilots that we are 
going to be running this year--that is why I am saying, from a 
technical perspective and from a legal perspective--we are 
poised to move forward on the exit system.

                TWO-PRINT AND TEN-PRINT DATA COLLECTION

    Ms. Roybal-Allard. Okay. Then also, with regard to the fact 
that you are now capturing all 10 fingerprints, my question is, 
what is going to happen to all of the data collection, over the 
years, of the two prints? Is that still usable, or does it get 
destroyed?
    Mr. Mocny. It is an amazing challenge, but yes, it is 
usable. We do have to ten-print those individuals who we have 
two-printed in the past, so if we have not seen that person for 
a while, they would go through the new ten-print process, but 
the two prints are used today. There are many individuals who 
only come infrequently to the U.S., so we would use that 
information.
    We have almost completed the ten-print deployment, we have 
a few places they go. So, in fact, some ports of entry are 
still using the two-print before the ten-prints get out there. 
The system accepts that. People can use that. It is just a more 
accurate way of doing it, and when we get to full deployment, 
by the end of this year, then everybody will go through a ten-
print process when they come in for the first time and then, 
oftentimes, they will only need a slap of one hand in 
subsequent visits to the U.S. So it is a more efficient system 
and a more accurate system.

                        BIOMETRIC STORAGE SYSTEM

    Ms. Roybal-Allard. Okay. Finally, the U.S. Citizenship and 
Immigration Service is required to submit the fingerprints of 
applicants for immigration benefits to the FBI for criminal 
history checks, and, unfortunately, as often happens, an 
immigrant's case is not adjudicated within the 15-month window, 
and his or her fingerprints must be taken again.
    This practice, according to the CIS ombudsman, is very 
costly for the agency and also very inconvenient for the 
applicants.
    To address the problem, DHS, I understand, is rolling out 
the Biometric Storage System, which is a repository of 
biometric information which enables the Department to save and 
re-send images of applicant fingerprints.
    My question is, if you could just give us an update on how 
this is working and if you have encountered any problems with 
it.
    Ms. Kraninger. That particular program and that particular 
system were actually stopped, but the issue that you raise is 
one that is very much on the forefront of our attention.
    Certainly, we want to make sure that we are improving USCIS 
processing time so that they are able to efficiently operate 
and that this is not an issue. So that is certainly the goal of 
the modernization of USCIS's transformation process, and we are 
looking at the ways to improve that.
    The second half of this, though, is also an FBI policy 
issue with respect to the recapture of fingerprints and then 
resubmission. So we have had conversations with them to see 
what can be done about that policy over time. There are really 
two halves to this. One is certainly getting our better 
processes in place and transformation and then also working 
with the FBI closely to make sure we can make this a little 
easier.
    Ms. Roybal-Allard. Okay. Thank you.
    Mr. Price. Mr. Carter.

                             PILOT PROJECTS

    Mr. Carter. Thank you, Mr. Chairman.
    You mentioned that you have two pilot projects that you are 
working on right now on exit.
    Mr. Mocny. Correct.
    Mr. Carter. How many pilot projects have you already worked 
on on exit and decided that they did not work?
    Mr. Mocny. Starting in 2004, actually, through 2006, where 
we looked at a couple of different ways of capturing 
biometrics, using a mobile device and using kiosks as well, and 
then a combination of kiosks and what we call a ``verifier,'' 
but it was a mobile device as well. We ran those for about two 
years or so.
    What we found is the technology worked quite well. We could 
take the fingerprint in the middle of the airport, transmit 
that fingerprint, and even get a response back, should we 
desire that.
    The issue was the process. Working with the airports, as 
you well know, going through airports today, it is a mall now, 
so they want to save the retail space for the profit angle of 
it. So we put it in areas that were not easy to find. So 
people, where they could find it, did use it. It worked, but it 
was difficult for the traveler to find it.
    So what we concluded from that was that the exit process is 
going to have to be part of the traveler's continuum, either at 
the check-in counter, at TSA, or at the gate itself, and it is 
the TSA pilot and the CBP, Customs Border Protection at the 
gate; those are the two pilots that we are going to run in the 
May-June timeframe.

                   BORDER CROSSING BY CAR AND ON FOOT

    Mr. Carter. I was at the border in Laredo about 18 months, 
2 years ago. I stood there on the bridge and watched them bring 
people across. My memory sort of fails me, I guess, but, as I 
recall, they had people who were frequent crossers of the 
border, and they had had the fingerprints and all of that stuff 
done.
    Some of them, they would stop in a car, see their card, and 
I do not know whether they had a print thing that took their 
fingerprint as they went across, or what the situation was, but 
they moved pretty rapidly across the bridge, much more rapidly 
than I would pass through at the airport.
    Mr. Mocny. Uh-huh.
    Mr. Carter. Then I stood and watched the walking people 
that were supposedly frequent visitors that made more than a 
few crossings. They had a fingerprint pad, electronic, and a 
card.
    Now, I do not recall, and maybe you can answer this, 
whether those people walked through a magnetometer, whether 
they had their bags that they were carrying inspected or run 
through an x-ray unit, but I do not think they did. Can you 
tell me whether or not they do?
    Mr. Mocny. What I believe you are referring to, in the 
first instance, is the SENTRI program, which is across many 
ports of entry on the southern border. These people are 
prescreened, so they go for an actual interview with a CBP 
officer. They have their fingerprints taken, they go through a 
vetting process, and they get a card that is then used in 
special lanes in Laredo, El Paso, Otay Mesa, San Jacinto, and a 
couple of other places.
    That is a very effective program for frequent travelers 
because, again, they are prevetted, and the Customs officer has 
a better sense of who that person is. What happens is it uses 
radio frequency technology, much like the Western Hemisphere 
Travel Initiative is going to be using. So it prepopulates the 
screen. The officer knows who is in the car--they have been 
vetted, they are green, they are good to go--and lets them 
through. That makes for a quicker inspection.
    On the second scenario, what I believe you are referring to 
is probably just a regular US-VISIT person coming through the 
process, where they go through a fingerprinting process as part 
of the policy where, again, anybody coming under a visa or 
coming using a border-crossing card for more than 30 days or 
more than 25 miles.
    So that is the standard US-VISIT process, and, frankly, 
while they may not go through a magnetometer in every instance, 
they are certainly screened by a Customs and Border Protection 
officer. They can have their bags looked at, at any given 
point, if the officer believes that to be the case. So there is 
a rigorous screening program on the southern border for anyone 
going into the United States.
    Mr. Carter. I asked the guy that was with me. I said, 
``Where do you think this person is going?'' and they said, 
``Well, probably just right across the border here to do 
shopping and so forth.''
    I said, ``How do you know?'' He said, ``We do not know.''
    I said, ``How do you know when he comes back?'' ``We do not 
know when he comes back.''
    ``Could he go all the way to Canada?'' ``Yeah, he could go 
all the way to Canada. It would not be a problem.''
    And what really struck me was, I went through the mess at 
the Houston Airport, although that is not my port of getting on 
the airplane normally--I get on the airplane in Austin--but I 
had the iris scan, I had the fingerprints done, and all that 
stuff.
    It is supposed to speed along the process, but it does not. 
You still get your bags searched. You still have to stand in 
line to go through the magnetometer and all that stuff, and yet 
people are crossing the southern border in a wave almost. I 
mean, I find that curious. Do you have any comments?
    Ms. Kraninger. The distinction, just in terms of domestic 
screening processes by TSA and border entry, are real. One 
certainly is just the statutory responsibility we have to 
screen every individual and every bag that is actually going to 
get on a commercial aircraft. So that is the distinction that 
we would make. Not to say, though, that CBP cannot. CBP 
actually does do physical screening where they feel it is 
necessary. They are trained law enforcement who are conducting 
an inspection. They do generally ask someone where they are 
going. But we appreciate the point, that is absolutely the case 
that once someone enters, we can only rely on what they told 
us.
    But there is a separate regime when it comes to domestic 
and international air travel, when someone is leaving the 
country from----
    Mr. Carter. I understand that. It just seemed like one was 
very particular, and one was very lax. In other words, you 
could have been carrying a suitcase full of plastic explosives 
across the border, and nobody was doing anything about it, it 
looked like to me, because I sat there for about an hour and 
watched them go by, and nobody's bag got looked at while I was 
there, and some of them were carrying lots of big things across 
the border. I just sort of found it curious, as we look at 
national security, that that is the way it would operate. I 
think you need an exit policy. Thank you.
    Mr. Rogers. Would the gentleman yield?
    Mr. Carter. Yes, I yield.

                     BORDER CROSSING BAGGAGE CHECK

    Mr. Rogers. Well, the fact that 90 percent of the cocaine 
entering this country comes through Mexico, obviously, across 
the border; some of those bags are containing substances that 
we do not want here, the bags you are talking about that go 
unchecked.
    Mr. Carter. It could be.
    Mr. Rogers. Right or wrong?
    Mr. Mocny. That is always possible. I do know that CBP 
every day encounters individuals, and they will confiscate 
cocaine, marijuana, and others. Border Patrol does the same 
thing in between the ports of entry.
    It is a problem, no doubt. Is it universally appropriate to 
every single case? Obviously not.
    Mr. Rogers. Well, with the drugs coming into the U.S. and 
the guns going out of the U.S. to Mexico, it is an open sieve, 
open.
    Mr. Price. Mr. Farr.

                          VISA WAIVER PROGRAM

    Mr. Farr. I find these discussions fascinating because I 
think I have just felt, ever since 9/11, that having to go 
through this harassment at the airport is so un-American and so 
contrary to our right to freedom of travel, that it seems to me 
that once all of that screening was put up, it was our 
government saying, ``We do not trust you, as an individual.''
    I have hoped that maybe this all moves to some technology 
that we do not have to have the human interaction, but it is 
interesting that TSA now, their whole point is about human 
interaction. It is the interview, when they look at your eyes 
and look at you, that they really get back to this being able 
to determine by interviewing people whether there is something 
suspicious, more so than all of the equipment that is out 
there.
    I had a couple of questions. How many countries now are in 
the visa waiver program?
    Mr. Mocny. Twenty-seven.
    Mr. Farr. And how many of those 27 countries require for 
Americans coming into their countries, they have to do the same 
thing that we are requiring here?
    Mr. Mocny. Some of those, Japan and the U.K.----
    Mr. Farr. Two out of 27?
    Mr. Mocny. Pardon?
    Mr. Farr. Two out of 27?
    Mr. Mocny. Two right now, but the European Union is moving 
to a biometric visa issuance process, too, so all of the 
European Union countries--many of whom are in the Visa Waiver 
Program--in fact, the bulk of them are from Europe--will be 
implementing a biometric screening program for anybody required 
to have a visa to go to the EU.

                             EXIT STRATEGY

    Mr. Farr. And will they have an exit strategy as well?
    Mr. Mocny. They are working on one. Japan already has one, 
and the EU has some, in various stages, in various countries, 
but the concept is to move to a biometric entry and exit 
process.
    Mr. Farr. It is very hard to drive and walk in Japan. It is 
an island. They have this program that the other Members were 
talking about and bifurcated. We have this border where most of 
the people coming into the United States do come by land, from 
Canada and Mexico, far greater than all of the air travel.
    Is there a plan to do an exit strategy for all of the 
people leaving California going into Mexico?
    Mr. Mocny. As part of the comprehensive exit process, yes. 
It is a concept that we have put forward. We have not gotten it 
fully developed yet, but we do have a report that talks about 
how you would implement a land-border exit for pedestrians, for 
vehicles, for trains and buses. So there is a process in place 
to actually implement that.
    Mr. Farr. You would have traffic lines backed up to Los 
Angeles.
    Mr. Mocny. It is certainly not an easy challenge, but there 
are many locations where people walk across the border, and so 
you can capture their information, and there are many ports of 
entry which are one, two, and three-lane ports of entry, which 
makes it easier to capture the information.
    Mr. Farr. There are 27 lanes in San Jacinto.
    Mr. Mocny. Absolutely. So that is something we are going to 
have to----
    Mr. Farr. They are all backed up.
    Mr. Mocny. There is no easy solution. I will grant you 
that.
    Mr. Farr. It is a two-and-a-half-hour wait coming into 
California, on a daily basis, even when you are in a fast 
track, to get through that. So if you had to do that going out, 
I think you would create something that people--when the 
enforcement is worse than the problem, you create a nightmare.
    I am just interested. Why do we need an exit strategy?
    Mr. Mocny. We need an exit strategy; because number one, 
the Congress has mandated that in several statutes.
    Mr. Farr. But why do we need it? Not just Congress 
mandates----
    Mr. Mocny. I understand. We need to know who is in our 
country and who has left the country. We need to be able to 
rationalize the 12 million people who are here in the country 
illegally, as estimated, how they got here, many of whom came 
under the visa waiver program and never left; many of whom came 
with a visa and never left.
    Mr. Farr. When you discover that they are CEOs of high-tech 
firms and leading university professors and perhaps leading 
citizens in our community, and they came here on a visa, went 
to the university, got a degree, and stayed, what are we going 
to do about it?
    Mr. Mocny. Again, we need to know who is in the country and 
who has left. Once we know who has not left, then we can have 
our Immigration and Customs Enforcement take the appropriate 
action. Again, there is not a universal panacea, but it is a 
way of building integrity into the immigration system.
    People have come to the U.S., exploited our immigration 
laws, and, therefore, we have to build some integrity into the 
process to make sure that we have some control over our 
immigration.
    Mr. Farr. For 200 years, we never did this, and we know we 
have 11 million people. We do not even know how many people are 
staying. I do not see why we need an exit strategy. There are 
just so many loopholes in it and exceptions to it that it seems 
to me a waste of money. This is a job you have been doing since 
its inception, right?
    Mr. Mocny. That is right.
    Mr. Farr. How long does it take to work yourself out of a 
job?
    No further questions.
    Mr. Price. All right, Mr. Calvert.

                   INTERACTION WITH E-VERIFY PROGRAM

    Mr. Calvert. Thank you, Mr. Chairman. I think I will take a 
different tack on this, Mr. Chairman.
    I understand why we need an exit policy. I was at 
Disneyland a few years ago in Florida, and I entered there, and 
you put a finger in, and, you know, I was wondering what the 
heck that technology was at the time--this was five years ago. 
And when I left, I put my finger in, and later on I talked to 
an executive at Disney Corporation, and he said, that is right, 
we know who you are when you come in, and we know when you 
left. And I do not know how many people go to Disney World 
every day, but it is significant amount of people.
    In Japan, as you know, their exit strategy is primarily eye 
scan. It takes approximately one second as you walk through the 
turnstile, the Japanese can know who came in and who left. It 
is a very efficient system, and the systems are getting better 
every day.
    And in respect to Mr. Farr's line of questioning, you know, 
the United States has changed over the last 200 years. We now 
get 90 percent of the methamphetamine that come into the United 
States comes across the border. We have a significant crime 
problem along the border, both people leaving the United 
States, as Chairman Rogers mentioned, and smuggling weapons 
into Mexico, and the other way around, smuggling these illicit 
drugs into the United States, and right now we have hundreds of 
thousands of people that, unfortunately, are out of work in the 
United States because of the economic situation in this 
country, and some of those people who are here illegally are 
taking jobs away from people who would love to have those jobs.
    So I believe that we need to have a system that works, and 
I congratulate you on the progress you have made, though we 
would like to see more progress. And in that I was the original 
author of the program that is now being implemented as a 
volunteer program called ``e-verify'', and I wonder what your 
interaction with that program is, if any.
    Mr. Mocny. We do not have any within US-VISIT. There is no 
biometric involved with either other than a photograph.
    Mr. Calvert. I see, so the so-called photo tool that is now 
attached to that system?
    Mr. Mocny. Correct.

         BIOMETRIC IDENTIFIER ATTACHED TO SOCIAL SECURITY CARD

    Mr. Calvert. Do you think it would be useful at some point 
in the future as this technology continues that a biometric 
identifier be attached to Social Security cards?
    Mr. Mocny. You are asking my opinion? I think, as stated 
earlier, you know, biometrics does add integrity to any 
identification process, and at the same time it is not a silver 
bullet. So you have to weigh the costs and benefits of it, and 
the ability for the various companies to utilize this 
information. But as you well pointed out, if Disneyland can do 
it, if we can do it worldwide, if the Brits can do it, it is 
probably something that is doable. It is, of course, a policy 
question as to how we implement that with respect to Social 
Security cards.

               NUMBER OF INDIVIDUALS PROCESSED EACH YEAR

    Mr. Calvert. How many individuals does US-VISIT process 
each year, approximately?
    Mr. Mocny. Each year?
    Mr. Calvert. Each year.
    Mr. Mocny. In the range of about 25 million, I think, a 
year.
    Mr. Calvert. Twenty-five million people. So the problem 
right now you are identifying the 25 million that are coming 
up, but we do not really know how many are leaving. That is an 
accurate statement?
    Mr. Mocny. From a biometric side, you are right. Again, we 
work with the biographic side so that we do capture enough 
information to give us a pretty good sense of who has not left 
the country. Again, we get that acceptance report every day, 
but the biometric would add significantly to the certainty of 
that.

                        NEXT EXIT PILOT PROGRAM

    Mr. Calvert. You mentioned these pilot programs and some 
discussions about that. Now, where is the next pilot program 
going to take place?
    Mr. Mocny. For the exit?
    Mr. Calvert. Yes.
    Mr. Mocny. We are going to have one in Chicago and one in 
Detroit.
    Mr. Calvert. One in Chicago and one in Detroit. Around the 
Windsor Bridge area, that type of?
    Mr. Mocny. No. This is for air exit so it is going to be at 
O'Hare for Chicago and the Detroit Airport for----
    Mr. Calvert. What port of entry into the United States 
receives the highest traffic?
    Mr. Mocny. Which port of entry receives the highest 
traffic? Probably San Diego and/or El Paso.
    Mr. Calvert. Depending on you----
    Mr. Mocny. Yes, right.

                          EYE SCAN TECHNOLOGY

    Mr. Calvert. Is there other technologies other than, and I 
know there is a 10-fingerprint scanner, which is quicker to 
use, is the eye scan the quickest to use or is the--what 
technology out there or what technology do you perceive in the 
future that may be utilized to move this process quicker?
    Mr. Mocny. We are actually looking at iris scans and facial 
recognition as well. Iris scans really is a promising biometric 
for us because it is hands off. It is highly accurate, and it 
is very quick, and you can do it on the move. You do not have 
to touch anything. The only issue with that obviously is we 
want to keep the fingerprint as the base biometric because that 
verifies criminality. So once we have established, and we are 
looking at a process which would include all 10 fingerprints, 
the face, and then the two irises and then process that as 
appropriate.
    In some cases, it is better to use the iris given the 
scenario we have, possibly using that for exit control even at 
the airports because people do line up and walk through queues 
and tunnels where they can be easily captured. So we are 
looking at multi-modal, not only from a facilitation 
standpoint, but from a security standpoint because, again, they 
are going to try to thwart the fingerprint process. So we have 
to kind of mix it up; use what we call multi-modal--face, 
fingerprint, iris, and the next biometric--to make sure we are 
verifying their identities.
    Mr. Calvert. A final point, Mr. Chairman. I have always 
said to my friends since I live near the border as many of us 
do, that we can either be proactive about solutions to this 
problem as we are doing, or something is going to occur along 
the border, not with Mexican nationals, I do not think that is 
the problem, but with someone else that enters the United 
States, and then we will react, and the government, when it 
reacts, tends to overreact, and then we will have a more 
difficult problem that we have to deal with.
    So with that, I commend you on the job you are doing, and 
look forward to more progress. Thank you.
    Mr. Price. Thank you. Mr. Culberson.

              POTENTIAL IMPACTS ON RFID ENABLED DOCUMENTS

    Mr. Culberson. Thank you, Mr. Chairman. This is really 
timely and important, and really appreciate what you are doing. 
I think that about two years ago the FBI director went to the 
office in San Antonio and congratulated them on their work in 
breaking up a smuggling ring that had actually snuck Hamas 
terrorists into the United States, and I think we have also 
documented that there has been Hezbollah terrorists have come 
in, and speculation--no absolute confirmation about al-Qaeda, 
but there is no question they are using the southern border, 
the ports of entry, the northern border to sneak into the 
United States, and that we as a country have absolutely got to 
use this technology, and good law enforcement techniques, just 
good old-fashioned boots on the ground that is working so well 
in the Del Rio and the Laredo sectors in securing those sectors 
using a very successful and very popular program called 
Operation Streamline, a zero tolerance policy.
    But I wanted to ask in particular about the--zero in on the 
subject of the hearing today, that since we have already got--
Congress has given hundreds of millions of dollars to DHS to 
build the physical and IT structure to read the travel 
documents under the Western Hemisphere Travel Initiative, and 
we have got travelers who have--a million travelers who have 
paid for the RFID-equipped cards in 13 ports of entries that 
have gone through the trouble and expense of installing the 
equipment to read them.
    Could you talk about what could be the impact on the 
Department and the traveling public if there were any major 
changes to the program at this stage?
    Ms. Kraninger. Well, the biggest change will be coming, 
actually, June first of this year with the actual compliance 
date for having a secure document when you are entering the 
United States for U.S. and Canadian citizens, who this 
primarily affects. We are actually very excited about this 
because we really see it as a huge facilitation gain. As was 
noted before, the Sentri Program has done a lot, and the NEXUS 
program on the northern border, to really move through 
individuals who are already identified to present to the CBP 
officer the information about that person on the screen, 
including a photograph. So there is a biometric component to 
this, including the photograph. They can have done quick checks 
done against wants and warrants, and the terrorist watch list, 
just as the car is pulling up, and actually know who is going 
to be in that vehicle and process them quickly and efficiently.
    So we do expect and actually have seen gains in exactly 
that way, and the more individuals who have RFID-enabled 
documents the better it is going to get.
    Mr. Culberson. So on June 1, how many ports of entry do you 
expect to have that in place?
    Ms. Kraninger. We have the top 39 ports of entry targeted 
to actually outfit the RFID readers in every lane in-bound and 
that will be completed before that point.
    Mr. Culberson. So by June 1 you are going to have 39 ports 
of entry up and running----
    Ms. Kraninger. Yes, sir.
    Mr. Culberson [continuing]. With read the RFIDs. Terrific. 
I know U.S. Visit was originally seeking competition for the 
U.S. entry program and getting the biometric equipment because 
you did not want to be held hostage to one supplier. Can you 
talk to us about your future plans for seeking additional 
sources for the biometric equipment and for other similar 
programs?
    Mr. Mocny. Absolutely. There is a limited number of 
companies out there that have this type of equipment. Before 
biometrics, it was about fingerprints and it was law 
enforcement-related. And you have basically four companies in 
the world, two of which are foreign, and so what we need to do 
is work with industry, which we have on a regular basis. We 
provided you some pictures up there, and the fingerprint device 
that we demonstrated to you, that did not exist three years 
ago. We had industry in our building, and told them that the 
flat fingerprint devices were too slow, too non-user friendly, 
and too large actually to put on a CBD officer's desk. And so 
we gave them a challenge to come up with something not bigger 
than 6"  6"  6 "--and in about eight months we had the first 
phototype, and shortly thereafter, we had a couple more.
    So working with industry, we need to encourage them in this 
field, not only the capture devices, but in the biometric 
processing in and of itself.
    We talked about iris scans a little while ago. That was a 
very nascent program just a few years ago where the UAE has 
been using it very robustly for awhile now. It still had its 
issues as far as patent controls and all. That patent has now 
expired, and we are seeing more and more companies moving in 
that direction.
    So I am very encouraged with what we are seeing from an 
industry standpoint. I think more needs to be done. I think, as 
more and more countries move to a biometrically-controlled 
border management system, as we talked about, we need to 
encourage that competition because we cannot rely on one or two 
companies, again, who have foreign ties to be managing our 
biometrics on a day-to-day basis.

                    PASS CARD FOR THE MEXICAN BORDER

    Mr. Culberson. Now forgive me if this has already been 
asked earlier, but I also wanted to ask about them, again with 
the Western Hemisphere Travel Initiative, is DHS planning to 
use a card form for the PASS card for the Mexican border 
crossing card? And if so, what happens to the fingerprints that 
are on the current card? Is DHS planning to ignore the 
statutory requirements that the fingerprints be on the card?
    Ms. Kraninger. Well, with respect to the border crossing 
card, actually the State Department has issued 125,000 of the 
new cards already. They are RFID-enabled, and again provide the 
same benefits that I discussed with respect to secure 
documents, which is a major gain.
    The collection of fingerprints is still very much a part of 
the border crossing card issuance process. We do actually use 
and currently check through US-VISIT IDENT to see if there are 
any law enforcement-related hits against those fingerprints, 
and again, the results of that are shown to the CBD officer 
when they process somebody who is entering with a border 
crossing card. So fingerprints are still very much part of the 
process.
    From a security standpoint, we have not wanted to put the 
fingerprints actually on the card itself, and I am not sure--
that has changed. Yes, that has changed. So the border crossing 
card does not actually have them on the card itself.
    Mr. Culberson. Right.
    Ms. Kraninger. But they are associated in the file, and I 
do not want to speak for the State Department.
    Mr. Culberson. A RFID tag will trigger it?
    Ms. Kraninger. Yes, sir.
    Mr. Culberson. Thank you, Mr. Chairman.

                            ACCURACY ISSUES

    Mr. Price. Thank you. Let me turn to the question of 
accuracy because, as you well know, these systems can have very 
dire consequences for individuals if they are caught up in an 
inaccurate match. They can also have dire consequences for 
security if the matches do not show up. There are two kinds of 
common errors as I understand it with biometric ID systems: the 
false match errors where an individual is matched with 
another's biometric, and the false match errors where an 
individual whose identity is recorded in the system is not 
matched with their biometric data. I know you worked to 
minimize or to maybe balance those two kinds of errors.
    Ms. Kraninger, I wonder if you could tell us how the 
Department works to minimize such errors? What kind of ongoing 
efforts do you have underway?
    Some of this is a matter of readings changing over time. As 
faces age and as fingerprints get worn away by labor or 
chemicals or injuries, whatever, so it is partly, I guess, a 
matter of ensuring that the biometric data is up to date. It is 
also a matter of continuing to refine the accuracy of the 
system.
    Finally, what if an individual does get caught up in this? 
What kind of opportunities does that individual have to 
understand the problem, first of all, to be informed about it, 
and to take efforts to take action to correct their biometric 
data in the system?
    In an unrelated area, we hear the stories of the watch 
lists at the airport where people simply cannot get themselves 
off that watch list, and they get pulled aside for special 
screening week after week after week, and it is very slow in 
getting fixed. What about this situation? If an individual is 
caught up in a false match or false identification, does that 
individual have any resource if the problem is not quickly 
fixed?
    Ms. Kraninger. Mr. Chairman, you went exactly where I did 
when you mentioned the watch list because the truth about the 
biometric situation, frankly, is that it helps us significantly 
in the area where we have a harder time actually matching the 
[biographic] information. When all you have about a person is a 
name, and you are matching that against a watch list, the 
opportunity for more matches is there, and then, of course, you 
have to actually adjudicate those matches and determine if it 
is the real person.
    Mr. Price. No, I understand. I understand that your system 
is far more accurate and, of course, that is the point of 
having the biometrics. However, we have background from GAO 
that you are not without error rates of both of the kinds that 
I mentioned.
    Ms. Kraninger. Yes.
    Mr. Price. And presumably individuals are caught up in 
that.
    Ms. Kraninger. Absolutely. So with respect to redress 
opportunities, we did establish, I guess now two years ago, the 
DHS TRIP process, so that any traveler who is affected by a 
misidentification, or otherwise believes that they were 
improperly processed, whether it was by CBP in the US-VISIT 
process, or CBP in general, or TSA, or USCIS even in an 
immigrations benefits process, where they think they have an 
issue related to watch list, they can submit that request to 
the DHS TRIP office. It's the central office managed by TSA on 
behalf of the Department. Those requests are then adjudicated 
in a uniform way across the Department so that we can make a 
determination whether the information is related to the watch 
list definitely or in another place, so that we can address 
that individual's issues and either correct their records or 
provide them some redress.
    There are limitations on the biographic side. That is 
certainly why we are setting up Secure Flight and why we want 
to collect more than just a name, and therefore have required 
full name, date of birth, and gender as part of that process.
    You brought up a very valid point though about biometrics 
too, no system is perfect. So we do have the situation where, 
as you noted, fingerprints that deteriorated or facial images 
that are not to quality. We are certainly doing things on that 
front as well that I would defer really to Bob in detail.
    Mr. Mocny. Yes, it is something that we take very 
seriously. We want to make sure we do not miss the bad guys but 
that we do not inconvenience the good guys. And so it is a 
matter, as you indicated, kind of setting up thresholds within 
the system to do just that. We work every single day to make 
sure that we have an accurate system. The 10-prints will help 
us get there, but other biometrics will even help us get there 
with higher accuracy, if we are adding iris scans to the 
process.
    You should know that if there is a false match, we do have 
fingerprint examiners 24/7 who look at that information. So if 
a person provides fingerprints to the State Department, 
consulate overseas or port of entry--and there is ``a hit'', 
within a couple of minutes we have a fingerprint examiner 
looking at the candidate print and the one on file, and making 
a determination of whether or not that is a true hit or not, 
again what we call gray area hits with those very, very few who 
are sent back into secondary to resolve that.
    So we take that seriously because we want to make sure that 
we are moving people through the process and not 
inconveniencing them and not falsely identifying them. And to 
date, we have not had such an issue. Again, we have humans who 
do actually look at this on a daily basis, about 50,000 a week 
actually.
    Mr. Price. Is there any way of tracking improvements in 
error rates of those sorts?
    Mr. Mocny. Absolutely.
    Mr. Price. Do you have information you can provide us?
    Mr. Mocny. We can. We can give you good detailed 
information, you know, technical fixes that bring that false 
match right down to something that is very, very manageable. 
But again, people are looking at this on a day-to-day basis 
very, very bright people--much brighter than me--who are 
looking at algorithms and ways in which we can do this better 
and better, so we can actually provide that to you.
    Mr. Price. Thank you. Mr. Rogers.

                      EXIT SYSTEM ADD TO US-VISIT

    Mr. Rogers. Thank you. To follow up on Mr. Farr's line of 
questioning about whether or not we need an exit system to the 
US-VISIT Program. If we do not have an exit system, there 
really is no way to know whether or not a person has overstayed 
his or her visa, right or wrong?
    Mr. Mocny. That is correct. If we do not have an exit, you 
are right.
    Mr. Rogers. And as a result of that, 40 percent of the 12 
million illegals in the country now, I am told, 40 percent are 
here because they simply overstayed a legal visa, right?
    Mr. Mocny. That is correct.
    Mr. Rogers. Came here legally, overstayed the visa, and you 
have not caught them. So if you assume that the country needs a 
border and citizenship, then you have to say that we have to 
have a system of allowing visitors in for a limited time and 
then knowing when they leave. Is that right or wrong?
    Mr. Mocny. That is correct.
    Mr. Rogers. As a matter of fact, one of the big reasons why 
we have hopefully secure borders and checking people who come 
and go is to be sure that we keep out people that want to do us 
harm, right or wrong?
    Mr. Mocny. Right.
    Mr. Rogers. And I would remind you that four of the 9/11 
hijackers were visa overstays, and that two of the World Trade 
Center bombers were visa overstays. So it matters whether or 
not we know a person is here on an overstay or not. But, you 
know, I think one of the big reasons why the efforts at exit 
control have not worked, like the kiosks in airports and the 
like, is that the exitor has no real incentive to let us know 
he has left; right?
    What if we changed the rules so that if a person who is in 
the country on a visa, when they leave the country if they do 
not let us know that they have left, when they try to come back 
a second time they are not allowed? Would that not be an 
incentive?
    Mr. Mocny. That would be, and in fact, that is the case 
again from a biographic side is how we capture information. If 
someone leaves the country and they either have not reported it 
say at a land border, we would have a record of that 
biographically in the system to say that they potentially 
overstayed the visa.
    The problem is it is difficult to enforce because people 
may have left the country, and we may not have known about it 
because we do not have an exit system. So from one side of the 
standpoint, it is a facilitative measure to make sure that that 
person who legitimately left the country and checked out can 
come back into the country and be able to prove I left the 
country. Right now we think people may not have left the 
country, and that can become an issue for the traveler. So by 
having an exit system, it does help on the enforcement side, 
but it also helps the traveler to confirm the fact that they 
left legitimately, and it lets us know with more definition 
that that person did not leave on time.
    Mr. Rogers. Well, I am just trying to figure out what kind 
of an incentive we can put on the person who is coming and 
going to let us know when they have left the country. But as 
you say, if there is no mechanism by which they can let us know 
that, then it is not a good answer.
    Mr. Mocny. Well, it is certainly something we are looking 
at as far as, again, when we get to the land border because it 
is much more difficult to do so. So we want to provide a 
process by which someone can tell the officer, I have left the 
country and I have left on time, but we also want to know that 
that person left and did not leave on time, and because there 
is no way to watch those people leaving the country, there is 
no way to enforce that fairly and legitimately.
    Mr. Rogers. Well, if we could follow Disneyland's example 
that Mr. Calvert told us about, if here was a way that you can 
construct an exit system that is built on that simple procedure 
of putting your thumb in a box before the let opens to let you 
out, then we will have achieved the magic exit system.
    Mr. Mocny. And that is a challenge and that is why we need 
to work with industry. Again, I can probably paint you a 
scenario for people who walk across the border, and people who 
drive through one or two lane-ports of entry on the northern 
border. But to handle the people leaving through San Diego, El 
Paso, Detroit--some of the larger places, and some places where 
they drive 45 miles an hour across the border, to have that 
person place a thumb-print or whatever else and do it safely, 
that is our challenge. So we need to work with industry to 
either change the paradigm, or have them report back when they 
get to the other side of the border. There are different ways 
for looking at how to handle that, but I do believe we can put 
something in place.
    Mr. Rogers. Well, I charge you and challenge you again to 
come up with a system that--surely in this modern technological 
age in which we live you can do that, and I have been to that 
San Ysidro border. Is it 12 lanes each way?
    Mr. Mocny. It is 24 in and four out, four or five out.
    Mr. Rogers. It is amazing.
    Mr. Mocny. Yes.
    Mr. Rogers. And the traffic was backed up two or three 
miles, and they are going through it at 30-40 miles an hour 
through the check-out point, so I understand the complexity and 
the volume and the size of the flow that you are trying to 
carry. Thank you.
    Mr. Price. Thank you. We obviously have votes on the House 
floor, so we will plan to close out with Mr. Farr.

                          GLOBAL ENTRY PROGRAM

    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Rogers is right. We need to make sure that the bad 
people who snuck into this country or gotten in, I think that 
is what law enforcement is all about. My concern is that we 
have set up a separate department just on exit when we have the 
border customs and border patrol to do entry when it seems to 
me they ought to all be combined.
    It also seems to me that there is a priority here. We did 
grandfather people in who came in here undocumented in the 
eighties who came through the amnesty program for farmworkers 
and it worked very well. What I am concerned about in a global 
strategy. We have also got to be a country that is not looked 
at and hated by the rest of the world because the business 
community, the traveling community of those countries want--you 
know, want to come here, want to be treated like we would want 
to be treated in their country, and I think we end up, just 
like this agricultural war that we have, we are trying to keep 
things out if they are threatening, and it is just that we have 
got to be smart about this. That is my point. I think there are 
ways of doing it.
    Let me just ask this one question about the Global Entry 
Program. Can you provide me a timeframe when DHS will allow the 
international visitor from The Netherlands, Germany, and the 
U.K. to use the Global Entry Program?
    Ms. Kraninger. Actually, the Dutch pilot will be the first 
one, and we are looking to launch that very soon, in the 
spring, and the others will follow soon thereafter.
    Mr. Farr. Well, does the pilot mean then that all of them 
from The Netherlands can come or is it just a few, or what is 
it--the question is really when is the timeframe when they will 
be in place for all those countries?
    Ms. Kraninger. The Netherlands are starting first and it is 
their similar program that will actually allow those members of 
that program to come in through Global Entry. So what we have 
to do actually is share information on the individuals in 
Global Entry, the individuals in, I think it is called Privium. 
So that is going to take a little bit of time to do quick 
checks on those individuals, share that information, allow them 
to enter. But the first person can enter in the spring when we 
get that moving. We only say pilot because it is the first of 
the international phases, so the U.K. and Germany will come 
soon thereafter. We will have to finalize agreements with them, 
but this should all work very well, and will happen this year.
    Mr. Farr. This year. Okay, thank you.

                INTERNATIONAL REGISTERED TRAVEL PROGRAM

    Of the International Registered Travel Program, which we 
have for Canada, why do we not have it for Mexico?
    Ms. Kraninger. We actually do with SENTRI, and so Mexican 
nationals actually can participate in SENTRI. What we are doing 
with CBP as well is saying, NEXUS, SENTRI, Global Entry, when 
they were all established, have very similar requirements for 
the background check that we conduct, the information that is 
provided, and how we process those people. So what we are doing 
as well is letting them begin to use that same benefit through 
air that they use today on land. So we are actually in some 
respects----
    Mr. Farr. So it is in place for Mexico as well as Canada?
    Ms. Kraninger. Yes. Mexico through the SENTRI Program, 
Mexican nationals, and the Canadians have the NEXUS Program.
    Mr. Farr. Okay, thank you.
    Mr. Price. Thank you, and with that we will draw this 
hearing to a conclusion. We do have more questions I feel 
certain, and we will submit them to you for answers then for 
the record.
    In the meantime, thank you for the good work both of you 
do, and for being here today and helping us prepare for writing 
next year's bill.
    Mr. Mocny. Thank you, Mr. Chairman.
    Ms. Kraninger. Thank you.
    Mr. Price. The Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, March 26, 2009.

 DEVELOPING AND TRANSITIONING HOMELAND SECURITY RESEARCH PRODUCTS INTO 
                                  USE

                                WITNESS

BRADLEY BUSWELL, ACTING UNDERSECRETARY FOR SCIENCE AND TECHNOLOGY, 
    DEPARTMENT OF HOMELAND SECURITY
    Mr. Price. The Subcommittee will come to order. Good 
morning. 
    Today we have before our Subcommittee Bradley Buswell, the 
Acting Undersecretary for Science and Technology, Directorate 
at DHS, to discuss how the Agency develops and translates 
advanced research into operational homeland security products.
    Welcome, Mr. Buswell.
    Mr. Buswell. Thank you. It is great to be here.

                  Opening Statement of Chairman Price

    Mr. Price. Today one of our main focuses is to obtain 
greater understanding of how S&T identifies and selects 
promising technologies for further development, and how you 
find ways to efficiently leverage existing technologies into 
new uses.
    Your predecessor as Director took a proactive stance, 
seeking to ensure that the research S&T undertook was relevant 
to the operational needs of the components with DHS. We would 
like to hear from you how you are continuing these efforts, and 
how you are building upon them.
    S&T is a very young agency, formed when DHS was created in 
2003. In its infancy, we were concerned that it was replicating 
research done either by other federal government entities or by 
other DHS agencies.
    In 2008, this Subcommittee commissioned a study by the 
National Academy of Public Administration to look at how S&T's 
research portfolio fits into the broader scope of research in 
the federal government, to assess that portfolio on its own 
terms, and also to assess the fit, the complementarity, between 
the DHS portfolio and what is going on elsewhere in the federal 
establishment. This review we anticipate will be completed in 
June.
    In the meantime, we are interested in discussing what 
specific steps S&T is taking to ensure that efforts within the 
innovation portfolio in particular are not duplicative or 
research that either precedes it or is going on elsewhere in 
the government or in DHS; how S&T coordinates its work within 
the department; and how other DHS components test and utilize 
technology S&T develops in their own work, so that promising 
technologies do not sit on the shelf.
    Recently some disturbing news surfaced about internal 
coordination with S&T related to the Biowatch program. We have 
been told that one component of S&T is field testing a biowatch 
prototype without coordination, while the Test & Evaluation and 
Standards Office, which claims they do not have any access to 
any of that data.
    Now, we will be holding a hearing later this year to 
discuss the specific challenges that the Biowatch program 
poses. But this, I believe, is a good example of what we need 
you to be mindful of as S&T executes the Fiscal Year 2009 
budget that we approved, and as we consider the budget going 
forward.
    At our hearing with S&T last year we talked at length about 
better ways to include the private sector in the development of 
new technologies, as well as S&T's role as a technology 
clearinghouse for Homeland Security-related research.
    We continue to have a strong interest in improving S&T's 
capacity to evaluate promising technologies and research 
proposals from outside.
    S&T's upcoming installation of Resilient Electric Grid 
technology in New York City is a great example of how the 
Agency should be leveraging prior investments, both public and 
private, to accomplish the mission. This technology would help 
prevent the spread of blackouts, such as we saw in 2003, and it 
could maintain power in more areas affected by a disaster by 
isolating blackouts before they spread.
    We would like to hear about your recent accomplishments and 
upcoming plans for this promising technology.
    Finally, just last week, in our hearing on interoperability 
we discussed the importance of field demonstrations and pilot 
programs. This is surely an integral step in S&T's technology 
development process. Because a large portion of your budget has 
been devoted to these efforts, it would be helpful if you could 
discuss some recent pilots S&T has been involved in since our 
hearings last year, and your future plans for performing 
demonstrations with your customers.
    Obviously, pilot programs serve a couple of critical 
functions. They demonstrate the linkage that I mentioned 
earlier between research and the practical applications, the 
missions of the agencies. They give us a way of making a test 
run before investing a huge amount of dollars in deployment of 
technologies or programs.
    Before we begin, I would like to point out that while S&T's 
university programs are not the main focus of this hearing, we 
should not downplay the crucial role basic research plays in a 
homeland security environment. This type of investment helps us 
gain a greater understanding of the world around us, which in 
turn affords us greater insight into how we can better provide 
disaster relief, for example, or more effectively protect our 
borders with technological advances.
    So Mr. Buswell, we look forward to your testimony. Please 
summarize your oral statement if you will, in about five 
minutes, and your entire written statement will be placed in 
the record.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Before we begin, I want to turn to the distinguished 
Ranking Member, Mr. Rogers, for his comments.

               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman. And welcome to 
Undersecretary Buswell.
    By just about anyone's measure, S&T's effectiveness or its 
ability to field technical solutions to meet our homeland 
security challenges has been mixed over the last six years.
    On the one hand, S&T has delivered some useful products, 
including the Dazzler non-lethal weapon, cyber security tools, 
and mobile biometric readers used by the Coast Guard to 
identify illegal immigrants and smuggling suspects in the 
waters off Florida and Puerto Rico.
    The Directorate has also made strides in organizational 
layout and a reasonable budget framework, including basic 
research, innovation investments, and transition to the field.
    But on the other hand, S&T has failed to deliver on what 
appear to be some straightforward technological challenges. 
Most notably, my favorite project, the container security 
device, the CSD. We have been talking about this ever since we 
formed the Department, even before. And after almost four years 
of work, S&T and CBP have utterly failed to produce a viable 
security container device that will simply tell us whether or 
not a container was tampered with in transit. It baffles me.
    In the time we have devoted to the container security 
device, our country invented the atomic bomb and sent men into 
space, achievements that should not even be mentioned in the 
same sentence as the container security device. And yet the 
device is an achievement that is still sadly out of reach.
    I have a long-held view that a workable technology solution 
exists that can provide some level of assurance for the 
integrity of in-bound cargo containers, especially in high-risk 
trade lanes. And this subcommittee has prioritized such a 
development, and yet, here we are, still waiting.
    There are also several other key homeland security 
challenges where the development of an effective technical 
solution would vastly improve operations. Whether it is a 
viable exit reader for our land ports that we have heard about 
just last week at our US-VISIT hearing, our foliage-penetrating 
radar that CBP could use to better detect unauthorized entries 
along the borders, there are plenty of problems that need 
solving.
    And that is precisely why S&T exists. I remember a time 
when we were talking about the need in Homeland Security for 
something similar to DARPA at Defense. And S&T I think really 
was a product of that conversation. And then we decided to 
create a HSARPA, a Homeland Security research group.
    I am of the firm belief that private industry holds the 
answers to technical challenges like we have talked about. So 
we need to continue probing how S&T can best access the talent 
and innovation that only resides in the commercial sector, in 
the private sector.
    As many of us can recall, we heard from CIA's venture 
capital arm last year, known as In-Q-Tel, in our hearing. And 
they made a very compelling case, I thought, for how to harness 
the ingenuity of the private sector.
    I would like to hear about your progress in doing just 
that. Because after all, S&T's success is ultimately determined 
by the products and solutions it actually delivers. Whether it 
is first responders communicating in the midst of an ice storm, 
like we saw a month ago in Kentucky, where a S&T project was 
used to establish interoperative communications from an area 
where all communications had been snuffed out--I forgot the 
name of the project--MITOC, yes, M-I-T-O-C, which is an S&T 
creation. Incidentally, coincidentally, manufactured or put 
together by the University of Louisville and Western Kentucky 
University as another product of the work of this subcommittee.
    Or it could be border patrol agents interdicting smugglers 
in Arizona. Our front-line operators are counting on the 
scientists and engineers of S&T to evaluate and deliver the 
tools that enhance their work and improve our homeland 
security.
    Mr. Chairman, thank you for the time. I look forward to our 
discussion.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Mr. Buswell, please proceed.

                  Opening Statement of Bradley Buswell

    Mr. Buswell. Good morning, Chairman Price, Ranking Member 
Rogers, and distinguished members of the committee. I am 
honored to appear before you today for the first time in my 
acting role as Undersecretary for Science and Technology, and I 
am delighted to update you on the progress and accomplishments 
of the S&T directorate in providing technological capabilities 
to our customers, the operating components of DHS, and also 
importantly, the nation's first responders.
    First, let me say that I am grateful for the immediate and 
strong leadership and support of Secretary Napolitano. From day 
one in her seat, she has been very supportive of S&T, and has 
consistently emphasized the importance of Science and 
Technology in accomplishing all of the missions of the 
Department, as has been mentioned already this morning in your 
opening statements. I value the opportunity to support that, 
and accept the accompanying responsibility.
    I am also very appreciative of the leadership of this 
Committee, and the support of the Directorate's endeavors, the 
informed counsel. There is no substitute for the informed 
counsel of Committee members and staff. And it has been 
critical to the Department's success in positioning S&T up to 
this point for accountability and tangible results, for today 
and into the future.
    The Committee is well aware of the Directorate's efforts 
over the last couple of years to reorganize its structure, its 
research portfolio, its business operations in order to 
expedite the delivery of technology to our customers. And I am 
proud to report that these efforts are taking hold, and the 
Directorate is delivering.
    We are successfully maturing our 12 Capstone Integrated 
Product Teams (IPT) that we use to identify the highest 
priority technology needs of our DHS operating components. And 
in the last month we have also added a thirteenth IPT that is 
focused on the needs of the state and local first responders, 
our nation's heroes that are out on the front lines of homeland 
security every day. We are delivering products across the 
spectrum of, across the spectrum of homeland security.
    You mentioned, Mr. Chairman, the Innovation portfolio. We 
are very proud of that portfolio, particularly because it is 
new. It began two years ago, as we started the reorganization 
of the Directorate, and it is providing exciting, innovative 
solutions to homeland security problems that are higher risk 
than the operating components are willing to take in their 
acquisition programs. But that is why we have S&T.
    We can talk about, you mentioned the Resilient Electric 
Grid, we can talk more about that. We had a recent test. We 
have a levee-strengthening and damage-mitigation technology 
that is, that will prove, I think, to be a critical component 
in levee barriers, stopping the flooding. And then things such 
as the Magnetic Visibility MAGVIZ, which is the magnetic 
resonance-based security checkpoint device that will help us 
screen liquids going on the aircraft, or any other, any other 
checkpoint situation.
    You mentioned the basic research portfolio. We are 
executing that at laboratories and universities across the 
nation and around the world, to keep that technology pipeline 
full into the future.
    So I guess in conclusion, I am looking forward to talking 
more specifically about the things that you would like to hear 
about. But I want to say that I am honored to serve with the 
talented scientists and engineers and other professionals who 
support them in this mission, to field technologies that 
protect our homeland and defend our freedom. And I am looking 
forward to continued, to continued interaction with this 
Committee and the support of the Committee in accomplishing 
those missions.
    So thank you again for the opportunity to appear, and I 
look forward to your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        RESILIENT ELECTRIC GRID

    Mr. Price. Thank you. Well, I will begin the questions, and 
we will focus initially on the innovation projects you touched 
on, and one of them in particular.
    S&T's focus with regard to its research portfolio has been 
centered on high-risk, high-reward technologies. Because of the 
high-risk element, and sometimes the high-cost element, it is 
vital that any opportunity to leverage worked by outside 
entities is taken, and that there be good coordination with 
relevant work in the public and private sector.
    Now, a good example of one of these high-impact projects is 
the Resilient Electric Grid, which you referenced. This 
technology would create a smarter and more efficient electric 
grid, less susceptible to rolling blackouts by creating a 
failsafe mechanism within the transmission infrastructure.
    A couple of questions about this project, which may 
illumine the way you operate more broadly.
    Please explain briefly what your partnership with Con 
Edison in the pilot of this project entails. What is the 
timeline for installing and testing this technology? When will 
you know if the pilots prove successful? And when could this 
capability be commercially available?
    Secondly, we have had some news reports recently that 
expressed fears that some of the automated meters and two-way 
communications and advance sensors in a smart grid 
infrastructure could be prone to hacking. So I wonder how the 
resilient electric grid project fits into the overall concept 
of smart grid technology.
    We are putting a lot of investment in this smart grid 
effort. It is a major component of the Recovery Bill that we 
passed here. I have some of this work going on in my own 
district. In many research centers around the country this work 
is proceeding, and we put great stock in it.
    But how does the resilient grid research work? And 
particularly the focus on the potential disruptions and 
catastrophes, how does that fit with the overall smart grid 
work and that concept? Does your project have any role in 
developing sensors or communications infrastructures that could 
be susceptible to a cyber attack? And if that is the case, then 
what have you been doing to leverage the general cyber security 
efforts to address the problem?
    Mr. Buswell. Well, thank you, sir, that is an excellent 
question.
    The day before yesterday I was in Oak Ridge National 
Laboratory at a demonstration of the inherently fault-limiting, 
fault-current-limiting capabilities of the Resilient Electric 
Grid.
    Now, a little bit of background on the Resilient Electric 
Grid. This is, as you said, is an HSARPA project working 
closely with industry, American Superconductor, and also the 
private sector, Con Ed, or the public utility sector, Con Ed. 
And it is a cost share. I mean, you know, cost sharing is 
essentially a third industry and two-thirds DHS.
    So the government is getting this product for two-thirds of 
the price. So I mean, that highlights, as Mr. Rogers indicated, 
the value, one of the values of the public-private 
partnerships.
    But this is a sample of the high-temperature 
superconducting cable that was tested Tuesday at Oak Ridge. And 
this size cable can carry the same amount of electricity as six 
of these bundles. So 18 of these copper cables would feed the 
same amount of electricity as this high-temperature 
superconductor.
    So you can see in locations, such as Manhattan, where we 
are looking at piloting this, that if you look under the 
streets in Manhattan, it is spaghetti. I mean, there is no room 
for 18 more of these bundles to feed the electricity, when we 
can replace it with this.
    Now, the value of the superconducting is more than just the 
compactness and the reliability. If we can connect substations 
with superconducting capability, we can mitigate the exact 
kinds of things that you are talking about in the smart grid, 
that could happen to the smart grid.
    The cyber security aside, the SCADA aspects of cyber 
security aside, which we are doing a lot of work in also, to 
make sure that the infrastructure is protected from cyber 
attacks--and I can talk about that separately--the value of 
this is to connect, for example, in this pilot two substations. 
We have a fault in one substation. The current is picked up 
through the superconducting cable between substations, and the 
loads are uninterrupted. Critically important in critical 
infrastructure applications, such as the financial district, 
that relies on power to accomplish its missions; airports. I 
mean, I cannot think of, I am sure you can think of more 
examples than I can of critical infrastructure that could be 
supported by continuous power.
    We are looking at a couple of final laboratory tests over 
the course of this year, and Con Ed is reevaluating where they 
want to install this technology. Their previously planned 
location, for a number of reasons, has, they have shifted their 
thoughts on that. So rather than the upper Manhattan site that 
they had prepared, they were prepared to install it at, they 
think that that capital improvement is going to be pushed out 
because of the electricity demand in that area. So they are 
looking at a lower Manhattan application. And we expect to have 
that installed in the next 18 months. And we will know at that 
point whether it is successful or not.
    So this is a really exciting one. And this highlights the 
importance of basic research, as well. This technology began 20 
years before there was a Department of Homeland Security, with 
the Department of Energy investment in superconducting.
    Mr. Price. With the basic research taking place at Oak 
Ridge.
    Mr. Buswell. Exactly. And other places. But yes, sir, this 
was Department of Energy basic research on superconducting, for 
reliability purposes, that we are taking advantage of for 
homeland security applications, to keep critical infrastructure 
powered in the event of natural or manmade disasters.
    So I think it is, you know, this is a classic example of 
taking some research that is on the shelf, or has been funded 
by other agencies; applying it to homeland security situations; 
and providing increased protection for the critical 
infrastructure and for the American people.
    Mr. Price. Thank you. Mr. Rogers.

                       ENGAGE THE PRIVATE SECTOR

    Mr. Rogers. Interesting discussion. I think what we are 
trying to get at here at the hearing, among other things, as 
well as your budget, is how can we engage the private sector in 
the ingenuity that resides out there, to match that up with the 
intellectual firepower in our research universities and 
research labs and so on? And all the while, try to develop an 
answer to a problem that we have to solve. And in the process, 
spin off some jobs, producing these products that are being 
developed?
    One innovative way that is working is something that you 
started three or four years ago. We put together in Kentucky a 
consortium of all universities and colleges, and asked S&T what 
the laboratories and scientists that they have on board might 
be able to tackle. And out of that came a great host of 
problems that you wanted solved.
    And you matched up the research capabilities on those 
campuses with the problem that you wanted solved. And out of 
that have come these research projects. And from those 
projects, for example, I mentioned briefly the MITOC, the 
Manned Portable Interoperable Tactical Operations Center, which 
is a mobile unit that was sent to Kentucky during the bad ice 
storm we had a month ago, where all of the communications were 
shut down. The Governor could not communicate in or out of any 
of the towns, practically the whole state.
    And the MITOC van, packed with its gear, was sent in, and 
established interoperable communications between the state and 
local, and between locals and each other, and saved the day. 
And that was a product of one of those research programs; 
University of Louisville and one other university produced that 
product.
    Now it is being commercialized. And the manufacturer, small 
companies are beginning to hire people to make the product.
    Another, for example, is something as simple, how do we 
protect the raw milk from being contaminated between the milk 
barn and the processing plant? And we learned in China that 
that could be a very deadly problem.
    And the University of Kentucky and Western Kentucky 
University put together a project, which I happened to look at 
a while back, now being commercialized, which establishes a 
way, utilizing a central communications checkpoint on computer 
consolidation, to keep track of that milk from milk barn to 
processing plant. And it is a pretty good link to the fix. That 
was an S&T project through this university research program.
    I think it is an innovative way, and there are many others. 
But the main idea, of course, is to employ the intellectual 
firepower that we have on the campuses with the brainpower out 
there in the private sector, and harness that energy towards 
the goals that you want. Much like we did in World War II, 
where we came from nowhere, with nothing; and within four 
years, was the world's superpower, and defeated two major axes 
around the world.
    I think we are really being slow these days. We are not 
doing that now as we could and should. And that is why we have 
you.
    Did you hear the In-Q-Tel hearing last year?
    Mr. Buswell. I did. I was here.
    Mr. Rogers. Is that a workable model? In-Q-Tel has been 
able to, as an arm of the intelligence community, I think 
pretty well interact with the private sector and the college 
sector, research sector. And the private sector, to develop 
jobs. Is that a good model?
    Mr. Buswell. It seems to work for the intelligence 
community. We are not sure. And so what we have done is TSA has 
initiated a contract with In-Q-Tel to test whether or not this 
actually works for the Department of Homeland Security. So TSA 
has committed some funding, I believe it is about $5 million, 
to In-Q-Tel; has highlighted some areas that they would like 
In-Q-Tel to investigate for them. And we will see whether or 
not we get results.
    I am hopeful. But let me talk a little bit about the model 
that we have in place. And you are absolutely right. The metric 
of success is deployment of technology into use. I mean, that 
is the end, that is the end state.
    The earlier we can get the private sector involved in that 
process, the better, because we do not manufacture things. The 
private sector manufactures things.
    And so when public-private partnerships are a win-win-win 
for DHS, the private sector, and the taxpayer. You get faster 
speed of execution with the private sector, I believe. 
Obviously you create jobs and revenue through the production of 
valuable products that can then be sold in the market. And 
under certain circumstances, we can actually leverage research 
and development dollars in the private sector for homeland 
security applications.
    This is our first connection with the private sector. This 
is the output of our 12 capstone IPTs, the high-priority 
technology needs. And each one of the IPTs lists 12 or so areas 
that they are interested in, or problems that have been 
identified by our customers. When we first published this, you 
know, I got a lot of phone calls saying are you crazy? You are 
telling everyone what we are worried about here.
    But I went back to my, to a lesson I learned as a young 
submarine officer, where an old-time Captain--I mean, this guy 
was really old, he was probably 45--was teaching me how to do a 
traditional periscope approach and attack on a surface ship. 
And he looked over at Seaman Diller--and I will never forget 
Seaman Diller. He was from Snow Camp, North Carolina. May be in 
your district, I am not even sure. I did not think about that.
    Mr. Price. Pretty close.
    Mr. Buswell. But I will tell you, you know, it stuck with 
me, Seaman Diller from Snow Camp. But he was a fathometer 
operator. I mean, all he did was do the sounding and make sure 
the ship did not run aground.
    And the Captain pointed at him, and he said, does Seaman 
Diller know your attack plan? I said, Captain, does everybody 
have to know my attack plan? And he said, well, only if you 
want it executed.
    So here is our attack plan. And we want as many people, we 
want everyone, or as many people as possible, involved in the 
execution.
    So how do they do that? If I am in industry and I have an 
idea of how I can solve one of these high-priority technology 
needs, what do I do? We have got a long-range Broad Agency 
Announcement out; they can come in with white papers. We have 
received, we received over 300 white papers last year. And we 
are still in the process of evaluating them, because a lot of 
them came in late in the year.
    But we have asked for 41 full proposals out of that white 
paper process. And we have received those, and we have funded 
27 of those. So we are identifying private sector capabilities 
to close our capability gaps.
    I will also mention, you know, the other aspect of our 
outreach is this five-year research and development plan. We 
tell everyone what we are going to be interested in doing 
research and development on in the next five years, so that 
they can make appropriate internal investment in their 
capabilities, and they can plan to support us when we are ready 
to go out with those, you know, with those solicitations over 
the next five years.
    I believe Undersecretary Cohen mentioned the 
commercialization project that we started last year. Dr. Tom 
Celucci, who is a laser physicist by trade, has led the 
Directorate's relationship with business, and he has got the 
specific goal of rapidly commercializing products. He is 
committed to the outreach he needs with dozens of businesses. 
He has compiled a portfolio of about 300 businesses, with 2,000 
technologies that are mapped to these capability gaps, that 
program managers can go to as they are planning their programs, 
and see what industry is already doing. And they are using that 
to good effect.
    We have also got the SECURE program, System Efficacy 
through Commercialization Utilization Relevance and Evaluation. 
You do not have a good acronym, you do not have a good program. 
But SECURE is, the idea there is if you tell industry what you 
need, and you tell them what a reasonable conservative estimate 
of the market would be, they will invest their own research and 
development dollars in order to, in order to solve those 
problems.
    Let me give you an example of how this has worked so far. 
We have, we got a demand from--this came out of some meetings 
that Secretary Chertoff had last summer with first responders. 
They felt like they needed a forensic camera that was capable 
of withstanding a blast, you know, for reconstruction and for 
law enforcement.
    So in June of last year we put out an Operational 
Requirements Document. We published this Operational 
Requirements Document on the web. Over the next three months we 
got 25-plus responses from companies that were interested in 
providing a forensic camera. Most of those dropped out when 
they found that we were not going to fund that; that we were 
just highlighting a market and a capability need.
    But a couple companies got it. And we have two examples 
here, two prototype examples that came in. And this is another. 
By December we had these prototypes in hand. In February at 
Aberdeen, we blew up a bus with these cameras installed in it, 
and we are evaluating the capability of those cameras to 
withstand the blast and to maintain the data, the visual data, 
on those, on what happened on that bus.
    So by July we will do, we will have that evaluated. If 
there are corrections that need to be made to these 
technologies, we will highlight those. TSA has committed to a 
pilot program to buy a number of these things, install them on 
buses, light rail, subways, and the infrastructure surrounding 
those kinds of things. And we expect that this will be a market 
release by fall. So that is an example of the commercialization 
effort, and it is functional.
    Mr. Price. Thank you, sir. Mr. Rodriguez.

              NON-FLAMMABLE GASOLINE AND LEVEE BREAK FIXES

    Mr. Rodriguez. Thank you very much. And I guess, similar to 
the Minority leader, I think he was talking about some of the 
projects in his area, and you were talking about how do we get 
something that is out there to the public as quickly as 
possible.
    I know we at Southwest Research have produced a gasoline. 
In Iraq, whenever the explosions occur on the vehicles, the 
soldiers sometimes do not get killed, but they burn to death. 
And this is a gasoline that basically, when you hit it, it does 
not burn.
    How do we move that along as quickly as possible? Or the 
project that you have here? I just had a levee break in 
Presidio, and 500 people got displaced. How do we get that item 
that you have there to hold up the water, you know, as quickly 
as possible?
    Mr. Buswell. Well, the levee breach tool is just finishing. 
We have done a quarter-scale demonstration of that, and we are 
ready to do a full-scale.
    And in parallel with that, we are holding meetings with 
emergency managers. We had a conference in New Orleans about a 
month ago to address that.
    What is the business plan? Who is going to buy these? Where 
are we going to store them? How do we get them where we need 
them in a timely way? And you know, are there staging areas 
around the country? So we are trying to solve that problem with 
the state and local governments. Again, this is really 
important that we, you know, not just demonstrate this 
technology, but we come up with a way to get it out there.

               VEHICLE-BORNE IMPROVISED EXPLOSIVE DEVICES

    Mr. Rodriguez. This was actually the dams on the Mexican 
side release water, and it did not even rain. That is what 
flooded our community. And so it is going to happen again. And 
so it is just a matter in terms of how to best do that. At 
least I know about that one now.
    Let me ask you also, you mentioned the blast. We have 
research in the Pecos area where they have, in Iraq they were 
looking at the buses that were coming, well, the trucks that 
were coming in, exploding. And as the people came in, they ran 
a second one through there, and they were doing some of that 
research, also, you know. And you mentioned that explosive 
device in terms of areas that, as they do those studies, once 
again, how do we get it from there? And you mentioned the 
booklet that you have there, and people who get the 
information. That is critical for the communities to get it.
    I have ports of entry, and if they do the same thing 
there--send a truck, and explode, and then as people come and 
gather they send a second one and explode again and kill a lot 
more people, you know. And then how do we react to that? And 
how do we deal with that?
    I think we talked about, yesterday in that other hearing 
regarding something that, you know, the problem we had with the 
Inaugural here, how do we respond to situations like that with 
the research that we have?
    Mr. Buswell. Well, I think the fundamental question is, and 
this is the purpose of our thirteenth integrated product team, 
where we are bringing in the state and local first responders 
to highlight these kinds of issues for us. And by connections 
through associations, the National Sheriffs' Association, the 
International Association of Chiefs of Police, Fire Chiefs, 
National Sheriffs' Association, and individual first responder 
leaders around the country. We are bringing those people 
together to inform this thirteenth integrated product team.
    And that is a two-way, that is two-way communication. That 
is not, you know, we are not taking their information without 
feedback. We had a conference in Bellevue, Washington, at the 
end of February, where we brought together the first responder 
community. And they highlighted these very kind of issues. I 
mean, they gave us their top five, and we went off to work on 
them.
    And one of the ones was the exact scenario that you 
highlighted: these vehicle-borne improvised explosive devices. 
And they highlighted the same issue that you are talking about.
    We need to know what technology is in the pipeline so we 
can plan our concepts of operation, and we can plan our, you 
know, our procurement of these items. Because we cannot afford 
to bear inventory on items that we are not going to use every 
day.
    Mr. Rodriguez. Not only that, but nothing is worth having 
the technology and having the research, and not having it 
implemented when the need is there because no one is aware of 
it, or we are not sure how to pull it off. So the strategic 
plan is how to get that technology out there.
    Mr. Buswell. And we have to create some creative, I think, 
approaches to, you know, pooling these kinds of resources 
among, among communities, among states.
    Mr. Rodriguez. And in that line, I know the Chairman talked 
a little bit in terms of the technology that is being devised 
from a cyber perspective. How do we make sure that people do 
not mess with it? I would hope you stay on top of that. And I 
know my time is over.
    Mr. Price. I am going to return to that in my next round of 
questioning, let our witness pick up on that.
    All right, Mr. Carter.

                        LIST OF CAPABILITY NEEDS

    Mr. Carter. Thank you, Mr. Chairman. And thank you for 
being here.
    You have got an interesting job. Looking at your two 
publications that you just showed us, one of them is I guess a 
short-range plan, and one of them is a long-range plan.
    Mr. Buswell. Sort of. One of them is really a list of 
capability needs. These are the capabilities that our 
customers, the operating components of homeland security, and 
we will add to this year the thirteenth page, the first 
responder needs; and the other is our long-range funding 
profile, our milestones, the kinds of things that we think we 
are going to be delivering, and the things that we are going to 
start over the next five years.

                     PRIORITIZATION OF S&T EFFORTS

    Mr. Carter. Well, now, is that, that first plan, is that 
with input from the various departments? Because one of the 
things that I have a question about is how you prioritize on 
where you put your Science and Technology efforts, when you 
have got so many hats in this particular agency?
    Mr. Buswell. Right.
    Mr. Carter. And is that part of the prioritization formula 
that you work with?
    Mr. Buswell. It is. Let me talk about that a little bit. I 
think you have in front of you the 13 IPTs, right?
    Each one of those, as you can see, is led by an operating 
component. So that at the top of each one of those diamonds is 
the lead or the co-lead of each of those, of each of those 
IPTs. And they tell us, it comes straight from them, what their 
priorities are.
    Now, once that is compiled, once we have offered projects 
that close those capability gaps, then we take it to the 
Technology Oversight Group. The Technology Oversight Group is 
chaired by the Deputy Secretary of the Department; that 
includes the Undersecretary for Management, because that 
position is responsible for overseeing the acquisition of all 
of the components. And it does not mean anything unless the 
components acquire the technology.
    And so the Undersecretary for Management is involved, and 
also the Undersecretary for NPPD, because of the broad 
preparedness aspect.
    So that allows the Deputy Secretary insight into what the 
components are and have highlighted as their top priorities, 
and allows trades to be made across there. Perhaps the first 
unfunded priority in one of the IPTs is more important than one 
of the other funded priorities in the other IPT, and we can 
make those adjustments in where the funding goes at that point. 
And that is done as part of the budget preparation.
    Mr. Carter. So they basically say we need something to find 
X, anthrax. But they do not say how they want it to work. And 
you go over and put it out and say, okay, who has got a great 
idea on how to find anthrax?
    Mr. Buswell. And we specifically want them to not tell us 
how to do this, because we want them to be highlighting 
capability needs, not capability solutions. Because part of our 
job is to look at the tradeoff among technologies and find out 
the best combination of ways to accomplish the mission that 
they have highlighted as----

                   SECURITY OF CAPABILITY INFORMATION

    Mr. Carter. And I understand your battle plan idea, and you 
gave a good example of that. But the question I would have is, 
are there going to be things that are in that request that are 
going to be things that you can keep secure? Ideas that you 
need to, in other words, they are not for publication?
    Mr. Buswell. If you read this, this is a teaser. When you 
get to the, when you get to the real fundamental operational 
requirements, in some cases, yes. Those will be sensitive to 
the point where we will not be publishing those, other than in 
a, you know, a closed forum.
    But most of our work is unclassified. I mean, it really is, 
we really are looking at unclassified kinds of things, because 
of the people that are going to have to use it. If you are 
going to distribute these things en masse to border patrol 
agents, TSOs, cops on the beat, firemen, you cannot be worried 
about security clearances for all of those people. We have to 
put together technologies that, you know, that can be used en 
masse. So we try to keep it unclassified.
    Mr. Carter. If I am running out of time, tell me. Would 
this go clear to the idea of satellite locations over borders 
and stuff like that?
    Mr. Buswell. I will have to go back and--I do not know, I 
will be honest with you. I will take that one for the record. I 
am not sure what we have got as far as using satellites for 
those kinds of things. I will have to----
    Mr. Carter. I will have that question----
    Mr. Buswell. Yes, I am just not sure what programs that 
we--we are not funding any Science and Technology, any 
satellite Science and Technology programs. But I am not sure 
what the Department has in place. So I will find that out and 
get back to you.
    [The information follows:]

    Question. Would S&T share the location of satellites over the 
border with State and local jurisdictions?
    Response. The Science and Technology Directorate (S&T) does not 
have any satellite programs.

    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Farr.

                CALIFORNIA HOMELAND SECURITY CONSORTIUM

    Mr. Farr. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    I think that what we are experiencing on the civilian side 
is essentially what has been there, and we have not had much 
exposure to it on the military side, because a lot of these 
military technologies were not needed domestically. And now we 
are needing lots of, you know, lots of questions are being 
asked.
    My specific question follows up on Mr. Rogers's issues 
about how to best--I mean, here we have sort of federal 
government needs. And with those needs we have buying power, 
and so everybody will rush to sell us something.
    And it seems to me, one, you need to be coordinated in not 
just the federal community, but in the state community and 
local community, as well. You need to build these consortiums, 
which you have done.
    I know we have one out in California, the California 
Homeland Security Consortium, which is a partnership of 23 
academic, federal, state, and local government organizations 
and private sector firms, who are conducting approved field 
experiments in maritime security, cyber security, and critical 
infrastructure protection.
    And we house that in the Naval Post-Graduate School in 
Monterey. And I wonder if you intend to continue to use S&T 
expertise of that Homeland Security Consortium at the Naval 
Post-Graduate School for solutions on homeland security 
problems, like those in the maritime security and cyber 
security and critical infrastructure protection.
    Mr. Buswell. Yes, sir, thank you for that question. We are. 
We have got a strong relationship with the Naval Post-Graduate 
School. We started a program two years ago to look at funding 
PhD students from Homeland Security at the Post-Graduate 
School. The idea was let us look at homeland security 
technology experts, not just in the Science and Technology 
Directorate, and specifically not in the Science and Technology 
Directorate, but across the Department. And see, you know, how 
would the Department benefit by some high-level education of 
those folks.
    It did not work. We could not get volunteers to do that, 
and we could not--the components were essentially nonsupportive 
of the idea.
    So we are now re-wickering that into something that might 
be more workable. It could be a Master's program that we are 
going to do at Post-Graduate School. But I am going out there 
with some of my team early in April to meet with the Provost 
and the President of the Post-Graduate School to see how we can 
best do that.
    On the research side, this consortium that you mentioned is 
very interesting to us, especially in our new emphasis on first 
responder and emergency management capability across, across 
the country.
    Monterey, with the Post-Graduate School, is a unique, has a 
unique position, I think to be an important pilot program for 
those kinds of things. The local government has identified some 
things that they are concerned about, and we are going to go 
and meet with them also, and see what we can do with the 
research capabilities of the Post-Graduate School. With the 
understanding that the students there who, you know, many of 
whom have just returned from Iraq, Afghanistan, and have 
operational experience in managing crises and understanding the 
kinds of things that make people, make people want to do bad 
things.
    And we are going to use that as much as we can to run this 
pilot in Monterey. And I think, I am excited about it. I think 
it is going to be successful.

                        LIQUID DETECTION EFFORTS

    Mr. Farr. One question. I go through TSA every week. How 
come, if we are so smart, we cannot take a bottle of water on 
board? You can take it on board, you just have to buy it inside 
the circle.
    Mr. Buswell. I think it might be, I think there might be a 
conspiracy there among the water manufacturers, but I am not 
sure. [Laughter.]
    Mr. Farr. Well, it has also to do with cosmetics and things 
like that.
    Mr. Buswell. Exactly.
    Mr. Farr. We heard, I heard that the technology is going to 
be able to, very quickly be able to not have to dump all that 
stuff; to be able to run it through screening.
    Mr. Buswell. I think that is right. We are looking at--the 
existing technology that TSA is using in their Advanced 
Technology X-Ray Program we believe has the capability, with 
the right algorithm and software combinations, to identify 
liquids. To be able to tell you this is a liquid that is of 
concern, that this is a liquid that we do not know what it is, 
and that this is a liquid that is okay to go.
    We are not there yet. But we are doing a lot of evaluation 
at the Transportation Security Lab on new algorithms. We are 
preparing data packages that then we are providing to vendors 
that they can use in developing algorithms, and I think we are, 
we are going to get there.
    In parallel, one of the things that we are doing is, in the 
innovation portfolio we are looking at, I mentioned MAGVIZ. It 
is a magnetic resonance capability. It works off of really 
medical kinds of magnetic resonance, where it will identify 
what a liquid is. And we are looking at--we have proven that it 
can do that. Now what we are looking at is, how do you display 
that to a TSO.
    And you know, what we would like to do is be able to say 
this liquid is okay, it comes through on their screen as green. 
This one is a problem; you can make a homemade explosive out of 
this liquid, so we are not going to allow this on the plane. It 
shows up as red. This one, we are not sure what it is; it is 
not in our portfolio, it is not in our library of liquids, so 
it comes up as yellow and will require additional screening.
    But we demonstrated that at the Albuquerque Airport this 
last year, and it was successful. So, and that is being run out 
of Los Alamos National Laboratory, and has a private partner--
private sector partner, also.
    So we have got a product possibility there.
    Mr. Price. Thank you very much. Mr. Culberson.

                       PRIVATE SECTOR INVOLVEMENT

    Mr. Culberson. Thank you, Mr. Chairman. Thank you very much 
for your testimony today.
    I would like to ask Mr. Buswell about any unobligated 
balances in the past that agencies had. It has been my 
impression, and I know you are new on the job, and in previous 
years on the committee I have been frankly disturbed about the 
amount of money that has been spent in the Agency without a lot 
of tangible result. And I know you are working hard to correct 
that.
    The private sector, of course, I would like, if I could, to 
first of all ask about, could you explain for the committee, 
give us a little better idea about how you are using 
competition and allowing the private sector to compete in a way 
that is objective and peer-reviewed, to ensure that the Agency 
is acquiring the very best technology at the very best price to 
the taxpayer? Remembering that we face record debt and deficit. 
I am sure you have got kids; we are all concerned, we want to 
make sure that every dollar we spend is spent wisely.
    Mr. Buswell. Absolutely right. Okay, let me start from the 
beginning of the process to the point where if we have an idea 
for a project, the first thing that the program managers do is 
thorough market research, i.e. what is already being done? What 
can we leverage that is already existing, or is getting us to 
the point where we have a jumping-off point that is not 
creating something out of whole cloth? So that is the first 
thing.
    And then they look at, they do an analysis of alternatives 
as to how we can go about that. Is it best done at a national 
laboratory? Is it best done in the private sector? Is it best 
done at a university? And that is reviewed by the supervisory 
level within the Directorate.
    After that, once a decision has been made and our Office of 
Procurement Operations agrees that the approach is fair and is 
the best approach for, for the acquisition, we go----
    Mr. Culberson. That is what I want to zero in on, is the 
decision. Who makes the decision, and how do you ensure that 
you are getting the best value for the dollar in a way that is 
objective and peer-reviewed?
    Mr. Buswell. Well, the peer review, the analysis of 
alternatives is done by the program manager and reviewed by 
their supervisor. So we have division heads across the 
Directorate, six division heads who are senior executive level, 
and look at the analysis that was done for reasonableness. Is 
this a fair and reasonable approach to executing this program?
    We get an independent look at that by a contracting 
officer, who also looks to see yes, does this, you know, does 
this meet the criteria of fair and reasonable.
    And quite honestly, we do about 20% of our funding through 
inter-agency agreements with DOE labs, and about 45% is done 
competitively in industry. So the others, some are 
universities, and some are other federal agencies.
    But the real question becomes where do you get the best 
value for the taxpayer dollar. And is that done by an inter-
agency agreement with a national lab or another federal 
partner, or is that best done competitively.
    My personal opinion is competition is always good. So if 
you can go to a competitive, you know, competitive award, you 
are always going to get the best value.
    Mr. Culberson. It seems it is ultimately up to a single 
procurement officer, with a second opinion from, as you said, 
a----
    Mr. Buswell. It is not a procurement officer. They are a 
technical expert, they are a subject matter expert on that 
particular technology. They make a recommendation to their 
boss; their boss then says yes, that makes sense to me. And 
then on the procurement side, they look at it for fair and 
reasonable, for a fair and reasonable assessment.

                            UNEXPENDED FUNDS

    Mr. Culberson. And money that you do not spend, it rolls 
over to the next year?
    Mr. Buswell. Sometimes we have an unobligated balance at 
the end of the year. We have had that. It has been shrinking 
over the last couple of years, and we have been really focused 
on getting money out the door, because nothing happens until, 
you know, until we have got money on contract.
    But that carries over into the next year, and we execute 
that, as well.
    Mr. Culberson. Forgive me if this has already been asked, 
Mr. Chairman. I have got two subcommittee hearings right on top 
of each other, so I was running a little behind.
    But their committee instructed the Science and Technology 
Office to report back to us and tell us what you have been 
doing to attempt to reduce a significant amount of unextended 
obligations in your R&D accounts.
    Have you already submitted that report to the committee? 
There was one report due at the first quarter of Fiscal Year 
2009.
    Mr. Buswell. Is this the contracting----
    Mr. Culberson. The first quarterly brief to the 
subcommittee should occur after the close of the first quarter 
of Fiscal Year 2009.
    Mr. Buswell. I will have to check. Two weeks, I am being 
told by my CFO, is the first one. So, that is right.
    Mr. Culberson. And of course, we do not want you just 
shoveling money out the door. I will tell you, my impression is 
that over the years, that you have probably spent about $6 
billion since the creation of the Homeland Security Department.
    When I first got on the subcommittee, I was dumbfounded 
that you did not have any products that you could even show for 
all the money that the taxpayers are invested. And you have got 
to remember, the P. Peterson Foundation headed up by David 
Walker estimates that every living American would have to write 
a check for about $180,000 apiece to pay off existing unfunded 
liabilities of the United States. And that was as of last 
March; it has gotten a lot worse.
    So it is very important that the money be spent wisely.
    Mr. Buswell. Absolutely right. But it is also important, 
and it is important that we get it spent wisely in a timely 
manner. Because we do not get any technologies until we, until 
we start getting that money on contract.
    I am committed to the best value for the taxpayer dollars, 
without question. And that is, you know, that is unequivocal.
    But I want to make sure--and I also want to say that I am 
working really hard with the Office of Procurement Operations 
that reports to the Undersecretary for Management to make sure 
that we are doing these things the right way and we are doing 
them in a timely way.
    Mr. Culberson. But will the report that you are going to 
give the committee in two weeks also talk to us about making 
sure the money that you have spent has been spent effectively?
    Mr. Buswell. I do not know. Is that part of it?
    No, that is not part of it. We will explain the obligation 
to spend under policies balanced by an extended budget.
    Mr. Culberson. If you are only telling us that you have got 
it spent. Thank you, Mr. Chairman.

              RESILIENT GRID PROJECT CYBER VULNERABILITIES

    Mr. Price. Thank you. Mr. Buswell, I want to return 
briefly, and you can elaborate on this for the record if you 
wish, because I have another question I want to get to, and I 
think we are going to face some Floor votes here before too 
long.
    But I do want to give you a chance to respond further to 
the earlier questions about the resilient electric grid project 
and the vulnerabilities of the smart grid technology. That is, 
the cyber aspect, which you had referred to, but not really 
elaborated.
    Mr. Buswell. Right.
    Mr. Price. What are these vulnerabilities, as you can 
briefly assess them? And how is the resilient grid project 
addressing the cyber aspect?
    Mr. Buswell. I am not an expert on cyber security, and I 
did not stay at a Holiday Inn Express last night. So we will 
get you, I will get you a full answer on the smart grid 
aspects.
    [The information follows:]

    Question. What are the cyber security vulnerabilities of REG? How 
is the REG project addressing cyber security aspects?
    Response. The REG technology is uniquely resistant to the 
vulnerabilities that make the existing power transmission technology 
susceptible to cascading power failures due to natural or manmade 
events which include cyber attacks. The current limiting nature of the 
REG technology reduces a power grid's vulnerability to cyber attacks 
and would allow existing and future power grids to be designed to 
mitigate the impact of cyber attacks.

    But let me just tell you some of the things that we are 
doing, because the cyber security is a critical part of our 
portfolio.

                          DOMAIN NAME SECURITY

    And it all starts with some of this domain-name system 
security. In other words, you know, the @.org kind of, .gov 
types of things. Are we sure, when we go to those kinds of 
websites or we are taking things from those kinds of websites, 
that it is who they really say they are. And that is one of the 
things that our cyber security folks are heavily involved in. 
The secure signer effort, you know, those kinds of things.
    So the first part of, or the first aspect of cyber security 
is making sure that the person that you think you are talking 
to on the internet is actually who they say they are. And we 
are working hard on that.
    We have actually delivered a couple of things. The Root kit 
detection technology, which looks at malicious software 
programs to take control of a computer operating system, which 
could be the kind of thing that you are talking about in a 
systems control application. In other words, can we take 
control of the electric grid operating system, and do nefarious 
things with that?
    That root kit detection and mitigation technology has been 
developed. It was developed by a company in Maryland, and has 
been bought by MicroSoft. So MicroSoft is now incorporating 
that into their operating systems.
    There is another similar active malware protection system 
that, again, increased security and reliability of the 
computers, that could be used to operate critical 
infrastructure. That has been, that was developed by a company 
in Virginia called Endeavor Systems, and has been purchased by 
McAfee. And they are incorporating that into their, into their 
security system.
    So we have done a lot of work on cyber security at large, 
much of which applies to the security of critical 
infrastructure and the operating systems that go with that.
    Mr. Price. Well, we would welcome a further submission on--
--
    Mr. Buswell. Absolutely.
    Mr. Price [continuing]. The way you are leveraging these 
general cyber security efforts to apply in particular to the 
electric grid.
    [The information follows:]

    Question. How is S&T leveraging its general cyber security efforts 
to apply in particular to the electric grid?
    Response. S&T is conducting R&D to improve security for process 
control systems (PCS). PCSs control water supply, electrical power, gas 
and oil pipelines, and other distributed processes. The R&D seeks to 
advance interoperability with existing PCS systems. This 
interoperability will allow PCS systems to easily integrate new 
products into existing systems and enhance information sharing within 
the critical infrastructure sectors using PCS.

    Mr. Buswell. Happy to do that. Yes, sir.

                        NBAF SAFETY ON MAINLAND

    Mr. Price. Let me turn now to the National Bio- and Agro-
Defense facility. Manhattan, Kansas, as you know, has been 
designated as the site for construction of NBAF. This follows 
the December publication of the NBAF final environmental impact 
statement or risk assessment.
    Obviously, we take this risk assessment very seriously. The 
prospect of bringing such a highly infectious disease as Foot-
and-Mouth to the United States mainland requires DHS to be very 
careful and deliberate; and the GAO, as you well know, has 
underlined that challenge in a report which we took careful 
note of in our last year's bill.
    We restricted any funds for being obligated for 
construction of the NBAF, until the GAO had reviewed the DHS's 
risk assessment, in light of their earlier findings.
    I understand that GAO work is ongoing with the Department, 
and that the DIS will be supplemented by such further 
information as they may need to, to reach a completion of the 
safety of doing this research on the mainland.
    Let me just ask you, if the GAO finds that this 
environmental impact statement does not support DHS's 
conclusion that foot-and-mouth work can be done as safely on 
the mainland as it can on Plum Island, on an island location, 
how would you proceed concerning that research? And then I am 
interested, of course, in what kind of additional information 
you may think, you think may be necessary to determine the 
additional environmental, economic, security costs of a 
mainland site, as opposed to the island site?
    Mr. Buswell. The first part of the question, what would we 
do, I am not in a position to answer that question at this 
point. I will go back and get you an Administration position on 
that.
    [The information follows:]

    Question. Administration position on NBAF choices should GAO 
recommend not building NBAF on the mainland?
    Response. DHS appreciates the value of the GAO independent review 
of the NBAF Environmental Impact Statement risk assessment, and, once 
complete, will take the results of the GAO review into account in NBAF 
planning.

    But as for the second part, I think we would not have 
selected Manhattan, Kansas as the site if we did not believe 
that there was sufficient work done to, for us to believe that 
that was a safe place to do it.
    There are, we have to remember that Plum Island was built 
over 50 years ago. In the last 50 years, there has been a lot 
of bio-safety improvements done, and we handle a lot of nasty 
things in bio-security Lab 3 and 4, laboratories on the 
mainland. And we know how to do this safely.
    And I am confident that the design, the operating 
procedures that we have put in place for NBAF will be 
successful. And we can, we can expect to succeed in protecting 
our agriculture from an inadvertent release of some of these 
diseases that could be devastating.
    Mr. Price. Well, we are aware that that is your conclusion. 
And of course, up to a point, that is reassuring. But we are 
looking for much more, as is the GAO, than simply an assertion, 
in this regard.
    And we are going to have to have, I think, the kind of 
scrutiny of this that it deserves. And so we will look forward 
to seeing this matter worked on diligently, and resolved within 
a reasonable timeframe.
    Mr. Buswell. And we will be as open-kimono with the GAO as 
we can be. There are no secrets here. We will lay out to them 
exactly the research that was done, and the work that was done 
that allowed us to draw the conclusion that this was a safe 
place to site NBAF.

                        INFORMATION AVAILABILITY

    Mr. Rogers. As you have said, most of what you do is 
unclassified. And yet, we know that al Qaeda and others hack 
into our systems all the while, to find the vulnerabilities 
that we have. They do not need to be very diligent, because we 
print it in our publications, and it is on the web, and so on. 
And by necessity, you have to do this kind of work in order to 
get the private sector involved, among others.
    Where is the happy medium here? Is there a way to do what 
we need to do, and yet not educate our enemies?
    Mr. Buswell. Absolutely. I think, you know, as I said, if 
you look at this, this is a teaser. This does not tell you the 
level of detail that you would need to plan and conduct an 
attack on, on any one of these areas relevant to homeland 
security.
    Mr. Rogers. But it does tell you where we are weak, and 
where we have an Achilles heel.
    Mr. Buswell. It tells you the areas that we are, that we 
are focused on, and where we think we need to improve, that is 
right. To the extent--and these are areas that we would like 
technology to help us in.
    That is not to say that we have a vulnerability. We may be 
compensating with that vulnerability, for that vulnerability in 
other ways with additional manpower, with additional operating 
procedures that we could then avoid if we had technology that 
helped us.
    So this is technology. And I, you know, I am very 
comfortable with the level of detail that we are going to here.
    Now, when we get into some of the projects where we are 
looking at, you know, I gave the example of the homemade 
explosives, the liquids. The kinds of liquids that we are 
looking for, the amounts that we want to be able to detect, 
those sorts of details are the kinds of things that we do not 
want to publicize, and we will not publicize. We will keep 
those as secure with the vendors only, with vendors that can 
work with classified information.

                       CONTAINER SECURITY DEVICES

    Mr. Rogers. Now, let me ask you about the container 
security devices. We have been at this for how many years, four 
or five years, just at S&T. And I am told now that you are 
looking at an advanced container security device. Tell me what 
is going on.
    Mr. Buswell. Let me talk about container security sort of 
writ large here.
    One aspect of container security is a container security 
device. That would be a device that would lock the doors of a 
container, and would tell us if the doors were unlocked. That 
is one aspect of container security.
    That would not tell us if somebody came into the side of a 
container. It would not tell us if something was in the 
container to begin with. So we are looking at all of those 
kinds of aspects of container security.
    Let me talk about a couple of things that we are doing. We 
have a program where we are looking at--and let me also say 
that this container security technology and policy is all 
intertwined. And I think some of the, some of the non-progress 
that may have occurred early on in this program, before the 
last couple of years, really had to do with the hand-wringing 
over the policy versus the technology.
    And what we decided to do is, look, if we provide the 
technology, it gives us, it allows us to start the policy 
discussions up here. Where if we do not have any technology, we 
are talking about policy discussions way down here.
    So let me talk about--and there also has to be, without 
regulation there has to be a voluntary reason for shippers to 
do this. So they have to have some value added to implementing 
these technologies.
    We are looking at a hybrid composite container, for 
example. Fifteen percent lighter than the steel containers, we 
can embed sensors in the walls of these containers that will 
tell us if the container has been breached. We can put sensors 
in the containers that will tell us if there is something 
nefarious in the container. And we are working on those 
sensors, as well.
    So we are looking at connecting that to the Marine Asset 
Tracking Tag system that we are demonstrating right now between 
Yokohama, Japan, and the U.S. We have got a number of these 
things that are wireless and can communicate the status of the 
container across multiple bands: satellite, wireless, WiFi, 
cell phone, real time. So it will tell you this container has 
been opened, real time.
    We are looking at the Advanced Container Security Device. 
And we are still working on the Container Security Device, and 
we think that we will have the testing done on that. We have 
got two vendors that have come in, and we will complete the 
testing of that by the end of this calendar year. And it will 
be available for market shortly thereafter.
    But we still get back to the policy. Why should someone use 
this? It has to be of value to them. So if we can help them 
with their cargo-tracking capabilities; if not only is it 
telling you that this container is secure, but it is also 
telling you where your container is; those are of interest to 
shippers. Those kinds of things are of interest to shippers.
    Mr. Rogers. Have you asked, just ask UPS to tell you how 
they do it?
    Mr. Buswell. No, UPS and FedEx are really good at it. 
Walmart is really good at it. But they are not international, 
but they are not working in the volumes that we are talking 
about, and they are not working in the security environment 
that we are talking about. So there is some work to be done.
    We think we are going to get there, but we have to work 
with CBP on the policy aspects of this in parallel with the 
technology development. Because the technology, you know, as we 
have said several times already in this forum, technology 
without implementation is of no use.
    Mr. Rogers. Thank you. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Rodriguez.

                            STRATEGIC PLANS

    Mr. Rodriguez. Thank you very much. And once again, thank 
you for being here with us.
    On your chart, I know that the first one you mentioned, the 
information and management, are the importance of educating and 
getting that information across.
    In speaking about that, when you look at border security 
and chemical, bio, and cyber security, do we have strategic 
plans that are available, that people can see in those specific 
areas? Do we have that?
    Mr. Buswell. I think it varies from component to component. 
What they have published as far as their strategy goes, I mean, 
of course the Department has a strategic plan that we dovetail 
into. We are operating probably four layers below, you know, 
that strategy.
    We take our, in these integrated product teams for example, 
in the information management, we are talking to the 
Intelligence and Analysis Branch of Homeland Security as to 
what their needs are. And they have a strategy as to how they 
want to compile information and get it to fusion centers--for 
example, the state and local folks--for use.
    Mr. Rodriguez. And in terms of not only the strategy, but 
in terms of also the things that I know, you know, we kind of 
look at who is bringing in the explosives, who is bringing in 
the bio. But the more natural things, on the biochemical for 
example, the TICs that come across that we have a serious 
problem with, that could basically, you know, quarantine all 
U.S. meat and create a serious problem. Do we look at those 
kind of things?
    We have the Carrizo cane that creates a serious problem for 
border patrol and security on the border. Do we have a plan 
there to, you know, on those aspects on cyber security, to 
continue the importance of educating people in the private 
sector, and assuring that they will be cautious?
    Mr. Buswell. There are--let me take them sort of one at a 
time.
    The Carrizo cane, we are working hard on that with CBP. 
They have got some plans; we have got some experimental ideas 
that we are looking forward to starting soon. So that is one--
--
    Mr. Rodriguez. Let me know if I can help, because we need 
to get rid of as much of that stuff as we can.
    Mr. Buswell. We agree. We agree. As far as the strategic 
plans in other areas, cyber, they are of varying maturity, I 
will say, across the government, across the entire government. 
Cyber is obviously something that there is a huge inter-agency 
effort on.
    And we take our cues from their plans. So the investments 
that we make are, are advised by those plans, and advised by 
the highest-priority capability needs that those plans address.
    So I would tell you that we do not invent the science that 
we do research on, we do not invent the areas. We take that 
from the customers.

                            CYBER INTRUSIONS

    Mr. Rodriguez. And on a more secure basis, on cyber for 
example, I know that when I was in Higher Education back in the 
Texas House, they did not tell us about the number of attempted 
rapes or things that happened on a university, because they 
wanted to keep it quiet.
    The same for the private sector. I know that there is 
problems in the banking system with cyber. They are going to 
keep that quiet, because it is not good for the consumer to 
hear that.
    How do we begin to work with the private sector to really 
see how serious the problem is? Because I know that it has 
doubled and quadrupled, and even doubled again in terms of the 
whole issue of cyber intrusions that have occurred.
    Mr. Buswell. I am going to take that for the record, 
because I am not sure what we have across the government that 
talks about that.
    But I think you are having a cyber hearing here in a little 
bit. And one of the witnesses will be the Program Manager, Doug 
Maughan, who runs our cyber program. And he is fully versed on 
these things.
    So if I can defer to Doug at a future hearing, that would 
be terrific. But he is fully engaged.
    [The information follows:]

    Question. What is the magnitude of cyber intrusions in the private 
sector and how are we working with them on that?
    Response. According to a case study published by the U.S. Cert in 
2005 (http://www.us-cert.gov/control_systems/pdf/
undirected_attack0905.pdf), cyber intrusions cost companies billions of 
dollars per year. The S&T Cyber Security R&D investment activities 
directly addresses a wide range of cyber attacks and vulnerabilities 
affecting both the Government and private sectors spanning malware 
detection, improved monitoring and reporting, and technologies to 
improve the security of existing Internet infrastructure. A prime 
example is S&T's Domain Name System Security (DNSSEC) initiative. DNS 
is a critical underpinning of today's Internet, responsible for mapping 
Internet Protocol (IP) numbers to domain names and without which the 
Internet would be unusable. Various types of DNS based attacks have 
been directed toward the private sector to succcessfully attack 
business-critical processes, prevent access to web sites, and 
compromise customer identities, accounts, and computers. Many DNS 
attacks can be prevented through the deployment of new security 
mechanisms for signing and validating DNS data. The DNSSEC initiative 
provides these solutions while driving their deployment, adoption, and 
use to help secure a crucial element of Internet infrastructure for 
both the private sector and Government. A DNSSEC Industry Coalition 
recently formed to work collaboratively to facilitate DNSSEC adoption.

    Mr. Price. We will be having an Executive Session on cyber 
security later in the season. But in the meantime, what you can 
furnish for the record along these lines, we would----
    Mr. Buswell. My pleasure.
    Mr. Price [continuing]. Be very glad to see. I think we can 
get in the remaining questions here. The votes have been 
called. I will ask both questioners and answerers to proceed, 
very briefly though, starting with Mr. Carter.

                       FOLIAGE-PENETRATING RADAR

    Mr. Carter. Thank you, Mr. Chairman. Real quick, getting 
back to what my colleague from Texas was talking about, this 
Carrizo cane.
    I know that one of the issues that has been out there that 
the Air Force and a bunch of other people have been trying to 
figure out, how to get foliage-penetrating radar to go through 
things like that cane, you know. I am not as sensitive as 
others; I just cut it down. It is a sensitive issue.
    Do you have any idea what kinds of technology that they are 
looking at in particular for that, for penetrating that pretty 
dense cane and mesquite rush barriers along the Rio Grande 
River?
    Mr. Buswell. I would, I am not sure that foliage-
penetrating--we do not have a program in foliage-penetrating 
radar.
    Mr. Carter. If you do not have it yet, I think it is risky. 
I think you have got to get----
    Mr. Buswell. Yes, sir, that is right. And as you said, 
there is a lot of work going on in the Department of Defense 
for those kinds of capabilities.
    We would probably tend to leverage those investments that 
are much larger than anything that we could probably bring to 
bear. That is our strategy there.
    As far as getting rid of that, you know, that nasty Carrizo 
cane, there is a combination effort of herbicide, and we have 
got an insect that will eat it. We have got a wasp that will 
eat the cane that we are planning on testing down there, you 
know, with CBP.
    I read in the newspaper last night that there has been an 
injunction on doing anything against Carrizo cane. So we will--
--
    Mr. Carter. Well, we got more than our share of wasps down 
there. I hunt down in that area; we do not need any more wasps, 
thank you. [Laughter.]
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Price. All right, Mr. Farr.

                                 MITOC

    Mr. Farr. Thank you. What I was interested in was MITOC 
program, essentially developed through the military and the 
Navy and used in, for the first time, kind of operational in 
the tsunami in India. And when they came back, they improved 
it. And then working with the private sector, field-trialed it 
in Kentucky. And I guess that is where the university has 
really taken it on as a center there.
    Those are the kinds of things that I am really interested 
in seeing that we do that is an operable connection. And I know 
you are going out to Monterey. And I was reading your testimony 
that you want to decrease the time for detection of a wide area 
of bio-aerosol release? The Navy lab out there has done 
remarkable experiments on this, that is essentially the Navy 
lab dealing with weather, because the Navy weather station is 
there.
    Mr. Buswell. Right.
    Mr. Farr. But you might check it out. It is right next to 
the campus of the----
    Mr. Buswell. My pleasure. I have been there several times 
to METOC there at the----
    Mr. Farr. So that is all the comment I had to make. Thank 
you for the hearing.
    Mr. Buswell. Thank you.
    Mr. Price. Thank you. And with that, we will go off to do 
our duty on the Floor. But we want to thank you for the good 
work you are doing, and for this helpful testimony this 
morning. I look forward to working with you as we put the 
budget together for the coming year.
    Mr. Buswell. My pleasure. Thank you very much, Mr. 
Chairman.
    Mr. Price. Thank you. And the Subcommittee is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                          Thursday, April 23, 2009.

                    TESTIMONY OF MEMBERS OF CONGRESS



                            MEMBER REQUESTS

                               WITNESSES

HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
HON. DEBBIE HALVORSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. HENRY CUELLAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

                  Opening Statement of Chairman Price

    Mr. Price. The subcommittee will come to order. Welcome. 
Today we will be taking testimony from Members of Congress who 
have asked for project consideration as part of the fiscal year 
2010 budget requests for the Department of Homeland Security.
    As I have previously stated, the subcommittee earmarks 
funding within three areas of DHS: for predisaster mitigation, 
for emergency operations centers, and for bridges that are 
deemed an obstruction to navigation and must be altered. On 
occasion the subcommittee earmarks projects outside of these 
categories, but it is uncommon.
    Of course, Members may also make programmatic requests that 
do not require a specific earmark, we will welcome any 
suggestions along those lines today as well, and we look 
forward to the customary input from Members throughout the 
entire appropriations process.
    We look forward to hearing from our Members today, 
beginning with Congressman Ellison. Keith please step up to the 
table. Your full written statement will be entered into the 
record, so I ask that you limit your oral remarks to a five 
minute presentation.
    Before we begin, however, let me ask our Ranking Member, 
Mr. Rogers, for any comments he wants to make.
    Mr. Rogers. I have no comments.
    Mr. Price. No comments, so we will proceed.
    Keith Ellison, a Member from Minnesota, welcome. Please 
proceed.
                                          Thursday, April 23, 2009.

                            MEMBER REQUESTS

                                WITNESS

HON. KEITH ELLISON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
    Mr. Ellison. Mr. Chairman, thank you for allowing me to 
present today, and also let me thank Ranking Member Rogers. I 
certainly appreciate the opportunity and really appreciate 
being able to take part in this forum.
    I am here today to provide additional details for an 
earmark request that I have submitted on behalf of the City of 
Minneapolis. This is a request for $1 million to build a new 
emergency operations center in Minneapolis. This new center 
would provide the needed space and required technology to 
effectively manage future emergency incidents in Minneapolis, 
as well as the greater Twin Cities metro area.
    In August 2007, we experienced a collapse of the Interstate 
35W bridge in Minneapolis, and this dramatic event in which we 
lost 13 members of our community, and over a hundred people 
suffered severe injuries, also highlighted the importance of 
this project.
    More importantly I think, this tragedy helped to show the 
nation that a well-organized emergency response saves lives. 
Many people thought that more than 13 people would have lost 
their lives in this tragic incident, but because of the quick 
emergency response, many people were in fact saved. Of course, 
every minute and every hour counts when such a tragedy strikes.
    The bridge collapse also revealed the shortcomings of the 
undersized and poorly equipped Minneapolis Emergency Operations 
Center. I will refer to it as the EOC. The EOC was the command 
center coordinating the local, state and federal emergency 
response to the bridge collapse.
    The Federal Emergency Management Agency, FEMA, and the 
United States Fire Administration, USFA, in an after action 
assessment stated that the current Minneapolis EOC was 
inadequate to meet the needs of a complex emergency incident. 
Let me quote from the report:
    ``The EOC is located in the basement of city hall and is 
used when a large-scale emergency or disturbance occurs that 
involves multiple city agencies. The EOC is essentially a 
single room, which did not have enough space for all of the 
representatives from the organizations having statutory 
authority to be present.
    ``There is not enough room for a policy coordinating group, 
usually staffed by political and administrative leaders, or for 
other planning, logistical or public information functions. The 
inadequate size and functionality of the current EOC was rated 
by most respondents as the biggest obstacle to management of 
the response.
    ``Particularly during the evening of the collapse, the EOC 
was simply not capable of handling the number of staff and 
elected officials who reported to the Center.''
    I can testify since I was there myself and recognized that 
we just had a severe space and therefore logistical barrier. My 
appropriation request will be used to build a new EOC with 
additional space and necessary technology to enable emergency 
personnel more effective management capability to address a 
broad range of possible emergency incidents throughout the Twin 
Cities.
    The Twin Cities contains the nation's twelfth largest 
regional economy, and it includes a concentration of critical 
infrastructure and key resources and, most importantly, boasts 
a regional population of approximately three million people.
    The new EOC is consistent with and supported in the 
Minnesota Homeland Security strategy, the Twin Cities Urban 
Area Security Initiative strategy and the Minnesota State 
Preparedness Report. The final design for the new EOC has been 
completed, and approximately $5.6 million in local funds have 
been identified for the project.
    The operating and maintenance budget has been developed and 
will be secured with city general fund dollars. The federal 
appropriations request of $1 million would permit completion of 
construction by spring of 2010, about a year from now.
    Mr. Chairman, in conclusion, I want to thank the entire 
committee, along with the Ranking Member, for the time and 
consideration of this important request. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you, Mr. Ellison. We appreciate that 
testimony.
    I have no questions. Do you, Mr. Rogers?
    Mr. Rogers. No questions.
    Mr. Ellison. Thank you.
    Mr. Price. Thank you very much.
    Mr. Ellison. Have a fine day.
    Mr. Price. We will next call to our witness table 
Representative Deborah Halvorson from Illinois, one of our new 
Members. Ms. Halvorson, please proceed.
                              ----------                              

                                          Thursday, April 23, 2009.

                            MEMBER REQUESTS

                                WITNESS

HON. DEBBIE HALVORSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Ms. Halvorson. Thank you, Chairman Price, Ranking Member 
Rogers and Members of the committee. Thank you so much for 
allowing me to testify today on behalf of my constituents in 
the 11th Congressional District of Illinois.
    I come before you today to ask you for consideration of a 
$5 million appropriation for the Central Elementary School in 
Ottawa, Illinois, for predisaster mitigation. On September 15, 
2008, the remainder of Hurricane Ike swept through Illinois, 
causing severe storms and some of the worst flooding my state 
had ever seen in decades.
    First of all, my district was very much affected. 
Particularly in the historic city of Ottawa they saw severe 
damage. Because of the storm, Ottawa residents were evacuated 
from nursing homes, roads were deemed to be unsafe, falling 
trees caused further damage, and with destruction throughout 
the area Ottawa's Central Elementary School was hit 
particularly hard and experienced a great deal of damage. 
Central Elementary School houses over 400 fifth and sixth grade 
students.
    The flooding caused two significant and devastating effects 
on the school, which has prevented students from being able to 
return to the classroom. First, water damage virtually 
destroyed the school, making it unsafe environmentally for the 
children. Second, asbestos was found inside the school building 
and the soil surrounding the building.
    So for the time being, church basements and mobile 
classrooms throughout the Ottawa community are serving as 
classrooms for the 400 students, and, as you can imagine, the 
logistics involved in providing ongoing education has presented 
numerous challenges on multiple levels.
    Local officials have been placed in difficult positions of 
having to find quick solutions for a very expensive problem. 
The school board has decided that the best option at this point 
is to take the entire school and put them in an abandoned 
WalMart for the next school year until they can find a 
permanent solution.
    The simple fact is that the small community of Ottawa is 
unable to assume the full financial burden of making sure that 
the students have a location to attend school. The specific 
amount of money that the school will receive from FEMA is 
unclear at this point, but it is unlikely that these funds will 
be adequate for the students to return to the school.
    There is a lot of work that needs to take place before we 
can get our fifth and sixth graders back to a proper classroom 
to start learning again. We need to make sure that the school 
is structurally safe, free from toxic materials and that 
necessary precautions are taken to prevent substantial flood 
damage in the future. Rebuilding the school in the current 
location poses a risk to flooding again.
    An appropriation of any amount will help provide the 
critical financial resources needed to either rebuild the 
school in a location outside the flood plain or rebuild on 
existing location just somehow to mitigate the risk of future 
flooding.
    So I am grateful to the members of our community that have 
helped in every way to help the children of Central Elementary 
School continue their education in these challenging times. The 
church basements have been converted to classrooms. Parents 
have volunteered their time and energy and school employees 
have worked tirelessly, but I ask please that this committee 
consider funding for Central Elementary School.
    Fifth and sixth graders need help, and this is not the time 
in their life that they should go from church basements to an 
abandoned WalMart for their schooling.
    I really appreciate your time, Chairman Price and Ranking 
Member Rogers, to help us in this needy time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you very much. Let me just ask you briefly 
to comment on your current dealings with FEMA. You do have a 
declaration----
    Ms. Halvorson. Yes, sir.
    Mr. Price [continuing]. And there is a possible eligibility 
there. What do you understand that situation to be?
    Ms. Halvorson. Well, unfortunately we are still working 
with them. They were told in the beginning that the money that 
they would get could help them relocate.
    Now they have been told that the money will only be to fix 
the school they are in. However, it is minimal. It will not 
come near the cost to fix the school, and the school will have 
to be left in the place it is at. It is in a floodplain where 
it will flood over and over again.
    So we need whatever help we can get to mitigate the fact 
that we do not want it to still be structurally unsound and so 
we need whatever help we can to mitigate the process to make it 
safe from this to happen again. The parents are scared to put 
their fifth graders and sixth graders back in a situation where 
this could happen again over and over again.
    Mr. Price. Well, we will certainly give this consideration. 
We understand very readily the challenge you are facing here 
and the need to get this school back in business in a safer 
way, a way that will resist future damage. We will have to 
see----
    Ms. Halvorson. Right.
    Mr. Price [continuing]. What the fit is between this and 
the kind of categories of funding that we have available.
    Mr. Rogers.
    Mr. Rogers. No questions.
    Mr. Price. No questions. So thank you very much, Ms. 
Halvorson.
    Ms. Halvorson. And thank you both very much. We are just 
looking for every avenue possible to help these children.
    Mr. Price. We understand. Thank you.
    Ms. Halvorson. Thank you.
    Mr. Price. So we will next call Congressman Cuellar. 
Welcome.
    Mr. Cueller. Mr. Chairman, Mr. Rogers.
    Mr. Price. Congressman, we are glad to have you. We ask you 
to summarize your remarks within five minutes, and we will put 
your full statement in the record.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                            MEMBER REQUESTS

                                WITNESS

HON. HENRY CUELLAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Cueller. Thank you, Mr. Chairman. First of all, I 
appreciate the work that you all do in this committee. As you 
know, I chair one of the subcommittees in the Homeland 
Security, so I appreciate what the Appropriations folks do 
here.
    I have a couple of requests here. I just want to talk about 
one. It has to do with an advance emergency response wireless 
network for the city of Hidalgo. This is a FEMA predisaster 
mitigation account in the amount of $500,000. Basically what we 
are asking here, Mr. Chairman, is to create a wireless 
broadband network to provide public alert and warning 
communications.
    One of the things that we have seen down there on the 
border, Mr. Chairman, is the fact that we have the situation of 
what is happening across the river, number one, the situation 
with the drug cartels across the river. At the same time, being 
on the river in that particular area we have put in some money 
for levees to control the flooding. There was a huge flooding 
there back about 20, 30 years ago.
    So what this will allow is to have a wireless broadband 
network for alert and warning communications, and this is 
something that I would ask you to consider. I have some other 
requests, but I know you all are very busy, and the rest of the 
testimony is there. I just wanted to bring this up at this 
time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. All right. Thank you very much.
    Mr. Rogers, do you have any questions?
    Mr. Rogers. No questions.
    Mr. Price. All right. We appreciate your appearing.
    Mr. Cueller. Thank you, sir.
    Mr. Price. And we will give due consideration to your 
request.
    Mr. Cueller. Thank you for your time.
    Mr. Price. We had one additional witness scheduled, but I 
do not believe he is on the scene. All right.
    Voice. He is here, Mr. Chairman.
    Mr. Price. All right. Good. Good. Our colleague, Rush Holt 
from New Jersey arriving, just in the nick of time.
    Rush, we welcome you here. We ask that you give us a five 
minute oral summary of your statement. We will put whatever you 
want in the record.
                              ----------                              --
--------

                                          Thursday, April 23, 2009.

                            MEMBER REQUESTS


                                WITNESS

HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Holt. I hope I can keep it to less than that. Thank 
you, Mr. Chairman, Mr. Rogers and the committee. Thanks for the 
opportunity to testify on the fiscal 2010 Homeland Security 
appropriations.
    As I have already provided the subcommittee with 
information, I have requests for some specific projects in Old 
Bridge, Shrewsbury, West Windsor Township and Trenton, and I 
will not revisit those requests right now. I would like to talk 
about a couple of programmatic matters.
    As you may know, I have a programmatic funding request 
regarding the Commercial Equipment Direct Assistance Program, 
the so-called CEDAP. CEDAP fills a critical role in helping 
local law enforcement and first responders by providing 
qualified applicants with the means to buy commercially 
available equipment that can be used to make our community 
safe.
    Since its inception in 2005, CEDAP funding has been reduced 
from $50 million to its current low in fiscal year 2009 of $8 
million. During 2008, more than 3,500 applications were 
approved for funding. However, based upon the availability of 
funds only 1,000 jurisdictions were ultimately served by the 
program. Twenty-five hundred approved applications were placed 
on the 2009 CEDAP list.
    In September 2008, then Senator Biden introduced the 
Homeland Security Law Enforcement Improvements Act, which 
called for allocating not less than $75 million for the CEDAP 
program for fiscal years 2009 and 2010, and I think this would 
be an appropriate funding level so I request that you take a 
look at the CEDAP funding and consider an increase to something 
on the order of $75 million.
    Second, I would like to bring to the committee's attention 
a situation at Amtrak that I believe represents a shortcoming 
in safety preparations and effective counterterrorism response.
    Earlier this year I was made aware of the existence and 
activities of the Amtrak's Office of Security Strategy and 
Special Operations. This element, which does not answer to the 
leadership of the existing Amtrak Police Department, has 
created SWAT-like units and intelligence liaison relationships 
with our intelligence agencies and conducted hostage rescue 
training exercises, all without, as far as I can tell, 
integrating its activities within the existing Amtrak Police 
Department's chain of command.
    Police union officials have visited me and talked about 
training exercises that have been conducted without notifying, 
for example, either the Washington Metropolitan Police 
Department or the FBI Joint Terrorism Task Force in Washington. 
This created something of a scene.
    This OSSSO entity has, according to its own officials, 
received millions of dollars of rail security funding approved 
by Congress, and when they met with me earlier they pressed for 
still more. I am deeply concerned about this entity's 
activities and the clear disconnect within Amtrak over who is 
in charge of rail security in the northeast corridor and 
elsewhere in the Amtrak system.
    So I ask the committee to conduct a probing look at this, 
at the organization and its relationship with the Amtrak Police 
Department, and give some thought to what measures Amtrak 
should take either on its own or with congressional direction 
to ensure that there is a coherent, unified organization 
looking at rail security.
    I appreciate the committee's time and attention on these 
matters, and I would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. We do appreciate you coming forth and 
addressing these policy matters, particularly this latter 
concern, which I agree does warrant our attention as we prepare 
the bill, so thank you for flagging this matter this morning.
    Mr. Rogers, do you have any questions?
    Mr. Rogers. Only to comment briefly. I appreciate your 
bringing to our attention the CEDAP request. That is a popular 
thing in my part of Kentucky. Of course, we will give that due 
consideration, but I do appreciate your highlighting that 
aspect. Thank you.
    Mr. Holt. Thank you. If I may just say for the record so 
that it is clear to others, CEDAP gives a preapproved list that 
makes it easier for small organizations without large 
procurement departments to choose approved items and get on 
with it.
    Mr. Rogers. Commercial Equipment Direct Assistance Program, 
and that is a proper name.
    Mr. Holt. Thank you.
    Mr. Price. Thank you very much.
    Mr. Holt. Thank you.
    Mr. Price. With that, we thank all of our witnesses, and 
the Subcommittee is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S 

                              ----------                              
                                                                   Page
Ashley, W. R..................................................... 1, 95
Bastian, Anthony.................................................   580
Buswell, Bradley.................................................   427
Cuellar, Hon. Henry............................................559, 568
Decker, Russell..................................................   604
Donlon, Thomas...................................................   652
Dragani, Nancy...................................................   629
Eckles, Jack.....................................................     1
Ellison, Hon. Keith............................................559, 560
Halvorson, Hon. Debbie.........................................559, 564
Holt, Hon. R. D................................................559, 575
Hornberger, Jack.................................................   582
Iwan, G. R.......................................................   649
Kelley, C. M.....................................................   622
Kraninger, Kathleen..............................................   347
McHugh, Hon. J. M................................................   586
Millar, W. M.....................................................   590
Miller, R. C.....................................................   581
Mocny, Bob.......................................................   347
Morange, Bill....................................................     1
Perkins, Douglas.................................................   583
Romanowich, J. F.................................................   584
Rossides, Gale...................................................   281
Sammon, John..................................................... 1, 95
Schue, Charles...................................................   598


                               I N D E X

                              ----------                              

         SECURING THE NATION'S RAIL AND TRANSIT SYSTEMS, PART 1

                                                                   Page
Opening Statement of Chairman Price..............................     1
Opening Statement of Ranking Member Rogers.......................     7
Opening Statement of John Sammon, Assistant Administrator for 
  Transportation Sector Network Management.......................    12
Opening Statement of W. Ross Ashley, Assistant Administrator for 
  Grant Programs.................................................    20
Opening Statement of Bill Morange, Deputy Executive Director and 
  Director of Security, New York Metropolitan Transportation 
  Authority......................................................    34
Opening Statement of Jack Eckles, Deputy Executive Officer for 
  System Safety and Security, Los Angeles County Metropolitan 
  Transportation Authority.......................................    44
Award and Funding Delays.........................................    58
State Administrative Agent Issue.................................    60
Drawdown of Funds................................................    61
Historic Preservation Requirements...............................    61
TSA Role.........................................................    62
TSA Modifications to Grant Language..............................    62
Security Rankings................................................    62
Interaction with the Transit Community...........................    62
Funding Availability.............................................    64
2006 Funding Drawdown............................................    65
Approval of the 2006 Budget......................................    67
Process Improvements.............................................    67
Joint Administration by FEMA and TSA.............................    67
Tier One Process.................................................    67
Cash Flow Report.................................................    68
METRA Request....................................................    68
Two Agencies in Charge...........................................    69
Applications Process.............................................    69
FEMA Fiduciary Responsibility....................................    69
Expedite Grant Process...........................................    70
Report Requirement...............................................    70
Importance of Funding............................................    71
Advice on Streamlining the Process...............................    73
Report Clarification.............................................    76
9/11 Act Provisions..............................................    77
Agency Performance Assessment....................................    77

         SECURING THE NATION'S RAIL AND TRANSIT SYSTEMS, PART 2

Opening Statement of Chairman Price..............................    95
Opening Statement of Ranking Member Rogers.......................   100
Opening Statement of John Sammon, Assistant Administrator for 
  Transportation Sector Network Management.......................   103
Opening Statement of W. Ross Ashley, Assistant Administrator for 
  Grant Programs.................................................   104
Approval of Projects Before Award and Backlog....................   111
TSA Approval of Backlog Projects.................................   113
Interim Report and Final Report..................................   114
Report: Transit and Rail Grant Programs..........................   115
Funds for FY 2010................................................   138
Unspent Funds....................................................   138
Congressional Direction to Accelerate Efforts....................   140
Obligation of Funds..............................................   140
Acceleration of Project Approval.................................   141
Funding for FY 2010..............................................   142
Meeting with Grantees on Expenditures..........................142, 144
Rail Transit Security............................................   143
Delays in Drawdown of Funds......................................   144
Communication with Grantees......................................   145
FEMA's Risk Formula..............................................   146
Draw-Down Figures for New York...................................   146
Reducing Appropriations..........................................   147
Funding Priorities...............................................   147
Testing and Deploying Screening Equipment........................   148
Grant Program Administration.....................................   149
Questions for the Record Submitted by Chairman David Price to 
  John Sammon....................................................   153
    Transit and Passenger Rail Grants............................   153
    Working with the Department of Transportation................   155
    Surface Transportation Inspectors............................   157
    Visible Intermodal Protection and Response Teams.............   160
    Ability of Transit Agencies to Meet Security Requirements....   166
    Secretarial Action Directives................................   167
    Regional Transit Security Working Groups.....................   168
    9/11 Commission Act..........................................   169
    Canine Teams.................................................   172
    Toxic Inhalation Hazard......................................   173
    Research Programs Related to Surface Transportation Security.   174
    Management...................................................   175
Questions for the Record Submitted by Chairman David Price to W. 
  Ross Ashley....................................................   260
    Transit and Passenger Rail Grant Funding.....................   260
    Working with the Department of Transportation................   262
    Secretarial Action Directives................................   263
Questions for the Record Submitted by the Honorable Nita Lowey to 
  W. Ross Ashley.................................................   264
    Grant Program Expenditures...................................   264
    Transit Grants Allocation Methodology........................   264
Questions for the Record Submitted by the Honorable Nita Lowey to 
  John Sammon....................................................   265
    Grant Program Expenditures...................................   265
    Amtrak Security..............................................   265
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard to John Sammon...................................   266
    Mismanagement of the Transit Security Grant Program..........   266
    Allocation of TSA Resources to Safeguard Mass Transit........   268
    Training for Transit, Rail and Bus Workers...................   268
Questions for the Record Submitted by Ranking Member Rogers to W. 
  Ross Ashley....................................................   270
    TSA Security Assessment of Largest Mass Transit and Rail 
      Agencies...................................................   270
    Anticipated Number of Additional VIPR Teams..................   270
    Recent DHS IG Report on Surface Inspectors...................   271
    Surface Inspectors Role in Larger Surface Security Strategy..   271
    TSA Pilot Program Within NYC Subway System...................   272
Questions for the Record Submitted by the Honorable Ken Calvert 
  to John Sammon.................................................   273
    Rail Car Tracking............................................   273
Questions for the Record Submitted by the Honorable Ken Calvert 
  to Jack Eckles.................................................   275
    Closed Circuit Television....................................   275
    Grant Guidance...............................................   275
Questions for the Record Submitted by the Honorable Ken Calvert 
  to Bill Morange................................................   277
    Grant Guidance...............................................   277

        IMPROVING THE EFFICIENCY OF THE AVIATION SECURITY SYSTEM

Opening Statement of Chairman Price..............................   281
Opening Statement of Ranking Member Rogers.......................   285
Opening Statement of Gale Rossides, Acting Administrator, 
  Transportation Security Administration.........................   289
Air Cargo Screening Progress.....................................   300
Tamper-Proof Technology..........................................   301
Air Cargo Chain of Custody.......................................   301
International Air Cargo Screening................................   302
Equipment for Inspection of Air Cargo............................   303
Upgrade Security Equipment.......................................   303
Number of Screeners..............................................   306
Secure Flight....................................................   306
Mass Transit Security Help.......................................   307
FEMA Problems....................................................   308
Focus on Air Transportation Versus Other Modes...................   308
Employee Screening...............................................   309
Collective Bargaining for TSA Employees..........................   310
Bus Travel.......................................................   311
TSA Bus Security Activities......................................   312
Securing Uniforms and Badges.....................................   313
Security of Airport Workers......................................   313
Large Aircraft Security Program..................................   314
Questions for the Record Submitted by Chairman David Price to 
  Gale Rossides..................................................   317
    Air Cargo Security...........................................   317
    Checkpoint Technologies......................................   323
    Explosive Detection Systems (EDS)............................   327
    Maintenance and Utility Costs for Screening Technologies.....   329
    Transportation Security Officers.............................   331
    Aviation Regulation and Other Enforcement....................   336
    Security at Foreign Repair Stations..........................   337
    Federal Flight Deck Officer and Flight Crew Training.........   338
    Secure Flight................................................   339
    Screening of Aviation Workers................................   340
    Air Crew Screening...........................................   342
    9/11 Act Expenditure Plan....................................   343
    School Bus Security Assessments..............................   344
    Transportation Security Support..............................   344
    Reception and Representation.................................   347
    Bonuses......................................................   347
    Travel.......................................................   348
    Unobligated Balances.........................................   349
Questions for the Record Submitted by Ranking Member Rogers to 
  Gale Rossides..................................................   351
    Secure Flight................................................   351
    Large Aircraft Security Program..............................   351
Questions for the Record Submitted by the Honorable John Abney 
  Culberson to Gale Rossides.....................................   352
    Canadian Bag Rescreening.....................................   352
Questions for the Record Submitted by the Honorable Ken Calvert 
  to Gale Rossides...............................................   353
    ARRA Funding for John Wayne Airport..........................   353
    Biometric Access Controls....................................   353
    Installation of New Technology at Airports...................   354
    Redundancy in TSA Regulatory System..........................   354

                        BIOMETRIC IDENTIFICATION

Opening Statement of Chairman Price..............................   356
Opening Statement of Ranking Member Rogers.......................   360
Opening Statement of Kathleen Kraninger, Deputy Assistant 
  Director of Policy, DHS Screening Coordination Office..........   368
Opening Statement of Bob Mocny, Director, United States Visitor 
  and Immigrant Status Indicator Technology......................   369
Passports Issued to GAO Investigators............................   382
Databases Managed by DHS.........................................   383
US-VISIT Identity Management Services............................   384
Secure Communities...............................................   385
US-VISIT Immigration Control or Inventory........................   385
Exit Solution....................................................   386
DoD Biometrics...................................................   387
Exit System......................................................   388
Two-Print and Ten-Print Data Collection..........................   389
Biometric Storage System.........................................   389
Pilot Projects...................................................   390
Border Crossing By Car and on Foot...............................   390
Border Crossing Baggage Check....................................   392
Visa Waiver Program..............................................   393
Exit Strategy....................................................   393
Interaction with E-Verify Program................................   394
Biometric Identifier Attached to Social Security Card............   395
Number of Individuals Processed Each Year........................   395
Next Exit Pilot Program..........................................   396
Eye Scan Technology..............................................   396
Potential Impacts on RFID Enabled Documents......................   397
Pass Card for the Mexican Border.................................   398
Accuracy Issues..................................................   399
Exit System Add to US-VISIT......................................   401
Global Entry Program.............................................   403
International Registered Travel Program..........................   404
Questions for the Record Submitted by Chairman David Price to 
  Kathleen Kraninger and Bob Mocny...............................   405
    US-VISIT and Overstay Identification.........................   405
    US-VISIT: Exit...............................................   406
    US-VISIT--Migration to 10-Print Standard.....................   408
    US-VISIT Governance..........................................   410
    Unique Identity..............................................   411
    US-VISIT Performance.........................................   412
    US-VISIT Staffing............................................   412
    US-VISIT Cybersecurity.......................................   413
    Enrollment...................................................   413
    DHS Biometrics Technology....................................   414
    Enumerator...................................................   417
    Effectiveness................................................   418
    Impact on Travel and Trade...................................   419
    Proper Use of Data...........................................   420
    Persistence of Data Presented by Individuals.................   421
    IDENT/BSS....................................................   422
    State Department Databases and DHS...........................   422
    DoD Databases and DHS and HSPD 6.............................   423
    HSPD 24......................................................   423
    HSPD 12......................................................   428
    Airport Credentialing and Biometrics.........................   429
    Global Entry.................................................   431
    Registered Traveler..........................................   432
Questions for the Record submitted by Ranking Member Rogers to 
  Kathleen Kraninger and Bob Mocny...............................   433
    TWIC.........................................................   433
    Screening Coordination.......................................   433
    Screening Redundancy with TWIC and HAZMAT....................   434

 DEVELOPING AND TRANSITIONING HOMELAND SECURITY RESEARCH PRODUCTS INTO 
                                  USE

Opening Statement of Chairman Price..............................   436
Opening Statement of Ranking of Member Rogers....................   441
Opening Statement of Bradley Buswell, Acting Undersecretary for 
  Science and Technology, Department of Homeland Security........   446
Resilient Electric Grid..........................................   483
Engage the Private Sector........................................   485
Non-Flammable Gasoline and Levee Break Fixes.....................   488
Vehicle-Borne Improvised Explosive Devices.......................   488
List of Capability Needs.........................................   489
Prioritization of S&T Efforts....................................   490
Security of Capability Information...............................   490
California Homeland Security Consortium..........................   491
Liquid Detection Efforts.........................................   492
Private Sector Involvement.......................................   493
Unexpended Funds.................................................   494
Resilient Grid Project Cyber Vulnerabilities.....................   496
Domain Name Security.............................................   496
NBAF Safety on Mainland..........................................   497
Information Availability.........................................   498
Container Security Devices.......................................   499
Strategic Plans..................................................   500
Cyber Intrusions.................................................   501
Foliage-Penetrating Radar........................................   502
Questions for the Record Submitted by Chairman David Price to 
  Bradley Buswell................................................   504
    BioWatch.....................................................   504
    Regional Biocontainment Laboratories.........................   508
    Chemical Programs............................................   508
    Counter MANPADS..............................................   509
    Air Cargo....................................................   510
    The Future Attribute Screening Technology (FAST).............   512
    Container and Advanced Container Security Devices............   512
    Supply Chain Architecture Project............................   513
    Hybrid Composite Container...................................   513
    Technology Clearing House....................................   514
    Inclusion of Stakeholders....................................   519
    Border Inspection Technology Projects........................   526
    International Agreements.....................................   526
    Basic Research...............................................   527
    Centers of Excellence........................................   529
    First Responders.............................................   532
    Demonstration and Pilot Programs.............................   533
    National Bio- and Agro-Defense Facility (NBAF)...............   541
    Test & Evaluation and Standards..............................   545
    Management...................................................   546
    Contracts....................................................   559
Questions for the Record Submitted by Ranking Member Rogers to 
  Bradley Buswell................................................   564
    Container Security Device....................................   564
    Counter IEDs.................................................   564
    Screening Redundancy with TWIC and HAZMAT....................   434

                      MEMBERS REQUESTS HEARING DAY

Opening Statement of Chairman Price..............................   568
Opening Statement of the Honorable Keith Ellison.................   569
Opening Statement of the Honorable Debbie Halvorson..............   573
Opening Statement of the Honorable Henry Cuellar.................   577
Opening Statement of the Honorable Rush D. Holt..................   584
Testimony of the Honorable John M. McHugh........................   585

                       OUTSIDE WITNESS TESTIMONY

American Public Transportation Association.......................   599
UrsaNav..........................................................   607
International Association of Emergency Managers..................   613
Fleet Reserve Association........................................   619
National Congress of American Indians............................   628
National Treasury Employees Union................................   631
National Emergency Management Association........................   638
National Environmental Services Center...........................   658
New York State Office of Homeland Security.......................   661

                                  <all>

</pre></body></html>
